<html>
<title> - NEW ROADMAPS FOR WIND AND SOLAR RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    NEW ROADMAPS FOR WIND AND SOLAR
                        RESEARCH AND DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2009

                               __________

                           Serial No. 111-42

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______
                  U.S. GOVERNMENT PRINTING OFFICE
50-746                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                 HON. BRIAN BAIRD, Washington, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                             July 14, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                               Witnesses:

Mr. Steven C. Lockard, President and Chief Executive Officer, TPI 
  Composites, Inc.; Co-Chairman, American Wind Energy 
  Association, Research & Development Committee
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    15

Mr. John Saintcross, Program Manager, Energy and Environmental 
  Markets, New York State Energy Research and Development 
  Authority (NYSERDA)
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    31

Dr. Andrew Swift, Director, Wind Science and Engineering Research 
  Center, Texas Tech University
    Oral Statement...............................................    32
    Written Statement............................................    33
    Biography....................................................    36

Mr. Ken Zweibel, Professor of Energy; Director, George Washington 
  Solar Institute, George Washington University
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    39

Ms. Nancy M. Bacon, Senior Advisor, United Solar Ovonic and 
  Energy Conversion Devices, Inc.
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    47

Discussion
  The Economic Impacts of Energy Policy Changes..................    47
  Technology Offshoring..........................................    48
  Solar Roof Installation........................................    49
  Offshore Wind Power............................................    51
  General Challenges With Wind and Solar.........................    52
  Government's Role in Technology Deployment.....................    54
  Increasing Efficiencies........................................    56
  Achieving Economic Viability...................................    57
  Decentralizing the Transmission System.........................    59
  Permitting and Wildlife Issues.................................    59
  More on Storage................................................    61
  Bringing Down Costs to the Consumer............................    63
  Net Metering...................................................    65
  Nuclear Power..................................................    66
  More on Net Metering...........................................    67
  Keeping Jobs and Products Domestic.............................    68
  Grid Compatibility With Power Sources..........................    69
  Storage Research Initiatives...................................    70
  Closing........................................................    72

              Appendix: Additional Material for the Record

Letter to Bart Gordon and Ralph M. Hall from the Members of the 
  Sustainable Energy and Environment Coalition, dated July 29, 
  2009...........................................................    74

Restoring American Competitiveness, by Gary P. Pisano and Willy 
  C. Shih, Harvard Business Review, July-August 2009.............    76


        NEW ROADMAPS FOR WIND AND SOLAR RESEARCH AND DEVELOPMENT

                              ----------                              


                         TUESDAY, JULY 14, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:19 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    New Roadmaps for Wind and Solar

                        Research and Development

                         tuesday, july 14, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, July 14, 2009 the House Committee on Science and 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``New Roadmaps for Wind and Solar Research and Development.''
    The Subcommittee's hearing will receive testimony on H.R. 3165 
sponsored by Rep. Tonko to authorize a comprehensive research, 
development, and demonstration program to advance wind energy 
technologies. The hearing also will examine the status of solar energy 
research and development programs and the need for a comprehensive plan 
to guide future solar R&D, including advanced manufacturing techniques 
for solar equipment.

Witnesses

        <bullet>  Mr. Steve Lockard is CEO of TPI Composites and Co-
        Chairman of the American Wind Energy Association (AWEA) 
        Research & Development Committee. Mr. Lockard will testify on 
        the findings of a recent AWEA report on wind energy research 
        and development needs.

        <bullet>  Mr. John Saintcross is an Energy and Environmental 
        Markets Program Manager at the New York State Energy Research 
        and Development Authority. Mr. Saintcross will discuss the 
        current challenges associated with using wind energy systems to 
        meet New York State's renewable portfolio standard.

        <bullet>  Dr. Andrew Swift is Director of the Wind Science and 
        Engineering Research Center at Texas Tech University. Dr. Swift 
        will testify on ways to best integrate academic, governmental, 
        and private sector resources to advance wind energy and wind 
        forecasting technologies.

        <bullet>  Mr. Ken Zweibel is the Director of the George 
        Washington University Solar Institute. Mr. Zweibel will testify 
        on the current status of solar energy technology and the 
        potential for this resource to have a much larger impact in the 
        Nation's energy portfolio.

        <bullet>  Ms. Nancy Bacon is a Senior Advisor for United Solar 
        Ovonic and Energy Conversion Devices, Inc. Ms. Bacon will 
        testify on the private sector's view of the federal role for 
        solar energy research and development in manufacturing and 
        materials.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Background

Wind Energy Research and Development Needs
    Current U.S. land-based and offshore wind resources are sufficient 
to supply the electrical energy needs of the entire country several 
times over according to a Department of Energy report published in May 
2008 entitled: 20% Wind Energy by 2030. A map of these resources 
produced by the National Renewable Energy Laboratory (NREL) can be 
found in Figure 1. A further illustration of the large wind resource 
potential in the U.S. can be found in Table 1. Factoring in 
environmental and other relevant land use exclusions, Pacific Northwest 
National Laboratory determined that the top 12 states in wind energy 
potential (in order: North Dakota, Texas, Kansas, South Dakota, 
Montana, Nebraska, Wyoming, Oklahoma, Minnesota, Iowa, Colorado, and 
New Mexico) could theoretically produce more than double the U.S.'s 
current annual generation of electricity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However to expand from today's proportion of electric generation 
from wind (less than two percent) to a scenario where the U.S. 
generates 20 percent or more of its power from wind energy would 
require several significant advances including: improved wind turbine 
technology, improved wind forecasting capability, improved energy 
storage, and expansion of transmission systems to deliver wind power 
from resource centers to centers of population. In turn, these changes 
in the power generation and delivery process may involve changes in 
manufacturing, policy development, and environmental regulation.
    Overall performance of wind energy systems can be substantially 
improved to become more efficient, cost-effective, and reliable. 
Fundamental technical issues remain even while wind power is 
competitive with coal and other conventional forms of energy in some 
markets. As a follow-up to DOE's wind energy report the AWEA Research 
and Development Committee produced a detailed Action Plan to 20% Wind 
Energy by 2030 in March 2009. This plan proposed $217 million in annual 
federal funding combined with a $224 million industry/state cost share 
to support specific research and development programs which the AWEA 
Committee believes are necessary to meet a goal of providing 20 percent 
of America's electricity from wind by 2030.
    This would be a significant increase from the DOE wind program's 
current annual budget of roughly $50 million, notwithstanding the one-
time expenditure of $118 million currently identified by the Department 
for additional wind research and development activities from the 
American Recovery and Reinvestment Act of 2009. In recent years much of 
the federal wind program has focused on testing and evaluation of 
commercial turbines rather than advanced research, leading to gaps in 
our national wind R&D portfolio. There is broad consensus among 
government, academic, and industry leaders that research areas in which 
greater federal support could have a considerable impact include:

        <bullet>  new materials and designs to make larger, lighter, 
        less expensive, and more reliable rotor blades;

        <bullet>  advanced generators to improve the efficiency of 
        converting blade rotation to electric power;

        <bullet>  automation, production materials, and assembly of 
        large-scale components to reduce manufacturing costs;

        <bullet>  low-cost transportable towers greater than 100 meters 
        in height to capitalize on improved wind conditions at higher 
        elevations;

        <bullet>  advanced computational tools to improve the 
        reliability of aeroelastic simulations of wind energy systems; 
        and

        <bullet>  advanced control systems and blade sensors to improve 
        performance and reliability under a wide variety of wind 
        conditions.

    Wind energy forecasting is another important area of concern 
identified in the AWEA plan and by producers and users of relevant data 
provided by the National Weather Service. Current observational 
networks in the U.S. are relatively sparse and widely spaced for the 
purposes of forecasting for wind energy activities. These networks 
emphasize data collection at a height of 10m or less above the surface 
compared to today's typical wind turbine hub height of roughly 80m. 
This makes it difficult to detect and forecast weather events such as 
large wind speeds over short time periods. In addition, collaborative 
field and computational modeling research is considered necessary in 
strategic areas of the country to better detect and forecast complex 
flow regimes that lead to unexpected turbine outages, long-term turbine 
performance issues, and wind forecasting errors.

New Directions for Solar Technology Development

    Solar energy constitutes the largest global energy resource. 
Currently the Bureau of Land Management (BLM) has 158 active solar 
applications, covering 1.8 million acres with a projected capacity to 
generate 97,000 megawatts of electricity on the public lands that have 
been fast-tracked for renewable energy development in six western 
states. These BLM solar projects could provide the equivalent of 29 
percent of the Nation's household electricity use. In addition, the 
United States Geological Survey (USGS) estimates that 48 percent of 
freshwater withdrawals in 2000 were used for electric power generation. 
The combination of life-cycle analysis of carbon emissions with this 
land and water usage data has resulted in a boom in the growth of 
applications for solar energy projects on public and private lands and 
on residential, commercial, and municipal sites. An array of solar 
technologies are currently available for use in lighting, heating, and 
cooling (air or water) as well as to generate electricity on a wide 
range of scales from the residential level to utility-scale 
installations.
    The solar industry faces a number of challenges to achieving a 
significant, stable domestic energy supply for U.S. consumers while 
meeting greenhouse gas emission reduction targets. Reaching these goals 
will require the coordination of the solar research and manufacturing 
supply chains. The U.S. solar industry faces a number of barriers to 
entry in energy markets. Utilities are justifiably risk-averse and need 
access to best practices and expertise in order to efficiently 
integrate solar loads especially in urban areas. Some examples of this 
were identified in the April 2009 NREL publication: Photovoltaic 
Systems Interconnected onto Secondary Network Distribution Systems--
Success Stories. In addition, there are additional opportunities for 
the solar manufacturing industry to make large gains through 
technological advancement.
    The United States has a long history of leadership in solar energy 
technology, in part due to development of photovoltaic technologies for 
space applications. However, in recent years other nations have come to 
dominate the solar market through aggressive policy and favorable 
market conditions. Spain and Germany installed the largest amounts of 
solar energy capacity in 2007 and 2008. And China, Korea, and Taiwan 
continue to show significant growth in photovoltaic manufacturing 
capacity.
    To help accelerate the widespread deployment of solar technologies 
in the U.S., the Administration recently dedicated $117 million in 
Recovery Act funds to projects administered by the DOE solar program. 
This program currently has a base annual budget of roughly $200 
million.
    In reviewing ways to support the long-term growth of a domestic 
solar manufacturing industry the semiconductor industry may provide a 
model for partnership on R&D between government and the private sector.
    In the case of semiconductors, in the mid-1980s the U.S.--and the 
Department of Defense in particular--became concerned that Japanese 
semiconductor manufacturers were limiting access to semiconductor chips 
for two years or longer, delaying or halting the progress of 
technological advancement. In order to protect its strategic interest 
in advancing electronics the U.S. opted to support the growth of a 
domestic semiconductor industry through support for a semiconductor 
manufacturing technology research consortium. Sematech which still 
exists today was created along with a National Technology Roadmap for 
Semiconductors.
    These two activities brought together key players within the 
industry, from semiconductor manufacturers to manufacturing equipment 
builders and members of the semiconductor materials supply chain. This 
model of coordination and collaboration helped to keep the technology 
moving forward at a quick pace, encouraged the industry to adopt cost 
and time-saving standards, and helped to eliminate the duplication of 
research efforts on pre-competitive technologies through communication 
and coordination. The U.S. continues to host some of the world's most 
prominent semiconductor companies including Intel, AMD, National 
Semiconductor, and Texas Instruments.
    By 1994, the U.S. semiconductor industry had grown considerably and 
expanded its share of the world market for these products. The 
membership of Sematech voted to end federal matching funds for its 
activities in that same year and all federal funding for Sematech ended 
in 1996. During that same time period, Sematech expanded its membership 
to include non-U.S. manufacturers and it continues to serve the 
industry as a global consortium supporting collaborative research.
    In late April 2009, the National Academies organized a meeting on 
``The Future of Photovoltaic Manufacturing in the U.S.'' At this 
meeting a large number of industry players including DuPont, Dow 
Corning, FirstSolar, SunPower, Applied Materials, and IBM expressed the 
view that the photovoltaic industry needed to develop a comprehensive 
R&D agenda in order to grow the industry. They also suggested the 
government could facilitate these activities.
    While there are American solar companies that have emerged as 
strong players in the world solar market, they do not have the 
resources to individually support long-term research, development, and 
commercial application of new solar technologies while sustaining rapid 
growth and expanding production capacity. A jointly-developed 
comprehensive solar technology plan with public and private support may 
provide a framework for strengthening U.S. leadership in renewable 
energy technology.
    Chairman Baird. I think our witnesses will be joined 
shortly by additional Members who will be coming from the vote. 
Our hearing will now come to order. I want to welcome everyone 
to today's hearing on New Roadmaps for Wind and Solar Research 
and Development. One moment, please. I heard Mr. Inglis was 
coming, and I had to pause because I know he hates to miss 
opening statements, they being so important.
    Today's hearing will explore research and development needs 
for both wind and solar energy technologies. The U.S. has great 
potential for expanding the use of both renewable energy 
resources. According to a study by the Pacific Northwest 
National Laboratory, accessible wind potential in just 12 
states could power the entire country twice over. Lawrence 
Berkeley National Lab has also shown that if we covered just 
one-fourth of one percent of the total U.S. land area with 
currently available solar panels, we could meet all of our 
nation's energy needs.
    In order to realize this potential, however, considerable 
investments are required. We need a significant upgrade to our 
transmission grid and to move beyond fossil fuels and address 
the growing threat of climate disruption, our overheating and 
ocean acidification, these domestic energy options must receive 
additional support. Wind and solar technologies have progressed 
over the last several decades to a point where cost-
competitiveness with fossil fuels is considered achievable, and 
paths toward this goal can be laid out in detail.
    Today we will hear from an excellent panel of witnesses on 
the concrete steps government and the private sector can take 
to overcome the technical and economic barriers that wind and 
solar still face in the U.S. We will also receive testimony on 
H.R. 3165, the Wind Energy Research and Development Act of 
2009. The bill was recently introduced by our friend and 
colleague, Mr. Tonko, to establish a more comprehensive 
research, development, and demonstration program at the 
Department of Energy. I believe this bill goes a long way 
toward helping wind power reach its full potential.
    I thank the witnesses for appearing before the Subcommittee 
this afternoon.
    With that I yield to our distinguished Ranking Member, Mr. 
Inglis.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Today's hearing will explore research and development needs for 
both wind and solar energy technologies. The U.S. has great potential 
for expanding the use of renewable energy resources. According to a 
study by the Pacific Northwest National Laboratory, the accessible wind 
potential in just 12 states could power the entire country twice over. 
Lawrence Berkeley National Lab has also shown that if we covered just 
one quarter of one percent of total U.S. land area with currently 
available solar panels, we could meet all of our energy needs.
    In order to realize this potential, considerable investments are 
required. We need a significant upgrade to our transmission grid and 
substantial investments in new generation equipment. However, if we are 
to move beyond fossil fuels and address the growing threat of climate 
disruption and ocean acidification, these domestic energy options must 
receive additional support. Wind and solar technologies have progressed 
over the last several decades to a point where cost-competitiveness 
with fossil fuels is considered achievable and paths toward this goal 
can be laid out in detail.
    Today we will hear from an excellent panel of witnesses on the 
concrete steps that government and the private sector can take to 
overcome the technical and economic barriers that wind and solar still 
face in the U.S. We will also receive testimony on H.R. 3165, the Wind 
Energy Research and Development Act of 2009. This bill was recently 
introduced by my friend and colleague, Mr. Tonko, to establish a more 
comprehensive research, development, and demonstration program at the 
Department of Energy. I believe the bill goes a long way toward helping 
wind power reach its full national potential.
    I thank the witnesses for appearing before the Subcommittee this 
afternoon. With that I yield to our distinguished Ranking Member, Mr. 
Inglis.

    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing. South Carolina, like much of the country, 
is suffering in this economic downturn. Our unemployment rate 
is at an all-time high of 12.1 percent. Thankfully though, 
General Electric's turbine facility is helping to cushion the 
impact in the upstate of South Carolina where about 1,500 
engineers and 1,500 production employees are designing and 
building wind turbines and advanced gas turbines.
    Doubling worldwide production of wind energy will generate 
$100 billion in sales for the wind industry. So I am very 
excited about improving the domestic wind energy industry.
    The United States was an early leader in photovoltaic power 
in large part due to our robust space technology. Government 
policy and strong market signals have since increased solar 
energy installation and manufacturing capacity in other 
nations, and we have fallen behind. American companies are 
poised, though, to reclaim leadership in renewable energy 
technology and revitalize our economy through innovation. Well-
focused research dollars can support long-term research to keep 
us ahead of the development curve and can spur opportunity and 
growth in the private sector.
    The renewable electricity industry faces a number of 
important research topics. Wind energy in particular will 
improve through wind forecasting capacities, increased turbine 
efficiency and reduced capital costs, all of which will make 
wind farms easier to site and cheaper to build and operate.
    Both wind and solar energy face a hurdle in terms of 
reliability. Energy storage systems that convert intermittent 
renewable capacity into base-load power source will be 
necessary to move beyond our dependence on fossil fuel energy.
    Once we have addressed these obstacles, we are still left 
with the aging and inefficient electricity grid geared to 
centralized generation of conventional power plants. I am glad 
we will have a chance to address that critical challenge in our 
next Subcommittee hearing.
    I am looking forward to hearing from these witnesses, Mr. 
Chairman, about ways to reshape and properly focus our 
renewable energy research dollars, and I thank you again for 
holding the hearing.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good morning and thank you for holding this hearing, Mr. Chairman.
    South Carolina is suffering a great deal in this economic downturn. 
Our unemployment rate is at an all time high of 12.1 percent. 
Thankfully, General Electric's turbine facility is helping to cushion 
the impact in Greenville where about 1,500 engineers and 1,500 
production employees are designing and building advanced gas and wind 
turbines. Doubling worldwide production of wind energy will generate 
$100 billion in sales for the industry, so I'm very excited about 
improving the domestic wind energy industry.
    The U.S. was an early leader in photovoltaic power, in large part 
due to our robust space technology industry. Government policy and 
strong market signals have since increased solar energy installation 
and manufacturing capacity in other nations, as we fall behind.
    American companies are poised to reclaim leadership in renewable 
energy technology and revitalize our economy through innovation. Well 
focused research dollars can support long-term research to keep us 
ahead of the development curve, and can spur opportunity and growth in 
the private sector.
    The renewable electricity industry faces a number of important 
research topics. Wind energy in particular will improve through wind 
forecasting capability, increased; turbine efficiency, and reduced 
capital costs, all of which will make wind farms easier to site and 
cheaper to build and operate. Both wind and solar energy face a hurdle 
in terms of reliability; energy storage solutions that convert 
intermittent renewable capacity into a base load power source will be 
necessary to move beyond our dependence on fossil fuel energy.
    Once we've addressed these obstacles, we're still left with an 
aging and inefficient electricity grid geared to centralized generation 
at conventional power plants. I'm glad we'll have a chance to address 
critical challenges in electricity delivery at our next Subcommittee 
hearing.
    I'm looking forward to hearing from the witnesses about ways to 
reshape and properly focus our renewable energy research dollars. Thank 
you again for holding this hearing, Mr. Chairman.

    Chairman Baird. I thank Mr. Inglis. If there are other 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to examine research and development programs in wind and solar 
energy and to receive testimony on H.R. 3165, a bill to develop a wind 
energy research, development, and demonstration program.
    Wind and solar energy have potential to provide abundant, clean 
energy for the country and increase our energy independence. The 
Department of Energy (DOE) estimates wind energy has the potential to 
provide two times our energy needs, and the Bureau of Land Management 
estimates that 29 percent of household energy needs could be met by 
solar projects. There still remain research, development, and 
demonstration efforts to guide the next steps to reach the full 
potential of these energy sources. For example, Illinois is the 16th 
largest sources of wind energy in the country. Technology to utilize 
this resource would provide substantial energy to the state and the 
region. I look forward to hearing from our witnesses on how the DOE and 
other agencies can collaborate with the private sector, academic 
institutions, and State and local governments to support wind and solar 
energy projects.
    In particular, I am interested in hearing how the U.S. can retain 
its position as the leading producer of wind and solar energy. Though 
the U.S. once led the world in the development and deployment of solar 
technology, our international counterparts have made substantial 
investments in photovoltaic technology. The DOE solar program received 
$117 million in Recovery Act funding for deployment of solar energy 
technology. While this funding will go a long way towards improving our 
solar energy research efforts, I would like to hear from our witnesses 
today how Congress can continue to support their efforts to return the 
U.S. to its leadership role in solar technology and to maintain our 
leadership position in wind energy technology.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    Chairman Baird. It is my pleasure to introduce our 
witnesses at this time. Mr. Steve Lockard is CEO of TPI 
Composites and Co-Chairman of the American Wind Energy 
Association, AWEA, Research and Development Committee. Mr. Ken 
Zweibel, I am reminded here by my staff, rhymes with Bible. 
Thank you, staff. He is the Director of George Washington 
University's Solar Institute. Ms. Nancy Bacon, a famous name in 
science--Francis Bacon, of course, would be an apt quote to put 
up on one side or the other, probably that side would be 
safer--is a Senior Advisor for United Solar Ovonic and Energy 
Conversion Devices, Inc. I will at this point yield to my 
distinguished colleague, Mr. Tonko, to introduce our witness 
from Albany, New York.
    Mr. Tonko. Thank you, Mr. Chairman. It is a pleasure to 
introduce a constituent from the capital region of New York, 
John Saintcross. John is the Program Manager of Energy and 
Environmental Markets at New York State's Energy Research and 
Development Authority, or NYSERDA. He is currently responsible 
for managing the centralized procurement of renewable resources 
under the renewable portfolio standard in New York and the 
auctions and sales of allowances under the Regional Greenhouse 
Gas Initiative and Clean Air Interstate Rule programs. Mr. 
Saintcross is a member of New York State's Nuclear Assessment 
and Evaluation Team which is responsible for conducting 
evaluations of physical reactor plant conditions and plant 
personnel responses to unusual or emergency reactor and other 
plant system events.
    Before assuming these current responsibilities at NYSERDA, 
John managed various renewable technology product development 
and deployment activities including those associated with the 
development of green power markets. He was the Director of 
Resource Portfolio Management for Green Mountain Power 
Corporation where his responsibilities included the development 
of renewable and distributed power technologies, integrated 
generation and demand planning, and power contract delivery and 
trading.
    He also led the effort working with Electric Power Research 
Institute and the Department of Energy to develop one of the 
Nation's first utility-owned wind projects for the testing of 
large-scale, pre-commercial turbines located in Searsburg, 
Vermont, and I do want to welcome him here today and also speak 
to the issues of character because he's a great volunteer for 
Habitat for Humanity which I think says volumes for the crew at 
NYSERDA. Welcome, John.
    Chairman Baird. Thank you, Mr. Tonko. I will yield to our 
other colleague, Mr. Neugebauer, to introduce his fellow Texan 
and our final witness.
    Mr. Neugebauer. Well, thank you, Mr. Chairman. It is my 
honor to be able to introduce a great educator, researcher, and 
leader in science and engineering, Dr. Andy Swift, who is the 
Director of the Wind Science and Engineering Research Center at 
Texas Tech which is home to America's only doctoral granting 
program in wind science engineering located in my District as 
well.
    His previous employment included more than 20 years as 
Professor of Mechanical Engineering at University of Texas, El 
Paso, the last seven of which was the Dean of the College of 
Engineering. He completed his engineering graduate work 
obtaining a Doctor of Science Degree at Washington University 
at St. Louis where he began conducting research in wind turbine 
engineering with a focus on dynamics and aerodynamics of wind 
turbine rotors. Dr. Swift has worked in wind energy for over 25 
years and has over 100 published articles and books and 
chapters in the area of wind turbine engineering and renewable 
energy. And in 1995, he received the American Wind Energy 
Society Academic Award for continuing contributions to wind 
energy technology as teacher, researcher and author. It is my 
privilege to welcome a true pioneer in renewable energy and a 
recognized leader in engineering of wind energy development, 
and I thank you, Mr. Chairman, for holding this hearing.
    Chairman Baird. Thank you, Mr. Neugebauer. I should mention 
that we also are joined today by Dr. Bartlett and Dr. Ehlers. 
Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman. Even though she 
doesn't live in my District, she does have a plant very close 
to my District, and I have to recognize Nancy Bacon. And the 
firm she represents has been far and away the leader in solar 
electric panels in the Nation. And they hired her because she 
can bring the bacon home. And so we are pleased to have her 
here, too. Thank you.
    Chairman Baird. Thank you, Dr. Ehlers. We also have Ms. 
Edwards and Ms. Giffords, both outstanding Members of this 
committee as well. Thank you both for being here.
    And with that, as our witnesses should know, you will have 
five minutes for your spoken testimony. Please do your best to 
keep around that. We try to be fairly rigorous on that. Your 
written testimony will be included in the record for the 
hearing. When you have completed your spoken testimony, we will 
begin with questions. Each Member will have five minutes to 
question the witnesses after that point. We will start with Mr. 
Lockard. Please proceed.

    STATEMENT OF MR. STEVEN C. LOCKARD, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, TPI COMPOSITES, INC.; CO-CHAIR, AMERICAN 
   WIND ENERGY ASSOCIATION, RESEARCH & DEVELOPMENT COMMITTEE

    Mr. Lockard. Good afternoon. Chairman Baird, Ranking Member 
Inglis, distinguished Members of this subcommittee, I 
appreciate the opportunity to testify before you today.
    Our company, TPI Composites, is a manufacturer of large 
wind turbine blades for leading turbine makers including GE and 
Mitsubishi. We are headquartered in Scottsdale, Arizona. TPI 
operates wind-related factories in Rhode Island, Mexico, China, 
and most recently, Newton, Iowa.
    In addition to my role with TPI, I also Co-Chairman the R&D 
Committee of the American Wind Energy Association, on whose 
behalf I am testifying today.
    Before proceeding I would like to thank Congressman Tonko 
for sponsoring legislation to authorize a comprehensive 
research, development and demonstration program for wind 
energy. AWEA and TPI endorse this legislation and urge Members 
to support its passage. Representative Tonko's legislation 
authorizes wind energy R&D at a level that will allow the wind 
industry to significantly improve turbine reliability and 
reduce capital costs.
    Combined with a strong national Renewable Electricity 
Standard and broader transmission cost-allocation, planning, 
and siting policies, greater R&D funding will increase wind 
energy production and lead to the creation of more high-paying 
jobs across our country.
    Last year, at a time when most U.S. industries were 
shedding jobs, the wind industry added 35,000 jobs and deployed 
over 8,500 megawatts. This record growth amounted to more than 
40 percent of the country's new electricity generating capacity 
in that year.
    However, our job is far from complete. Wind power is still 
constrained by difficulties in market acceptance and needed 
improvements in cost, performance and reliability.
    The $70 million approved by the House Appropriations 
Committee for wind energy R&D, combined with funds that will be 
provided through the American Recovery and Reinvestment Act, 
will finance a number of key wind industry priorities.
    However, in order to fully address all of the key wind 
energy R&D and deployment challenges, a sustained annual budget 
of at least $200 million is needed.
    The Department of Energy's 20 percent by 2030 wind report 
was released in 2008. The report assumes that capital costs be 
decreased by 10 percent and turbine efficiency increase by 15 
percent to reach this achievable goal of providing 20 percent 
of our nation's electricity from wind.
    Meeting this goal will require increased R&D funding. 
Meeting the 20 percent goal will provide a host of benefits, 
including supporting 500,000 jobs and generating over $1 
trillion in economic impact by 2030, decreasing natural gas 
prices by approximately 12 percent, avoiding 825 million tons 
of CO<INF>2</INF> emissions in 2030, equivalent to 25 percent 
of the electric sector emissions, and reducing cumulative water 
consumption in the electric sector by 17 percent in 2030.
    Increased R&D funding will bring down capital costs and 
increase turbine efficiency to help realize these benefits and 
keep America's wind industry competitive with other electric 
generation sources and the wind industries of other countries.
    Last year, as part of an AWEA R&D Committee effort, a team 
of over 80 AWEA members and advisors from industry, government, 
and academic institutions worked over several months to develop 
a specific action plan and funding proposal to meet our 20 
percent goal.
    Participants determined that $217 million in annual federal 
funding, combined with $224 million annual industry and State 
cost share, would be necessary to support the R&D and related 
programs. The group determined that $201 million of the $217 
million should be directed toward the DOE.
    AWEA and the wind industry support funding for this action 
plan. AWEA also recognizes the need to reduce the cost of 
offshore energy, offshore energy technology to provide the 
estimated 54 gigawatts of the 300 gigawatts needed to meet the 
20 percent goal by 2030.
    AWEA recommends funding for programs that focus on the 
power system operations issues of integrating variable power 
sources, such as wind, into the electric grid. An important 
component of such integration includes developing and promoting 
advanced forecasting methods.
    Another important research area is wind project siting 
including better understanding the impact of wind turbines on 
wildlife and radar installations and mitigating these impacts.
    While the wind industry is continuing to add new electric 
generation capacity, a number of challenges still exist. 
Continued support for wind energy R&D is vital to helping wind 
become a more prominent energy source that leads to a host of 
benefits.
    Continued investments in wind energy R&D are delivering 
value for taxpayers by fostering the development of a domestic 
energy source that strengthens our national security, provides 
economic development, spurs new high-tech jobs, and helps 
protect the environment.
    Thank you, again, for the opportunity to testify. I'd 
welcome any questions.
    [The prepared statement of Mr. Lockard follows:]

                Prepared Statement of Steven C. Lockard

Introduction

    Good Afternoon. Chairman Baird, Ranking Member Inglis, and 
distinguished Members of the Subcommittee, I appreciate the opportunity 
to testify before you today.
    My name is Steve Lockard. I am the CEO of TPI Composites. TPI is a 
manufacturer of rotor blades for leading wind turbine makers including 
GE Energy and Mitsubishi Power Systems. TPI operates wind-related 
factories in Rhode Island, Mexico, China, and Newton, Iowa.
    In addition to my role with TPI, I also Co-Chairman the Research 
and Development Committee of the American Wind Energy Association, on 
whose behalf I am testifying.
    Before proceeding I would like to thank Congressman Tonko for 
sponsoring legislation to authorize a comprehensive research, 
development, and demonstration program for wind energy.
    AWEA and TPI endorse this legislation and urge Members to support 
its passage.
    Representative Tonko's legislation authorizes wind energy research 
and development (R&D) at a level that will allow the wind industry to 
improve turbine reliability and reduce capital costs.
    Combined with a strong national Renewable Electricity Standard; and 
broader transmission cost-allocation, planning, and siting policies; 
greater research and development funding for wind energy will increase 
wind energy production and lead to the creation of more high-paying 
jobs across the country.

The American Wind Industry Today

    Last year, at a time when most U.S. industries were shedding jobs, 
the wind industry added 35,000 jobs and deployed over 8,500 megawatts 
(enough to serve the equivalent of more than 2.5 million homes 
nationwide).
    This record growth amounted to more than 40 percent of the 
country's new electricity generating capacity.
    Our job is far from complete. Wind power is still constrained by 
difficulties in market acceptance and needed improvements in cost, 
performance, and reliability.
    In addition, research and development funding for wind energy has 
lagged behind funding levels for other energy technologies over the 
past few decades, which held back the growth of wind energy in the 
United States.
    The $70 million approved by the House Appropriations Committee for 
wind energy R&D, combined with funds that will be provided through the 
American Recovery and Reinvestment Act, will finance a number of key 
wind industry priorities to help overcome the challenges to meet the 20 
percent by 2030 vision.
    However, in order to fully address all of the key wind energy 
research, development, and deployment challenges, a sustained annual 
budget of at least $200 million is needed.

Importance and Benefits of Wind Energy Research and Development

    The Department of Energy's 20% Wind Energy by 2030 report was 
released in 2008. The report assumes that capital costs decrease by 10 
percent and that turbine efficiency increases by 15 percent to reach 
the achievable goal of providing 20 percent of our nation's electricity 
from wind by 2030. That will require increased R&D funding.
    Meeting the 20 percent goal will provide a host of benefits, 
including:

        <bullet>  Supporting 500,000 jobs and generating over $1 
        trillion in economic impact by 2030;

        <bullet>  Decreasing natural gas prices by approximately 12 
        percent;

        <bullet>  Avoiding 825 million tons of carbon dioxide emissions 
        in 2030, equivalent to 25 percent of expected electric sector 
        emissions, and;

        <bullet>  Reducing cumulative water consumption in the electric 
        sector by 17 percent in 2030.

    Increased research, development, and deployment funding will bring 
down capital costs and increase turbine efficiency to help realize 
these benefits and keep America's wind industry competitive with other 
electric generation sources and the wind industries in other countries.

Needed Funding Levels for Wind R&D

    Last year, as part of an AWEA Research and Development Committee 
effort, a team of over 80 AWEA members and advisors from industry, 
government, and academic institutions worked over several months to 
develop a specific action plan and funding proposal to meet the goal of 
providing 20 percent of our nation's electricity from wind energy by 
2030.
    Participants determined that $217 million in annual federal 
funding, combined with a $224 million annual industry/state cost share, 
would be necessary to support the research, development, and related 
programs needed to meet the 20 percent goal. The group determined that 
$201 million should be directed to DOE.
    AWEA and the wind industry support funding for wind turbine 
technology and reliability to develop wind turbine components that will 
reduce capital costs, improve performance, and enhance reliability.
    AWEA also recognizes the need to reduce the cost of offshore wind 
energy technology to provide the estimated 54 gigawatts (GW) of the 300 
GW needed to meet the 20 percent goal by 2030.
    In addition, AWEA recommends greater federal funding for programs 
that focus on the power system operations issues of integrating 
variable power sources, such as wind, into the electric grid.
    An important component of such integration includes developing and 
promoting advanced forecasting methods.
    Another important research area is wind project siting. In general, 
increased funding in this area should be targeted toward better 
understanding the impact of wind turbines on wildlife and radar 
installations and mitigating these impacts.

Conclusion

    While the wind industry is continuing to add new electric 
generation capacity, a number of challenges still exist. Continued 
support for wind energy R&D is vital to helping wind become a more 
prominent energy source that leads to a host of benefits.
    Continued investments in wind energy R&D are delivering value for 
taxpayers by fostering the development of a domestic energy source that 
strengthens our national security, provides economic development, spurs 
new high-tech jobs, and helps protect the environment.
    Thank you, again, for the opportunity to testify. I welcome any 
questions you may have.

                    Biography for Steven C. Lockard
    Mr. Lockard joined TPI Composites in 1999 to lead their growth 
strategy and has transformed the Company from a recreational boat 
builder into a leading manufacturer of wind turbine blades. The Company 
is also a composites innovator in military and transportation markets. 
Mr. Lockard has 25 years of experience building high-growth, 
manufacturing companies. Prior to TPI, Mr. Lockard served as Vice 
President of Satloc, a supplier of precision GPS equipment. Prior to 
Satloc, Mr. Lockard served as Vice President and a founding officer of 
ADFlex Solutions, a leading international manufacturer of interconnect 
products for the electronics industry. Mr. Lockard holds a BS degree in 
Electrical Engineering from Arizona State University. He serves as Co-
Chairman of the R&D committee for the American Wind Energy Association 
(AWEA) and has testified in front of Congress and the National 
Governor's Association on behalf of the wind industry.
    Over the last seven years, TPI has created five composites 
manufacturing plants and over 2,800 jobs worldwide. With over one 
million square feet of manufacturing floor space, TPI operates 
factories in Rhode Island, Iowa, Ohio, Mexico and China. The company is 
headquartered in Arizona. TPI wind customers include Mitsubishi Power 
Systems and GE Energy.
    TPI's most recent wind blade factory opened in September, 2008 in 
Newton, Iowa. This town of 15,800 was the home of Maytag for over 100 
years. TPI has already replaced 350 of the 1,800 lost Maytag 
manufacturing jobs.

    Chairman Baird. Thank you, Mr. Lockard. Mr. Saintcross, 
please.

 STATEMENT OF MR. JOHN SAINTCROSS, PROGRAM MANAGER, ENERGY AND 
   ENVIRONMENTAL MARKETS, NEW YORK STATE ENERGY RESEARCH AND 
                DEVELOPMENT AUTHORITY (NYSERDA)

    Mr. Saintcross. Chairman Baird, distinguished Members of 
the Subcommittee, good afternoon. My name is John Saintcross. I 
am the Program Manager, Energy and Environmental Markets, at 
the New York State Energy Research and Development Authority 
(NYSERDA).
    Before I begin, I would also like to recognize Congressman 
Tonko on behalf of Governor David A. Paterson for his tireless 
efforts toward the advancement of clean energy.
    NYSERDA is a public benefit corporation whose mission is to 
help grow the State's economy and improve its environment by 
partnering with business, industries and residents to invest in 
innovative and environmentally friendly renewable energy and 
energy efficient technologies.
    Its annual budget of approximately $600 million is funded 
through multiple sources. NYSERDA currently administers a 
systems benefits charge based on a small surcharge on utility 
bills which is allocated toward energy efficiency programs and 
R&D development initiatives. Funding from the renewable 
portfolio standard (RPS) is also a critical part of what we do 
to lessen our heavy dependence in New York on fossil fuels and 
reduce harmful air emissions.
    In addition, NYSERDA expects to realize additional funding 
for related research through its participation in the regional 
greenhouse gas initiative carbon cap-and-trade program. NYSERDA 
will also be implementing Governor Paterson's ``45 by '15'' 
initiative, the most ambitious clean energy program in the 
Nation which requires that by 2015, 30 percent of New York's 
energy will be supplied by renewable resources and 15 percent 
from energy efficiency.
    NYSERDA commends this committee for taking up the issue of 
wind technology performance and improvement to apply in 
transformational research and demonstration. NYSERDA is here 
today to speak to the promise of wind energy and related 
technology challenges from two perspectives, the first as a 
user of the technology to satisfy State policy goals and second 
as an entity committed to the pursuit of technological 
advancement for clean energy resources.
    As an administrator of the RPS program in New York, NYSERDA 
acts as a user of the technology by centrally procuring on a 
competitive basis the generation of electric energy and 
qualified renewable resources such as wind power. On the 
State's installed wind generation of 1,275 megawatts, about 
1,100 megawatts are supported through the RPS program. By the 
end of 2009, the state is expected to have satisfied 30 percent 
of its renewable energy targets. Wind energy represents over 90 
percent of the energy associated with this program. The State 
of New York is counting on wind project performance and 
reliability to satisfy statewide goals.
    The American Wind Energy Association (AWEA) has clearly 
identified gaps in research that, left unattended, could 
prevent the Nation from realizing the full potential of its 
abundant wind resources. NYSERDA believes these challenges are 
manageable and not unlike challenges other technologies face. 
The evolution from scientific research and analysis progressing 
to product and material development, product demonstration and 
validation, analysis of commercial feasibility, and ultimately 
to operating practices and codes remains a continuum of 
integrated activities. It is along this continuum where NYSERDA 
makes its home. NYSERDA is committed to working with the 
private sector and institutions of higher learning and the 
Federal Government to characterize challenges along this 
continuum and collaborating where appropriate to overcome them.
    New York is unique in that wind technology will be asked to 
perform capably on two frontiers, on land and offshore. NYSERDA 
believes in a research agenda that addresses technology needs 
on both frontiers yet sees a pressing need to increase the 
focus of collective energies toward offshore development. 
NYSERDA believes increased sophistication and computational 
modeling of wind resources, fluid flow and turbulence within 
turbine arrays will be of near-term benefit to New York and the 
Nation as they pursue ambitious environmental goals, and as 
such models are extended offshore, such benefits will only 
grow.
    For offshore application, current wind fluid dynamic 
modeling will need to be extended to the simulation of water 
and wave motion so that turbines can be designed accordingly 
and operate reliably. Advances in the development of energy 
storage technologies that could store wind energy and release 
it to the electric grid when demanded would help the state 
offer similar benefits to other regions in the Nation. New York 
has made a great stride forward in this regard by spearheading 
a battery energy storage technology consortium that will 
capitalize on the state's existing technical and industrial 
capabilities and advance New York's clean energy and storage 
technology industries.
    The predominant turbine design in use in the United States 
is not suited for application offshore. It is widely accepted 
that turbines for offshore use will be larger, on the order of 
two to four times the scale now in use for land-based turbines. 
To migrate to such scale and develop a turbine designed 
specifically for the offshore operating environment will 
require a bold effort in engineering, prototyping, testing and 
manufacturing.
    In closing, NYSERDA, as a user of wind technology to 
satisfy New York climate goals, and as a science-based research 
organization focused on the development and commercialization 
of clean energy technologies, strongly encourages the Committee 
to consider substantially increasing federal funding for wind 
technology research and development.
    I thank you again for the opportunity to share our views on 
this important subject. I would be pleased to answer any 
questions you have.
    [The prepared statement of Mr. Saintcross follows:]

                 Prepared Statement of John Saintcross

    Good afternoon, my name is John Saintcross. I am the Program 
Manager, Energy and Environmental Markets at the New York State Energy 
Research and Development Authority (NYSERDA). In this position, I am 
responsible for the centralized procurement of renewable resources 
under the Renewable Portfolio Standard in New York and the auction/sale 
of allowances under the Regional Greenhouse Gas Initiative and Clean 
Air Interstate Rule Program. There is the potential in my program area 
for launching a new Advanced Renewable Energy Program aimed at building 
a pipeline of diverse, promising renewable energy technologies that 
will enable achievement of New York State's long-term climate 
protection objectives. The legislation we are discussing today is 
highly relevant to the types of activities such a program might 
support.
    The Energy and Environmental Markets Program is one of four program 
areas managed under NYSERDA's Clean Energy Research and Market 
Development organization. Some other program activities relevant to 
today's discussion include an environmental evaluation and monitoring 
program engaged with the industry in the objective measurement and 
analysis of the impacts on wildlife from wind energy and competing 
power generating resources, a clean energy technology manufacturing 
incentive program that supports manufacturing process development, 
product manufacturing, and ongoing product innovation, and the 
development of a new university/industry research collaborative to 
expand New York State capabilities in the clean energy sector. With 
respect to this later initiative, our initial focus will be split 
between the development of financially sustainable test centers in New 
York that will provide testing services for photovoltaics and small 
wind turbines during product development, final system testing for 
certification purposes and the creation of a battery storage consortium 
that will capitalize on the state's existing technical and industrial 
capabilities to advance New York's clean energy and storage technology 
industries. Because a trained workforce is essential to ensure New York 
has the capacity to implement and sustain the state's renewable energy 
initiatives, NYSERDA, in partnership with other State agencies, is 
developing a network of renewable energy training facilities across the 
state that will better prepare the state's workforce to analyze, 
design, sell, install, service, and maintain renewable energy 
technologies and systems. Currently, one institution of higher learning 
is offering curricula specific to wind turbine technology and similar 
programs are under development at another six facilities.
    NYSERDA is a public benefit corporation created in 1975 through the 
reconstitution of the New York State Atomic and Space Development 
Authority. NYSERDA's earliest efforts focused solely on research and 
development with the goal of reducing the state's petroleum 
consumption. Subsequent research and development projects focused on 
topics including environmental effects of energy consumption, 
development of renewable resources, and advancement of innovative 
technologies. NYSERDA strives to facilitate change through the 
widespread development and use of innovative technologies to improve 
the state's energy, economic, and environmental well-being. NYSERDA's 
workforce reflects its public service orientation, placing a premium on 
objective analysis and collaboration, as well as reaching out to 
solicit multiple perspectives and share information. NYSERDA is 
committed to public service, striving to be a model of efficiency and 
effectiveness, while remaining flexible and responsive to its 
customers' needs.
    NYSERDA's programs and services provide a vehicle for the State of 
New York to work collaboratively with businesses, academia, industry, 
the Federal Government, environmental community, public interest 
groups, and energy market participants. Through these collaborations, 
NYSERDA seeks to develop a diversified energy supply portfolio, improve 
energy market mechanisms, and facilitate the introduction and adoption 
of advanced energy and environmental technologies.
    The NYSERDA annual budget of approximately $600,000,000 is funded 
through multiple sources. NYSERDA currently administers the System 
Benefits Charge (SBC) from a small surcharge on an electricity 
customers' utility bill that is allocated toward energy-efficiency 
programs, research and development initiatives and other energy 
programs. Funding for the Renewable Portfolio Standard (RPS) is also a 
critical part of what we do to lessen our heavy dependence on fossil 
fuels and reduce harmful air emissions.
    NYSERDA commends the Committee for taking up the issue of wind 
technology development, performance and improvement through applied and 
transformational research and demonstration. Recent passage in the 
House of the American Clean Energy and Security Act (H.R. 2454) and the 
recent movement of Senate bill S. 433 out of the Senate Committee on 
Energy and Natural Resources signal an increasing awareness that 
national energy policy is approaching a crossroads. A strong federal 
commitment to renewable energy, energy efficiency and other climate 
protection strategies could become common practice. NYSERDA recognizes 
the significance of this legislation and respects the debate ensuing 
over how the Nation should best migrate toward a cleaner future.
    NYSERDA is here before you today to speak to the promise of wind 
energy and related technology challenges from two perspectives; the 
first, as a user of the technology to satisfy State policy goals and 
second, as an entity committed to the pursuit of technological 
advancement and maturity for clean energy resources. NYSERDA, as the 
administrator of the New York Renewable Portfolio Standard (RPS) 
program on behalf of the New York State Public Service Commission, acts 
as a user of the technology. In this role, NYSERDA centrally procures, 
on a competitive basis, the economic and environmental improvements 
associated with the generation of electric energy from qualified 
renewable resources, such as wind power. The current program goal 
established in 2004 is to increase the percentage of renewable electric 
energy sold to New York consumers to at least 25 percent by 2013. 
However, Governor Paterson's 2009 State-of-the-State message to the New 
York State Legislature pledged to meet 45 percent of New York's 
electricity needs through expanded energy efficiency and clean 
renewable energy goals by 2015, the most ambitious clean energy program 
in the Nation. As part of this initiative, the Governor requested that 
the Public Service Commission consider increasing the percentage of 
renewable electric energy sold in New York to 30 percent by 2015.
    NYSERDA has conducted three procurements for large scale, grid-
connected generation under the RPS program. Of the state's installed 
wind generation of 1,275 megawatts, approximately 1,100 megawatts are 
being delivered to consumers through RPS program contracts with 
NYSERDA. Currently, there are over 8,000 megawatts of wind capacity 
awaiting interconnection agreements with the New York Independent 
System Operator. Interestingly, according to the Department of Energy 
(DOE) Study, 20% Wind Energy by 2030, New York's contribution to the 
national goal would translate into 1,000 to 5,000 megawatts of 
installed wind capacity in the state by 2030. Clearly, New York's goals 
are quite ambitious, as the state has already installed over a quarter 
of the maximum expected by the study. The RPS program has been in 
effect for only a few years and to meet State goals, additional 
installed wind capacity is highly probable. Administration of that 
segment of the RPS program aimed at supporting smaller distributed 
renewable technologies such as small wind, photovoltaics and farm waste 
digester gas-to-electric resources, all located behind the retail 
meter, is expected to result in about 30 MW of installed photovoltaic 
capacity alone. In total, by the end of 2009 the state is expected to 
have satisfied 30 percent of its renewable energy targets and expects 
to realize direct economic benefits approaching two billion dollars 
over the lifetime of the affected technologies. Wind energy represents 
over 90 percent of the energy associated with program activity to date 
and the State of New York is counting on wind project performance and 
reliability to satisfy statewide program goals. Noting recent activity 
in the House and in the Senate with respect to a federal renewable 
energy standard, it becomes clear that New York will not be alone in 
its reliance on increased performance and reliability of wind 
technology.
    The progress this technology has made in the last decade should be 
recognized. However, any vision that has wind power playing a more 
prominent role in the Nation's energy mix must include a plan for 
increased support that would encompass applied wind research, 
development and demonstration to ensure continued improvement in 
technology performance and reliability.
    NYSERDA, in administering the RPS program pays only for performance 
that translates into energy delivered and no funds are expended if 
energy is not produced. However, there is no comfort in under-
performance. Lagging performance translates into deferred progress in 
meeting New York State environmental and energy security goals and 
potentially reduced consumer confidence in the technology. While New 
York has seen its success as described earlier in this testimony, 
progress toward renewable energy goals has been deferred as well. If it 
were not for under-performance by one large wind farm, New York would 
be at 32 percent of its RPS targets rather than at 30 percent. I would 
like to say unambiguously why this particular project under-performed 
but it is difficult to identify the root cause for less than expected 
production. NYSERDA is generally aware that the industry is earnestly 
working to understand completely why overall capacity factors have 
lagged expectations. In competitive energy markets such as that 
employed in New York where generators of all types vie to sell their 
energy to end-users, information on turbine failure or under-
performance in general is considered sensitive. This complicates the 
process of learning of the specific challenges the turbine(s) may be 
facing and targeting research accordingly. In the case of newer wind 
projects, component failures are covered by warranty guarantees, and 
only the manufacturer has knowledge of root causes during the warranty 
period.
    For the past couple of years, the industry has debated the 
underlying reasons for under-performance and as the hearing charter 
makes clear, the American Wind Energy Association has identified gaps 
in research that could prevent the Nation from realizing the value from 
its abundant wind resources. While experience with the technology is 
limited in New York because of the early stage of deployment under the 
RPS program, NYSERDA is no stranger to these issues. Similar questions 
regarding historical performance and technological evolution were 
discussed by stakeholders in a DOE-sponsored wind technology program 
budget meeting in 2008 in which NYSERDA participated. Similar issues 
surfaced again in a recent symposium in New York where researchers 
presented views on industry trends, experiences and challenges.
    Let me offer the following observations in regard to several 
challenges faced by the industry, based on NYSERDA experience and 
engagement with industry and university researchers. European 
experience shows that the mean time to failure for key turbine 
components such as gear boxes, main bearings, generators and rotor 
blades can be less than 10 years for a technology that was designed to 
have a life of 20 years. NYSERDA learned of a replacement of gear boxes 
for one make of turbines in New York after less than two years of 
operation. In addition, experience with off-shore technology in Europe 
indicates that computational modeling of wind flow at project 
boundaries and within turbine fields could be better refined as actual 
experience often departs from that which was predicted. Such refinement 
will be essential to improving turbine design because inaccurate 
estimation of turbine component loading will keep the industry from 
achieving cost and performance goals and hinder the design of new and 
larger turbine components. While the industry strives to increase 
turbine size and energy capture, the costs of land-transport of turbine 
components may become prohibitive. In-situ (on-site) fabrication of 
turbine towers and rotor blades may need to be considered as components 
grow larger. In-situ fabrication could require the development of new 
blade materials and blade fabrication processes that are robust enough 
for less-clean and uncontrolled site environmental conditions. 
Increased energy capture will translate in the need for longer blades 
and redesigned blade structures to manage greater stresses. Added 
stress on blades must be accommodated by the drive trains. Design 
validation of larger turbines will require new testing equipment. For 
instance, the magnitude of torque that must be applied to these large 
drive trains for testing is among the largest for any rotating piece of 
equipment. To meet operating and maintenance cost reduction goals, the 
industry will need to develop and deploy advanced condition monitoring 
devices to signal impending failure/performance degradation so 
maintenance can be performed on a preventive basis, rather than in 
reaction to unscheduled turbine outages. Increased reliance on the 
technology will place greater pressure on the turbine component supply 
chain. Increasing the number of component suppliers is desirable over 
the long-term but the pace of development must be managed in order to 
preclude degradation in materials and fabrication process quality. 
These are just a few of the challenges that should keep the industry, 
universities, laboratories and organizations, such as NYSERDA, busy.
    NYSERDA believes these challenges are manageable and not unlike 
challenges other technologies face. The evolution from scientific 
research and analysis progressing toward product and material 
development, product demonstration and validation, analysis of 
commercial feasibility and ultimately to operating practices and codes, 
remains a continuum of integrated activities. It is along this 
continuum where NYSERDA makes its home. As an organization that for 
over three decades has committed itself to objective research and 
development, NYSERDA is committed to working with the private sector, 
institutions of higher learning and the Federal Government to 
characterize challenges along this continuum and collaborating where 
appropriate to overcome them.
    By example, with respect to wind energy technology, NYSERDA 
supported early large and small turbine project demonstrations starting 
in the late 1990s, and developed early stage wind resource estimation/
site prospecting programs. These NYSERDA funded activities leveraged 
private capital to foster the development of a pipeline of wind 
projects and developable site areas. NYSERDA assisted one firm in the 
development of state-of-the-art wind resource estimation models, 
resulting in the commercial release of a web-based resource estimation 
service for wind developers that is now in wide use. NYSERDA is now 
working with this same commercial enterprise to develop a diagnostic 
software tool for wind plant operators. This tool will be able to 
manipulate the significant quantity of environmental and operating data 
associated with a turbine and signal potential component problems in 
advance of failure, thereby triggering the execution of preventive 
measures by plant operators. NYSERDA is currently partnered with other 
public and private sector organizations in a collaborative that will 
explore the development of an off-shore ocean wind project in New York. 
As a member of the collaborative, NYSERDA is currently providing 
technical services to the membership as they engage with parties 
interested in developing such a project. NYSERDA expects to work with 
collaborative members and private sector interests to identify 
challenges to project development and costs that could benefit from 
research and development activities that NYSERDA and other parties 
would fund. Such research could benefit greatly from co-funding from an 
increased federal wind technology budget as proposed in the legislation 
``Wind Energy Research and Development Act of 2009'' being considered 
by the Committee.
    With respect to a federal vision for renewable energy and the hope 
of decreasing the pace of climate change, and for states such as New 
York, that share that vision, NYSERDA cannot state emphatically enough 
that greater emphasis on wind research and development is essential. 
Increased federal support for collaborative research between the 
private sector, laboratories, universities and public benefit 
organizations such as NYSERDA, could not come at a more critical time. 
If the promise of wind energy is to be realized over the long-run in 
pursuit of aggressive climate goals, solutions to the technology 
challenges we speak of today must also be aggressively pursued.
    NYSERDA, in administering the New York RPS, will respect the 
interests of private power producers and equipment suppliers to manage 
the technology and satisfy the due-diligence requirements of the 
investment community. However, to the extent the technology is called 
upon to produce a far greater share of the Nation's energy, there is 
risk it may not deliver completely on the promise without further 
investment in research and development including field demonstration.
    New York is unique in that the application for wind technology will 
be on two frontiers: land-based and off-shore, either in the Great 
Lakes or the ocean. NYSERDA believes in a research agenda that 
addresses needs on both of these frontiers yet expresses a need to 
increase the focus of our collective energies toward off-shore 
development.
    New York could benefit from this new legislation and the funding 
associated therewith in many ways, but I will only speak to several in 
this testimony. As stated earlier, New York is already home to nearly 
1,300 megawatts of land-based wind capacity that is situated some 
distance from load centers. Energy production is not coincident with 
demands in the large load centers in New York. To make progress towards 
its renewable goals, New York will likely see a significant increase in 
similar land-based development over the next five years. Advances in 
the development of energy storage technologies, that could store wind 
generated energy and release it to the electric grid when demanded, 
would help the state and offer similar benefits to other regions in the 
Nation.
    Advances in diagnostic tools are necessary to allow operators to 
proactively respond to problems and reduce unscheduled outages. Wind 
projects in New York are situated on complex terrain, and the current 
state of resource modeling as such relates to turbine micro-siting, 
plant layout and turbine structural loading could stand improvement.
    In addition to renewed interest in advancing the state of wind 
technology for on-shore turbines, New York believes that the focus of 
wind research should shift to turbines situated in the ocean or the 
Great Lakes that share its border. Such a shift in direction will bring 
new challenges. It has become generally recognized that computational 
modeling of wind resources and fluid flow within turbine arrays must 
become more sophisticated. Offshore wind array performance is very 
sensitive to atmospheric boundary layer stability, which tends to vary 
temporally at a given site. Current array models need to be improved as 
they do not adequately represent these stability effects. Better models 
are needed to predict the impact of turbulence inside the wind plant. 
Accurate characterization of atmospheric behavior and more accurate 
wake models will be essential to understand and design turbines to 
withstand wind plant turbulence. To the extent these advanced 
computational capabilities result in turbines being sited more 
appropriately and, once installed, operating more efficiently and 
reliably, the costs to consumers in New York and across the Nation will 
decrease. Improvements in this regard will benefit both on and off-
shore turbine applications.
    The challenges of measuring and verifying the wind resource in 
expansive offshore tracts is great. Conventional practices in Europe 
involve the installation of a fixed meteorological mast with a pier-
type foundation driven into the seabed. Such structures cost at least 
several million dollars to install, with costs a function of water 
depth and maximum wave height. Across large project areas, more than 
one tower may be needed to document the spatial resolution of the 
resource. Alternatives to fixed towers include the use of surface-based 
remote sensing technologies such as LIDAR, which can be mounted on stub 
masts or possibly on spar buoys, and floating towers that are 
relatively stable because they are tethered to the seabed. These 
alternatives show great promise but require further field testing and 
validation before being widely accepted as ``bankable'' data monitoring 
approaches by developers, investors, and lenders.
    The predominant turbine design in use in the United States is not 
suited for application off-shore. It is widely accepted that turbines 
for off-shore use will be larger on the order of two to four times the 
scale now in use for land-based turbines. There is strong interest in 
using such turbines in the Great Plains as well. Public opposition or 
sensitivity to the physical scale and increased aerodynamic sound from 
larger blade rotation may pose less of a problem when siting in places 
in the midsection of the country where population density is not great. 
Migrating to such scale for on-shore application and designing a 
turbine specifically suited for the off-shore operating environment 
will require a bold effort in engineering, prototyping, testing and 
manufacturing.
    New York could benefit from these and other research activities 
described in the work of the American Wind Energy Association Offshore 
Wind Working Group that is attached for reference.\1\ For off-shore 
development to move forward and performance of land-based turbines to 
be improved, NYSERDA believes that State-funded research in this arena 
needs to be significantly leveraged with federal funding that is of 
material scale and duration as proposed in the legislation before the 
Committee.
---------------------------------------------------------------------------
    \1\ Research and Development Needs for Offshore Wind, R&D 
Subcommittee, Offshore Wind Working Group, American Wind Energy 
Association, April 2009.
---------------------------------------------------------------------------
    In closing, NYSERDA, as a user of wind technology to satisfy New 
York climate goals and as a science-based, research organization 
focused on the development and commercialization of clean energy 
technologies, strongly encourages the Committees to consider 
substantially increasing federal funding for wind technology research 
and development. NYSERDA has a history of collaborating with the 
Department of Energy, its laboratories, institutions of higher learning 
and the private sector on research, and would welcome the opportunity 
to continue this relationship in support of achieving ambitious but 
necessary climate change and energy independence goals.

            Research and Development Needs for Offshore Wind

                    American Wind Energy Association
                      Offshore Wind Working Group
                             April 3, 2009

R&D Subcommittee Chairman:

         Willett Kempton--U. of Delaware, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d0a1411111809093d0819181153181908">[email&#160;protected]</a>

Subcommittee Members:

         Peter Mandelstam--Bluewater Wind

         Michael Mercurio--Island Wind Power

         Walt Musial--National Renewable Energy Laboratory

         Greg Watson--Massachusetts Technology Collaborative

         John Ulliman--American Superconductor

         Susan Stewart--Penn State

Subcommittee Advisors:

         Ed Demeo--Renewable Energy Consulting Services, Inc.

         Soren Peterson--Rambol Engineering

         Steve Lockard--TPI Composites

         J. Charles Smith--Utility Wind Integration Group

Introduction

Rationale: This report summarizes the findings from the Offshore Wind 
Working Group (OWWG) Subcommittee on Research and Development (R&D). 
The largest and most energy-intensive area of the United States, the 
Northeast and Mid-Atlantic coastal states, is far from large 
terrestrial wind resources such as the Great Plains. Fast growing 
population centers in the southeastern U.S. are also much farther from 
terrestrial wind resources than to potential offshore wind resources. 
The Gulf and West coasts similarly have large loads closer to the ocean 
than to large terrestrial wind resources. To reach 20 percent wind 
integration, as laid out in the Department of Energy's 20% Wind Energy 
by 2030 report, the offshore wind potential of the U.S. coasts will be 
important. Several projects along the East and Gulf coasts are already 
designed and moving through the permitting process. Nevertheless, 
levelized cost of electricity (LCE) is still higher than market in many 
areas. The R&D proposed here is designed to lower LCE, thereby leading 
to more widespread implementation--making the achievement of 20 percent 
wind integration more widespread regionally and not concentrated 
primarily in the heartland.

Process followed: In 2007, the OWWG created a document to outline the 
R&D needs of the offshore wind industry in the United States. The 
overall OWWG put forward suggestions for needed R&D and the 
Subcommittee additionally solicited suggestions from industry experts 
on offshore wind. The list was reviewed by the entire OWWG, resulting 
in edits and revisions. The Subcommittee and experts then rank ordered 
this list and combined related topics. The R&D efforts below ranked in 
the top half by priority and are roughly listed in priority order. The 
lower-ranked half is not reported here. Higher ranks were given each 
R&D suggestion that:

         1.  Is essential to begin and develop the offshore wind 
        industry (note: the U.S. today has zero offshore turbines 
        installed)

         2.  Will lead to new turbines, other components, or 
        installation methods that are better, cheaper or more reliable, 
        or bring such components to market more quickly

         3.  Will lead to lower levelized cost of energy

         4.  Is uniquely required by offshore wind energy

         5.  Would lead to commercial development, possibly by multiple 
        firms

         6.  Will help the U.S. Federal Government, states, or 
        communities make better decisions or reduce uncertainties 
        regarding offshore wind

         7.  Begins long-term research that needs to be started now

         8.  Is unlikely to be done by companies on their own

         9.  Provides diversity--the entire list includes at least one 
        of each of the following:

                 shallow water

                 transitional depth (25-60m depth)

                 deep water (> 60m)

        10.  Affects large resource areas

    Some of these R&D areas are described in more detail in ``A 
Framework for Offshore Wind Energy Development in the United States'' 
by the Offshore Wind Collaborative in Massachusetts, and we have drawn 
from that document for some R&D recommendations.
    In March 2009, the same subcommittee was re-convened to update the 
list of R&D needs, and to estimate approximate budget and scheduling 
for the highest-ranked items on the list. In the fall of 2008, a team 
of over 80 AWEA members and advisors from industry, government and 
academic institutions identified $201 million as the DOE funding level 
that will be necessary to support the research and development and 
related programs needed to provide at least 20 percent of America's 
electricity from wind by 2030. This funding level includes $108 million 
for Wind Turbine Technology (components, reliability and offshore 
applications), with $15 million annually allocated specifically for 
offshore wind. In light of these cost allocations, the OWWG has created 
cost estimates for each of the following action items under a ``blue 
sky'' scenario.

Research and Development Priorities

    The following R&D areas appear in the rank order developed by the 
Committee. R&D areas that were ranked at the halfway point or below are 
not shown.

1.  Fundamental design evaluation for 5-10 MW offshore machines
    The currently predominant turbine design has been optimized for 
land applications. Optimization for offshore removes or alters many 
design parameters. There is a need to develop a basic analysis of 
fundamentally different designs. For example, one of many possible 
outcomes could be that a viable 5-10 MW offshore machine might be two-
bladed, downwind, mostly-passive yaw with a lattice tower. First phase 
of this effort would be extensive engineering analysis of fundamentally 
different design configurations, with publicly-owned intellectual 
property. Second phase begins prototyping, possibly with public-private 
partnerships and leading to commercial products. Note that there has 
not yet been a public commitment from any U.S. manufacturer for serial 
production of offshore-class turbines. The first development projects 
already in the pipeline will probably use marinized versions of land 
designs and draw on European experience. But for designs as described 
in this section, manufacturers may need support and/or incentives to 
begin the development of optimized ocean turbines.

1a. Highly experienced design teams should be commissioned to implement 
new design requirements that take into account relaxed constraints in 
the offshore environment, such as noise and esthetics. A first-cut 
design study should be done, including multi-turbine grids, downwind, 
two bladed rotors, passive yaw, high speed rotors, direct drive 
systems, etc., with competition between at least two design teams. This 
effort should produce guidance for subsequently building several 
fundamentally different prototypes by private firms, or public-private 
partnerships.
    Optimized offshore turbines will likely favor larger sizes than are 
available today. New size-enabling technologies will be required to 
push wind turbines to the 5-10 MW size. These technologies include 
lightweight composite materials and composite manufacturing, 
lightweight drive trains, modular highly reliable direct drive 
generators, hybrid space frame towers and integrated gearboxes. Ultra-
large turbines also present new opportunities that are not practical in 
smaller sizes. For example, control systems and sensors that monitor 
and diagnose turbine status and health do not grow in cost as turbine 
size increases, so larger turbines will enable a higher level of 
controls and condition-monitoring intelligence. Research is needed on 
control methods using innovative sensor and data processing 
technologies to mitigate turbine subsystem loads, to improve energy 
capture and to improve integration into the electric grid. New rotor 
technologies will include advanced materials, improved aero and 
structural design, active controls, passive controls, and higher tip 
speeds. Methods to enlarge the wind turbine rotor to increase the 
energy capture in ways that do not increase structural loads, cost, or 
electrical power equipment should be employed. Concepts such as active 
extendable rotors, bend twist coupled blades or more active control 
surfaces may become practical. Structural loads due to turbulence can 
be limited by using both passive and active controls on the longer 
blades. However, since gravity loads grow with the blade length cubed, 
one must seek technologies that offer higher material performance as 
blades grow. New materials and manufacturing processes are used to 
simultaneously reduce total blade weight for 10 MW turbine blades. 
Blade designers will have to consider the extremes of marine moisture 
and corrosion and the incidence of storm conditions unlike those 
encountered on shore, including extreme tropical weather in the 
Southeast and Gulf and ice in the Great Lakes. In addition to these 
problems, the higher humidity levels offshore create added problems 
associated with icing in higher latitudes.

1b. Potentially a separate project would be development of floating 
wind turbines. These are necessary to large offshore wind exploitation 
on the West Coast. The development of optimized floating wind turbine 
systems will require additional innovation to reduce the weight of 
turbine and tower components as a large portion of the buoyancy 
structure exists to support the dead weight aloft. The exact 
relationship in this weight advantage needs to be analyzed through 
further studies and will be dependent on the specific platform 
architecture. This may be achieved through high-speed rotors, 
lightweight drive trains, composite towers or substructures using 
lightweight aggregates.

1c. A parallel open design competition should be set up, open to 
university student teams or others with design expertise but not 
employed in wind manufacturing. This effort would facilitate interest 
and some expertise among American institutions of higher learning, and 
among newly graduating engineers, and could possibly be synergistic 
with 1a and 1b in generating ``out of the box'' design concepts. It 
would be judged by volunteer professional engineers with wind 
expertise, possibly at the site of a national wind conference. The 
program would include five one-year competitions, each judged and with 
prizes awarded--budget would be $400,000/year for five years.

            Budget and Scheduling
    Design and development is a long-term effort and should be broken 
down into multiple phases and technology pathways. For turbines and 
fixed-platform, bottom-mounted tower designs, we envision an initial 
phase for a public private partnership with industry that allows 
designs, components, or full systems to be developed at varying levels 
of funding. First year funding is $10 million but ramps to a $20 
million/year program with expectation of 10 year duration and 50 
percent cost sharing on all major hardware development.
    Floating projects would be done the same way but the hardware phase 
should not start until conceptual designs have been proven on desktop 
studies with full dynamic modeling, so that designs have been fully 
validated prior to co-funding prototype builds. The first stage would 
be a conceptual design competition for approximately $10 million (about 
10 awards) and would lead to the selection of the five best designs, 
which would then submit a detailed design. The next step would be a 
demonstration project building phase beginning in about three years.

2.  Large Scale National Offshore Wind Testing Facilities
    A major R&D priority is the need for a large scale national 
offshore wind testing facility. This would presumably be done with DOE, 
working in cooperation with multiple turbine manufacturers. This would 
provide testing facilities for the new larger offshore-class machines, 
which are too large for existing U.S. facilities. There are two 
components to this facility, component testing and site testing.

2a. Large offshore turbines will require test facilities for components 
such as blades, drive trains and generators. Currently no facilities 
exist in the U.S. where one can test a 5 MW size blade and none exist 
anywhere that can perform the necessary testing for a 10 MW wind 
turbine blade. Gearbox and generator testing are also essential to 
developing low-maintenance components. Testing is essential to 
reliability improvements and, in turn, is critical to long-term cost 
effectiveness. DOE estimated in 2002 that at least $24 million is 
needed to construct component test facilities.

2b. The site testing would allow DOE and manufacturers to understand 
the requirements for offshore wind. This could serve as a site for 
pilot projects at sea to demonstrate fundamental turbine and 
substructure technologies, to measure the true MET Ocean environment 
and to reveal issues relating to permitting and potential environmental 
impacts. New initiatives could be conducted in the public domain to 
maximize benefits to a wide industry base, including potential new 
entries from the offshore oil and gas industry. The output should yield 
critical design methods and codes, uniform standards for structural 
reliability, design specification guidelines, industry accepted safety 
margins, and valuable data to validate design models, codes and 
assumptions. This could be a North American testing facility with 
Canadian partnership to share resources and data for a more cost 
effective approach. The DOE should begin scoping the costs and 
requirements of such a site and solicit feedback from industry.

            Budget and Scheduling
    Funding is needed for 2a--large component test facilities for 
blades, gearbox and generators. This is a near-term effort that could 
start fairly quickly. The test facility could be one site, or blades in 
one site and gearbox/generator in another. Total cost could be $25 
million to $50 million, for 10 MW component facilities. For 2b, an in-
ocean testing facility should be scoped. It may make sense for federal 
lab management of a few turbines, used for generic testing and 
development of standards. Due to mobilization cost of offshore 
installations as well as O&M costs, in-site installations would likely 
be shared with commercial developments and/or turbine manufacturers.

3.  Offshore Design Computer Codes and Methods
    The development of accurate offshore computer codes to predict the 
dynamic forces and motions acting on turbines deployed at sea is 
essential before the next generation of turbines can reliably be 
designed. One of the immediate challenges common to all support 
structure designs is the ability to predict loads and resulting dynamic 
responses of the coupled wind turbine and support structure when 
subjected to combined stochastic wave and wind loading. The offshore 
oil industry must consider only the wave loading when extrapolating to 
predict extreme events, but offshore wind turbine designers must 
consider wind and wave load spectrums simultaneously.
    Hydrodynamic effects need to be included with analysis tools that 
incorporate combined wave loading models for regular and irregular 
waves. Time domain wave loading theories, including free surface memory 
effects, are used to relate simulated ambient wave elevation records to 
loads on the platform. The complexity of the task to develop accurate 
offshore modeling tools will increase with the degree of flexibility 
and coupling of the turbine and substructure. Usually, greater 
substructure flexibility results in greater responses and motions to 
wave and wind loading. Perhaps the most important and least understood 
analysis task is the determination of the extreme load generated by 
these two different dominant stochastic load environments. Only 
recently has research begun on developing this type of extreme load 
extrapolation technique.
    Additional offshore loads arise from impact of floating debris and 
ice and from marine growth buildup on the substructure. Offshore 
turbine structural analysis must also account for the dynamic coupling 
between the translational (surge, sway, and heave) and rotational 
(roll, pitch, and yaw) platform motions and turbine motions, as well as 
the dynamic characterization of mooring lines for compliant floating 
systems.

            Budget and Scheduling
    This requires a sustained effort to get validated models and design 
tools. Historically a 10-year effort or more requiring a sustained 
group of 10 modelers at about $3 million/year.

4.  Cost Effective Offshore Wind Foundations
    A large cost fraction for offshore wind systems resides in the 
foundations and substructures. Taking into account installation costs, 
long-term maintenance, coupled turbine loads and weight, as well as the 
cost of the substructure itself, the optimal turbine/substructure 
system needs to be established. Due to the wide range of variables this 
effort will require extensive trade-off studies and a much better 
understanding of what the existing and long-term offshore 
infrastructure can deliver. Before considering deeper waters, an 
earlier goal should be to develop primary support structures that can 
be deployed out to nominal depths of 50 meters. A qualified engineering 
team should evaluate prototyped designs such as those being used at the 
Beatrice site, determine the feasibility and cost to do this in the 
U.S., and make recommendations for what alternative designs should be 
considered, if any. For example, new drop-in foundation designs that 
avoid costly offshore vessel dependence and work at sea may provide 
better alternatives to the current options. Fixed bottom systems 
comprising rigid lightweight substructures, automated mass-production 
fabrication facilities and integrated mooring/piling deployments 
systems that minimize dependence on large sea vessels should be 
developed as a possible low-cost option.
    This effort should be extended to deeper waters at a slightly lower 
priority. Several designs should be evaluated for bottom-mounted 
turbines to 100 meter depth and floating foundations beyond 100 meters 
of water. Floating systems require anchors to maintain position and 
stability. The anchor systems available in the oil and gas industry are 
expensive and have not been optimized for mass production or for wind 
energy. For floating systems, platforms that do not depend on mooring 
line tension as their primary means for achieving stability would 
benefit from the development of new low-cost drag embedment type 
anchors or vertical load anchors (VLA). Deployable gravity anchors show 
promise for all platform types because of their simplicity. Finally, 
better models of scour processes are needed in conjunction with 
improved design methods for scour protection.

            Budget and Scheduling
    imilar design team approach as for recommendations 1a and 1b 
above--we recommend design team awards for industry professional, 
possibly drawing on industry experts in offshore foundations (oil and 
gas construction). These teams would innovate on what they know and 
demonstrate new foundation technologies designed for wind. One or two 
phases with a total cost of $60 million (four-year effort at $15 
million/year at 50/50 cost share) leading to new commercial 
foundations.

5.  Marine Grid, Power Conditioning, and Infrastructure Development
    To reach the Nation's 20 percent wind goal, we will need large 
turbine arrays, e.g., over 100 turbines installed in a single array. 
These are being planned both in large land installations, for example 
in the Great Plains, and for offshore wind. But for such arrays, the 
current distribution of power conditioning may not be optimum. Also, 
improved marine power transmission cables are needed.

5a. Currently, each turbine must independently provide all electrical 
components and controls needed for grid synchronization and power 
conditioning. For an array of hundreds of turbines, it may be more 
economical to redesign both generator and power conditioning, and to 
centralize much of the power conditioning on clusters or trunks of 
turbines, or for the whole array. The individual machine might have 
minimal power conditioning. As one of several examples, each turbine 
might only produce variable-voltage, constant current DC for a series 
DC bus along each row of turbines. The centralized power electronics 
would synchronize to grid phase, frequency and voltage. For remote 
sites, the centralized array power conditioning might not even produce 
AC; it might produce high-voltage DC to feed a HVDC power line, and let 
the load side of the HVDC transmission produce AC and do the grid 
matching.

5b. For large scale offshore deployment of multiple projects, there 
will be substantial advantages in developing large capacity submarine 
power cables and associated converter stations. This effort might begin 
as technology neutral, including a diversity of approaches including 
high-voltage direct current (HVDC) with thyristor valves in the 
converter stations, smaller HVDC using IGBT valves, and superconducting 
cables for example. These would be used to connect to large 
installations further offshore and to interconnect multiple offshore 
wind farms, e.g., along the East Coast. Currently there are no U.S.-
made marine-certified cables for offshore wind. The goal is to develop 
high capacity, high efficiency and cost-effective marine cables.

            Budget and schedule
    5a should identify two teams with high-voltage, high-current, power 
electronics expertise to develop alternatives to power conditioning in 
each turbine. This would take $2 million/year for years 1-3 for design, 
review and evaluation. Then develop prototypes of power conditioning 
(not entire turbine), cost-shared with industry at $20 million/year for 
years 4-6. Item 5b will require $10-15 million/year.

6.  Certification and Standards Development
    Research funding is needed to build confidence that adequate safety 
is being provided without excessive caution that will raise costs 
unnecessarily. The Minerals Management Service (MMS) has been 
authorized to set the standards for structural safety for all offshore 
wind turbine structures. We have a common goal to create safe 
structures. The wind industry and MMS should work together to build a 
reasonable regulatory system and a set of offshore standards that will 
promote the safety needed to instill investor confidence without 
hindering deployment.

            Budget and Scheduling
    Research funding should be an ongoing effort to be sustained at $1 
million/year. Include supporting research to address analysis required 
to understand structural reliability issues working with the Minerals 
Management Service.

7.  Improved data on the offshore wind resource and development 
        constraints

7a. Conduct a survey of the continental shelf physical resources using 
existing data bases in the near-term. Using existing data from multiple 
sources, locate and quantify the practical wind resource of the U.S. 
Continental Shelf to 100 meter depth. Combine direct oceanic wind data, 
geological and bathymetric data, existing tower designs, and easily-
accessible conflicting uses that appear on navigation charts. This 
would yield total areas of viable resource and breakdown by state. This 
could guide private developers, national and regional planning, 
technology development and State-level policies such as State Renewable 
Portfolio Standards. For wind, document both strength and auto-
correlations across sites in order to determine the value of offshore 
interconnections; this could identify areas that would, if connected, 
reduce intermittency and potential opportunities for marine 
interconnections. This is a near-term project that should be started 
immediately. Early priority should be given to the East Coast.

7b. Survey the outer continental shelf using GIS land-use overlays to 
characterize marine use activities, ocean ecology, and other parameters 
relevant to offshore wind development. This activity should be 
conducted in close cooperation with each state's local and regional 
stakeholders. These studies need to take into account a wide range of 
environmental and land/sea use issues in advance of wind development 
prospectors; including sensitive ecosystems, avian flyways, aviation 
fly zones, shipping channels, military zones, fisheries, existing 
easements, and other competing uses. Because this high level data is 
not intended for siting decisions, site-level studies will still be 
necessary for individual projects. Also, point conflicts such as 
historical shipwrecks may be better left to developer site-level 
surveys. Early priority should be given to the U.S. east coast.

7c. Install a series of meteorological towers of 100m height, along 
coastal areas believed to have good resources, based on 7a and 7b. On-
site, hub height met towers would both improve the characterization of 
the ocean meteorological environment and provide some of the due 
diligence data needed by investors, thus shortening the site study and 
development cycle. Due to the cost of mobilization, a series of towers 
installed, for example, by a consortium, would be far cheaper than 
installation of single towers at a time by developers. These platforms 
could also be used for other instruments, such as bird radar, SODAR or 
LIDAR, which require either greater height or stationary platforms, 
rather than buoys. Organizational effort here emphasizes federal agency 
staff and university experts to establish and maintain public data 
access, maintain facilities and build expertise.

7d. Measurements and models are needed to characterize the nature of 
wind and waves since offshore wind turbine designs depend on accurate 
understanding of the physical ocean environment. This must be done at 
different geographic locations since offshore structural design 
requirements will be based on site specific data. The series of 
meteorological towers described in 7c would provide additional needed 
measurement components, if they were strategically dispersed to 6-7 
locations that would include representative measurements to classify 
the impacts of warm weather climates (e.g., lightning, hurricanes, warm 
water conditions, etc.) as well as cold weather climates (e.g., icing 
in the Great Lakes, perhaps in cooperation with Canada). A European 
Union effort is underway to improve meteorological predictions of wind 
power output. By joining this effort, greater gains could be made per 
unit cost, while insuring that resulting methods and models are 
applicable to North America.

            Budget and Scheduling
    Item 7a is very high priority and can proceed immediately without 
waiting for item 7b, 7c or 7d. The cost would be $2 million/year for 
five years. Use university experts or environmental firms with track 
records on ocean-specific wind analysis, expertise on using existing 
data and models, and proven ability communicate in a form usable to 
State policy-makers (e.g., how many MW are practical in this state). 
Use known teams and existing data so as to get practical actionable 
results soon, with later refinement by items 7b, 7c and 7d.
    Item 7b might be able to leverage Interior or National Oceanic and 
Atmospheric Administration (NOAA) funds.
    Item 7c would require $120 million over two years to deploy 30 
towers, each 100 meters with multiple instruments. Also, $5 million/
year over five years for a team bridging National Buoy Data Center 
(NBDC) and university and federal ocean meteorology experts. This team 
would initially specify tower locations, archive and provide open data 
access (NBDC) and maintain instruments and calibration (NDBC). Then the 
team will perform and publish strategic analysis (ocean meteorology 
experts) and, once the towers are in place, publish data use guidelines 
usable by private developers and by State and federal energy planners 
(energy policy experts).
    Item 7d would draw on the met towers in 7c and thus, the additional 
funds for meteorological characterization would be $1 million/year over 
five years.

8.  Offshore Wind Farm Arrays
    Offshore wind array performance is very sensitive to atmospheric 
boundary layer stability which tends to vary temporally at a given 
site. Current array models do not adequately represent these stability 
effects and need improvement. Better models are needed to predict the 
impact of turbulence inside the wind plant. Accurate characterization 
of the atmospheric boundary layer behavior and more accurate wake 
models will be essential to understand and design turbines to withstand 
wind plant turbulence. Since turbulence causes wear and tear on the 
turbines, as the industry grows it will be a high priority to be able 
to quantify the degree of turbine generated turbulence under a wide 
range of conditions and to develop tools to design wind plants that 
minimize turbulence at the source.
    The configuration and spacing of wind turbines within an array has 
been shown to a have a marked effect on power production from the 
aggregate wind plant as well as for each individual turbine. Typical 
offshore wind farms lose 10 percent of their energy to array effects. 
Improvements in array layout may allow some recovery. Uncertainties in 
power production represent a large risk factor for offshore 
development. Today's wake codes attempt to model performance but 
empirical data show inadequate representation of individual turbine 
output. Large cost reduction opportunities exist in improving wind farm 
performance models.
    The impact of one wind plant on another is likely to be a larger 
problem than for land-based systems because the open ocean contains 
continuous tracks of unobstructed windy territory. Wind plants 
introduce downstream turbulence that regenerates over some distance but 
analytical models to predict optimum spacing between arrays are very 
immature. Wind plants installed upstream must take into account their 
effect on downstream wind plants in terms of energy capture predictions 
as well as structural loads due to modifications of the wind 
characteristics. The understanding and managing of ``wind rights'' and 
set backs will be important.

            Budget and Schedule
    This effort will require a sustained team of 3-4 people over a 
five-year effort at $1.5 million/year.

9.  Potential Effect of Offshore Wind Development on Coastal Tourism
    Tourism and recreation-related development is one of the major 
factors shaping development patterns in coastal zones and can affect 
coastal lands, near-shore waters and beaches. The coastal zone is a 
limited resource being used by many different stakeholders, including 
local residents, foreign and domestic tourists, and industry. Data from 
the U.S. Census Bureau indicate of those who were surveyed in 2003, 
over fifty million had visited a beach within the past twelve months. 
Although it is often alleged that an offshore wind farm in the United 
States will have a specified effect on tourism, the impacts (negative 
or positive), if any exist, have not been empirically studied. A survey 
should thus be conducted to collect data on beach-goer selection 
trends, beach-goer preferences, and demographics to examine the link 
between beach selection and the presence of offshore wind farms.

            Budget and Schedule
    Initial prospective surveys in six states with near-term 
development plans will cost $400,000 over two years. Coastal tourism 
data combined with on-beach surveys at two development sites, before, 
during construction and two years after project completion, will cost 
$1 million/year over four years.

10.  Advanced Deployment and Maintenance Strategies
    The largest components of higher offshore LCE cost is the higher 
cost of construction and maintenance in offshore environments, 
including installation and logistics. A database of offshore equipment 
and cost is needed so that costs can be accurately represented and cost 
reduction efforts can be assessed. Lifting systems should be developed 
that will enable the use of alternative towers, turbines and rotors to 
reduce or eliminate the need for specialized heavy-lift ships. For 
example, the development of a streamline system for installation to 
float out turbine and towers assembled in dry dock to a project area 
would reduce cost and cost over-runs due to bad weather conditions. 
European wind farms have incurred up to 30 percent cost overruns 
because of bad weather on some projects.
    The reliability of wind turbines must be improved for offshore 
systems. Fewer repairs would further eliminate the need for expensive 
vessels. New offshore strategies must be developed that minimize work 
done at sea. It is essential that new turbine designs, starting with 
the preliminary concepts, rigorously place a higher premium on 
reliability and in-situ repair methods. Materials must be selected for 
durability and environmental tolerance. The design basis must be 
continuously refined to minimize uncertainty in the offshore design 
load envelope. There must be an emphasis on the avoidance of large 
maintenance events that require the deployment of expensive and 
specialized equipment. Much of this should be done at the design stage 
through ruggedized components, improved quality control and inspection, 
and increased testing at all stages of development. Offshore machines 
must be proven on land first before they are deployed in numbers and 
the industry must establish guidelines to determine when a machine is 
ready for deployment at sea.
    Potential developments of new manufacturing processes and 
improvements of existing processes that will reduce labor, reduce 
material usage, and improve part quality, is an area of great potential 
for offshore cost reductions. Offshore installations may allow for 
manufacturing and assembly to occur in close proximity to well 
developed industrial facilities as well as the offshore site. The use 
of large barges for transport then allows the full turbine to be 
transported from the manufacturing and assembly facility to the final 
point of installation.
    To further reduce offshore maintenance, coatings that would last 
the life of the project for the primary structure, tower and blades 
should be developed. Materials to protect secondary structures 
(platforms, j-tubes, etc.) should also be developed. Current European 
offshore wind shows that deposits of insects and salt spray, and 
pitting, cost two to three percent of electrical output. New methods 
for cleaning, and/or recoating blades at sea should be developed and 
tested.

            Budget and schedule
    The R&D Subcommittee does not have a firm basis for estimating the 
cost of this effort. We estimate $5 million for vessel-based research 
and $5 million for O&M focused research, the latter would be cost-
shared with industry.

11.  Integration of large offshore power into Eastern grid
    Because the offshore wind resource of the coastal Eastern states is 
estimated to be substantially greater than the load of these states, 
practical use of this resource will require advances in the integration 
of large fluctuating resources into the grid. A comprehensive set of 
integration options might include at least the following two.

11a. Transmission strategies for coastal areas need to be understood, 
and may be different from mid-continental areas. For example, 
transmission inland may be used to absorb power when offshore wind 
power exceeds 100 percent of load in coastal electric systems. Another 
strategy is to build transmission along the coast, offshore (like the 
European so-called SuperGrid); this would connect offshore wind 
facilities and use meteorological diversity to level output 
fluctuations.

11b. Devices and methods for management of wind fluctuations should be 
tested and modeled. These include planning of greater loads during 
winter when the offshore wind resource is greatest (e.g., electric heat 
displacing combustion furnaces in buildings), management of centralized 
storage and active management of storage inherent in loads (e.g., heat 
storage added to building heating systems). Two methods for storage 
include centralized purpose-built electrical storage, and use of plug-
in vehicles for electrical storage during excess wind and release 
during insufficient wind.

            Budget and schedule
    11a. This effort would require $2 million/year for a three-year 
transmission study, including use of existing Eastern grid, and 
alternative designs for offshore Atlantic connector.
    11b. This effort would require $2 million/year for four years and 
would include two parallel efforts: first, field experiments using 
managed loads, storage heaters, and plug-in vehicles to level wind 
output; second, a modeling effort combining site storage techniques, 
centralized storage, and transmission.

12.  Avian and Marine Ecology Research
    Extensive avian research has been conducted in European wind farms 
without finding a major problem associated with mortality due to wind 
turbine collisions. However, concerns still exist and European 
experience is insufficient to fully demonstrate the impact of wind 
turbines on birds in the United States.

12a. Prospectively and area-wide, a single ornithological study should 
be conducted over the entire Eastern United States flyway. More 
detailed research should focus on areas most suitable for wind energy 
deployment.
    Many species of fish and other marine life are more abundant in 
shallow waters favored also by current offshore wind projects. These 
species may include both resident and migratory seabirds (including 
gulls, terns, gannets, cormorants, storm-petrels, shearwaters and 
others) which come to these banks for food year round. Because the U.S. 
continental shelf is less shallow than in Europe, there may be a 
greater concentration of marine life in these shallow areas than 
similar areas in Europe. The feeding ecology of seabirds and other 
water fowl needs to be studied on offshore banks and over submerged 
ledges.

12b. Before and after construction studies should be conducted at early 
wind farms in the United States with public disclosure of the findings. 
Estimating post construction mortality of birds at terrestrial projects 
is a matter of physically searching the area around turbines and 
correcting for misses and scavenging. Offshore, new remote sensing 
methods to detect bird strikes need to be designed and field tested. 
Careful studies are needed to determine the effects of offshore 
turbines on various avian species, building on extensive work conducted 
in Europe and in the U.S. onshore wind turbine market.

            Budget and Schedule
    For the prospective area-wide study mentioned in 12a, the cost is 
estimated by extrapolation from a New Jersey comprehensive study, 
underway in 2009, extrapolated by area to cover Virginia through Maine 
out to 30 nautical miles. On this basis, flyway survey cost over two 
seasons would be $132 million--however, a more refined cost estimate is 
needed. 12b. This effort requires two site studies (pre- and post-
construction) managed by federal agencies and not by developer, with 
results publicly available. $7 million per study, synchronized to 
timing of early two developments in diverse ecological zones.

13.  Recommended methods for evaluating costs and benefits of projects
    During both the Long Island offshore wind process and the Delaware 
power purchase agreement process, there was considerable debate over 
the cost and benefit analyses of each project. Development of 
recommended criteria and methods for evaluating the costs and benefits 
of offshore wind projects, including guidelines for evaluating direct, 
indirect and induced job impacts, would help to eliminate debate on 
this issue. These criteria and methods could optionally be used by 
states, developers, or non-governmental groups to evaluate specific 
offshore wind proposals.

            Budget and Schedule
    This effort would require $400,000 over two years.

                     Biography for John Saintcross
    John Saintcross is the Program Manager, Energy and Environmental 
Markets at the New York State Energy Research & Development Authority 
(NYSERDA) where he is currently responsible for managing the 
centralized procurement of renewable resources under the Renewable 
Portfolio Standard in New York and the auctions/sales of allowances 
under the Regional Greenhouse Gas Initiative and Clean Air Interstate 
Rule programs. Mr. Saintcross is a member of the New York State nuclear 
assessment and evaluation team responsible for conducting evaluations 
of physical reactor plant conditions and plant personnel responses to 
unusual or emergency reactor and other plant system events. Before 
assuming these current responsibilities at NYSERDA, Mr. Saintcross 
managed various renewable technology product development and deployment 
activities including those associated with the development of green 
power markets. Prior to joining NYSERDA, Mr. Saintcross was the 
Director of Resource Portfolio Management for Green Mountain Power 
Corporation, where his responsibilities included the development of 
renewable and distributed power technologies, integrated generation and 
demand planning, and power contracting, delivery and trading. At Green 
Mountain Power, Mr. Saintcross lead the effort, working with the 
Electric Power Research Institute and the Department of Energy to 
develop one of the Nation's first utility owned wind projects for the 
testing of large-scale, pre-commercial turbines located in Searsburg, 
Vermont. Before entering the energy business, he was employed by 
Westinghouse working in the Naval Nuclear Propulsion Program where he 
was responsible for component specification, manufacturing and ship-
board maintenance. Mr. Saintcross has testified numerous times on 
utility planning matters as well as co-authored and collaborated on 
various papers and studies. He was a founding member of the Utility 
Wind Interest Group and a past member of the National Wind Coordinating 
Committee. Mr. Saintcross received his B.S. in Nuclear Engineering from 
the State University of New York at Buffalo in 1977.

    Chairman Baird. Thank you, Mr. Saintcross. Dr. Swift.

   STATEMENT OF DR. ANDREW SWIFT, DIRECTOR, WIND SCIENCE AND 
       ENGINEERING RESEARCH CENTER, TEXAS TECH UNIVERSITY

    Dr. Swift. Good afternoon, Mr. Chairman, and thank you to 
the Members of the Committee for inviting me. It is an honor to 
testify before this committee. As Congressman Neugebauer 
mentioned, I am a faculty member in Civil Engineering and 
Director of the Wind Science and Engineering Research Center at 
Texas Tech University in Lubbock, Texas, and the Center has 
been in existence for almost 40 years. I have been doing wind 
research for about 30 years myself, and Texas ranks first in 
wind power installed capacity, and in Lubbock, we are at the 
geographic epicenter of that development in Texas, and of 
course, it expands through the southern Great Plains region.
    Wind is the fastest-growing source of bulk electric power 
in both the US and the world, and it is a clean, domestic 
renewable source of energy, and it uses no water. Most thermal 
power plants use a lot of water, and I know there have been 
some Committee hearings here before this committee talking 
about the relationship between energy and water. That is an 
important fact I think as we look about the dispersion of wind 
through the Great Plains where water can be scarce.
    Mr. Lockard gave a good review of the Department of 
Energy's 20 Percent by 2030 Report, and we are at about 28 
gigawatts of installed capacity. That report calls for 300 
gigawatts of needed capacity, and also it talks about not only 
the need for transmission but also the need for reduced cost 
and improved performance and reliability of wind turbines and 
about workforce. I would like to use my last few minutes here 
to comment on these.
    On the research for turbine reliability and performance, 
there are really two areas, and I compliment Congressman Tonko 
and his bill for distinguishing between those two. One is 
individual turbine research, which needs to be done in order to 
improve components. They talk about improved rotors, improved 
generators, improved blades. There is a lot of work that can be 
done in those various areas. These will combine together to 
provide individual turbine performance enhancement.
    The second area is the development part of the bill really 
addresses the array effects of wind turbines. One of the issues 
for research is that as these turbines are put into large wind 
farms, the downwind turbines, the ones that are in the second, 
third and fourth row typically don't perform as well as those 
in the front row. And this is an issue because researchers and 
folks at the labs, et cetera, our students cannot get access to 
these turbines because they are all privately held and 
privately owned. So there is a huge need for public access to 
wind farms in order to begin to look at these wake effects and 
array effects.
    When we talk about the $200 million that has been proposed 
per year, that is a lot of money. It is a healthy increase, but 
it is a needed increase. It brings wind on a parity I think 
with some of the other research areas. Solar has been pretty 
close to that range for a number of years. If one were to look 
at that as an investment, take an investment approach, the 2030 
report by DOE calls for about 15 gigawatts per year in order to 
reach that goal.\1\ If one takes that 15 gigawatts and applies 
a one percent performance improvement, that is all, just one 
percent to that 15 gigawatts due to this research and then 
takes that over the life of the wind farm, net present value of 
that is about $300 million given the current cost and with some 
assumptions. I have those calculations available if anyone is 
interested.
---------------------------------------------------------------------------
    \1\ Capacity per year to be installed in order to reach the 20 
percent by 2030 goal. Clarified by Dr. Swift.
---------------------------------------------------------------------------
    My point is that the leverage of those dollars is 
significant, and that is because of the huge amount of energy 
produced from these large wind farms and the value of that 
energy.
    I would like to take my last minute to talk about workforce 
needs. In the DOE 2030 report, they talk about 180,000 direct 
jobs are going to be needed. We have had some economists at 
Texas Tech take a look at these numbers, and we estimate that 
about 20,000 to 25,000 of those jobs will be professional jobs 
which will require some kind of university education. The rest 
will require a two-year degree in maintenance and oversight of 
these wind farms, and that effort is going on as I say mostly 
at the two-year schools. At the University, as Congressman 
Neugebauer pointed out, we have the only Ph.D. program in wind 
science and engineering, something we are proud of, but if we 
are going to have this kind of development, we need programs 
across this country. Texas Tech is not going to lead this 
development all by itself. A number of universities are 
stepping up, but in order to make this happen, we need to get 
faculty involved, and research dollars bring faculty, the 
faculty bring the graduate students, the graduate students then 
innovate, bring new ideas back, new programs are installed, and 
then that forms the basis for the workforce needs for this 
industry.
    I see that my time is up. I again appreciate very much the 
opportunity to be here. I am happy to take questions a little 
bit later. My written testimony gives more details. Thank you.
    [The prepared statement of Dr. Swift follows:]

                   Prepared Statement of Andrew Swift

    Good afternoon. Thank you, Mr. Chairman and Members of the 
Committee. My name is Andrew Swift and I appreciate this opportunity to 
provide testimony on the importance of wind energy research.

Background:

    I am a faculty member in Civil Engineering at Texas Tech University 
in Lubbock, Texas, and have been engaged in wind energy research and 
education at the university level since the late 1970s. I presently 
serve as the Director of the Wind Science and Engineering Research 
Center at Texas Tech University which has conducted wind-related 
research and education since 1970, and offers the only multi-
disciplinary Ph.D. degree program in Wind Science and Engineering in 
the Nation.
    The University is located on the High Plains of West Texas and is 
at the geographic epicenter of thousands of Megawatts and billions of 
dollars of large, utility scale wind turbine development in the 
southern Great Plains region--to include eastern New Mexico, southern 
Colorado, western Oklahoma and the Panhandle of Texas. The wind 
resources are excellent and the people of the region are familiar with 
the wind, windmills historically used for water pumping, and 
integrating energy production from the land (typically oil and gas) 
with ranching and agriculture. Texas is ranked first in the Nation in 
wind power installed capacity.

Wind Energy Overview and Barriers to Development:

    Over the past decade, wind power has been the fastest growing 
source of new bulk electrical power generation in the U.S. and the 
world. Wind energy is a clean, domestic and renewable source of 
electrical energy. Additionally, unlike thermal power plants which use 
large amounts of water for cooling, wind energy generation uses no 
water--an important fact in the Great Plains wind corridor where water 
resources are severely strained. Current U.S. wind power capacity is 
approximately 28 gigawatts, generating sufficient electrical energy to 
power approximately 10 million U.S. households--a small fraction of 
current U.S. electrical energy consumption. Robust growth is expected 
to continue, with the U.S. DOE projecting that wind energy could 
provide 20 percent of the total U.S. electrical energy needs by the 
year 2030.\1\
---------------------------------------------------------------------------
    \1\ ``20% Wind Energy by 2030,'' USDOE, www.20percentwind.org
---------------------------------------------------------------------------
    The U.S. DOE report, completed in spring 2008, outlined the costs, 
benefits and barriers to successfully developing the 300 GW of 
installed wind power capacity, more than ten times the current 
capacity, needed to meet the 20 percent goal. The report has been 
generally well received by the wind energy community and most are 
supportive of the 20 percent target. In outlining barriers to attaining 
the goal, the need for expanded electric transmission resources to move 
wind-generated electrical energy from high wind resource areas to load 
centers was emphasized. However, the report also points to the critical 
need for additional research and development to reduce capital costs, 
increase performance and reliability and reduce environmental impacts 
of wind turbine power generation as compared to the current state of 
the technology. The report also points to the need for accelerated wind 
energy workforce development to meet industry needs. Let me focus on 
four points:

        1.  Wind Turbine and Wind Farm Turbine Research Needs:

            Decreased capital cost, improved performance and improved 
        reliability of both individual wind turbines and entire wind 
        farm multiple turbine arrays will require significant 
        investments of research and development funds. These are 
        actually two separate research thrusts and the proposed ``Wind 
        Energy Research and Development Act of 2009'' addresses these 
        two programmatic needs.

            The first will require improvements in individual wind 
        turbine technology such as improved generators, gear boxes and 
        drive trains, improved rotor designs and controls technology, 
        and advanced components and materials. Investment and emphasis 
        on individual component areas will combine to improve the 
        entire wind turbine.

            The second research thrust will also require significant 
        investment but must address system level, multiple wind turbine 
        array issues and must be approached in a different manner. 
        Access to wind farm data is currently very difficult to obtain 
        due to the private nature of wind farm ownership. Wind inflow 
        characterization, wake turbulence and wind turbine array 
        response measurements are very much needed to address current 
        unexplained decreases in performance and reliability. Answers 
        to these system and array questions will require public funding 
        of research and a very different approach than the component 
        research. It is important that the research data and results be 
        in the public domain, benefiting the entire U.S. wind industry 
        thereby assuring the adoption of best practices throughout the 
        industry, reducing negative impacts, improving reliability and 
        performance and providing energy at the lowest cost from the 
        Nation's wind turbines and wind farms.\2\ The AWEA Action Plan 
        Report\3\ provides excellent detail of the required research 
        thrust areas and should be a template for implementation.
---------------------------------------------------------------------------
    \2\ Texas Tech University has proposed a National Wind Resource 
Center and publicly funded wind farm on university land near Amarillo, 
Texas for the purpose of obtaining operational wind farm data. That 
project is under consideration in the FY 2010 Federal Budget process.
    \3\ ``Action Plan to Achieve 20% Wind Energy by 2030,'' American 
Wind Energy Association, Research and Development Committee.

---------------------------------------------------------------------------
        2.  Wind Power Forecasting Research:

            Since wind is an intermittent source of power generation, 
        integration studies of wind with the electric grid system and 
        the proposed ``smart grid'' are needed. Full integration of 
        wind resources will require area-wide load balancing and 
        dispatch and will rely heavily on high fidelity wind and wind 
        power forecasting so that power is delivered reliably and all 
        resources are utilized to their potential.

            This will require the atmospheric science community to 
        approach forecasting of wind on a variety of temporal and 
        spatial scales and with an accuracy not usually associated with 
        weather forecasting. The solution will require a synergistic 
        approach to research and development and a strong partnership 
        between the atmospheric science community and wind power 
        generation community. These research topics are not listed in 
        the current bill, but should be considered for inclusion in the 
        program.

        3.  Research Funding as a Technology Investment:

            The proposed research program, the ``Wind Energy Research 
        and Development Act of 2009'' addresses the points made above 
        and represents a significant, and much needed, increase in wind 
        energy related research funding at the proposed level of $200 
        million per year through 2014. The amount is reasonable when 
        compared with other federal energy research programs or when 
        viewed as an investment in technology advancement. Assuming 
        growth rates in wind capacity from the 20 percent wind energy 
        by 2030 report of approximately 15 gigawatts per year, each one 
        percent increase in performance due to technology improvement 
        will represent approximately $300 million net present value of 
        revenue over the life of the turbines installed that year--a 50 
        percent increase over the proposed annual federal investment.

        4.  Education and Workforce Development:

            The DOE 2030 report estimates a wind energy workforce of 
        180,000 direct jobs at full capacity. Estimates by Texas Tech 
        University economics faculty and Wind Science and Engineering 
        staff estimate that approximately 20 to 25,000 of these will be 
        professional jobs requiring a university education. Significant 
        wind energy programs at universities require active and 
        knowledgeable faculty and strong student enrollment. It is very 
        important that universities partner in real and synergistic 
        ways with industry and DOE laboratory personnel in these 
        research programs. Not only do the faculty and student 
        researchers bring new ideas and innovation to the research 
        agenda, they bring the connections back to the university for 
        new programs in wind energy and opportunities for students. 
        Wind energy is strongly multi-disciplinary and faculty and 
        students are needed to support this industry not only in 
        engineering for new turbine designs and development, but also 
        in atmospheric science for wind and power forecasting and 
        resource assessment, in ecology to study and minimize wildlife 
        impacts, in project management and financial analysis, in 
        agriculture and economics to integrate the technology with 
        agriculture interests throughout the central U.S. wind 
        corridor, and so forth. Inclusion of strong university, 
        industry and government research and education funding and 
        partnerships are crucial to effective wind energy workforce 
        development in support of this industry.

    This is an exciting time to work in wind power. I believe if 
research and education investments are made on the scale proposed and 
comparable with support of other sources of electrical power that this 
industry can provide 20 percent of the Nation's electrical energy by 
2030--providing a clean, affordable and domestic source of renewable 
power to the citizens of our nation.

                       Biography for Andrew Swift
    Dr. Andrew Swift is presently a Professor of Civil Engineering and 
Director of the Wind Science and Engineering Research Center at Texas 
Tech University. His previous employment included more than 20 years as 
a professor of Mechanical Engineering at U.T. El Paso, the last seven 
of which were spent as Dean of the College of Engineering. He completed 
his engineering graduate work obtaining a Doctor of Science degree at 
Washington University in St. Louis where he began conducting research 
in wind turbine engineering with a focus on the dynamics and 
aerodynamics of wind turbine rotors. Dr. Swift has worked in wind 
energy research for over 25 years, has over one hundred published 
articles and book chapters in the area of wind turbine engineering and 
renewable energy, and in 1995, he received the American Wind Energy 
Society Academic Award for continuing contributions to wind energy 
technology as a teacher, researcher, and author.

    Chairman Baird. Thank you, Dr. Swift. Mr. Zweibel.

 STATEMENT OF MR. KEN ZWEIBEL, PROFESSOR OF ENERGY; DIRECTOR, 
GEORGE WASHINGTON SOLAR INSTITUTE, GEORGE WASHINGTON UNIVERSITY

    Mr. Zweibel. Thank you very much, Mr. Chairman, 
distinguished Members for having me.
    We are pressed by climate change and energy price 
escalation challenges. In response, we are quite likely to 
deploy many billions, even trillions of dollars worth of 
renewables, including solar. This is the path Europe and Japan 
appear to be on, and of all the future paths, it seems to me 
the most likely for us. In my opinion, it is by far the most 
sustainable, sensible, even most affordable.
    We should assure that our deployment expectations of these 
trillions of dollars are supported by technological progress to 
keep our cost to a minimum. This is especially true of solar, 
where current costs are higher than other renewables, but 
potential for cost reductions are faster and greater and the 
payoff is greatest, because solar is the largest and most 
widely available energy source on the planet, much larger than 
fossil fuels. In fact, I suggest a combined deployment of solar 
and my respected wind colleagues and electric transportation 
will address our problems successfully. If we can solve our 
energy problems with solar and wind and electric 
transportation, they will be solved for a long time to come.
    If we do not try to connect our solar technology 
development in government with our deployment expectations, we 
will be doing ourselves a disservice, paying more and perhaps 
much more than we should for the same electricity.
    In addition, we have the responsibility to maximize our 
domestic competitiveness since solar can provide a huge harvest 
of jobs. Our suite of solar technologies is exceptionally rich 
and with the proper support should reach cost levels 
appropriate for deployment sufficient to stabilize energy 
prices and reduce greenhouse gas emissions. That means we do 
not need any breakthroughs. We have all the technology we need 
to be able to meet the greenhouse gas and energy price 
stabilization.
    We are in danger of losing technical leadership in these 
technologies if we hesitate to support them, misled by claims 
about nascent, futuristic technologies with poor risk profiles.
    I worked 25 years on solar PV technology development and 
had the good fortune to be involved with a small DOE program of 
$5 to $15 million during that period. The Thin Film PV 
Partnership and its precursors nurtured several second-
generation PV technologies from bench-top to multi-billion 
dollar annual sales. Two key U.S. companies, UniSolar here to 
my left and First Solar were substantial participants in this 
program. Both are now world leaders in PV. In fact, First Solar 
was the second-largest manufacturer of PV modules in the world 
last year. When the numbers come in this year, they may be the 
largest with over a billion watts of module sales and $2 
billion dollars in revenue. This is a notable success in a 
world dominated by foreign, even Chinese competitors that tout 
low-cost labor as their competitive advantage. In this case, 
technology is our competitive advantage, and we would like to 
keep it that way.
    We can learn some lessons from the history of First Solar 
which was intimately involved with the funding for the 
Department of Energy during their period of nurturing since 
1989.
    I want to make a point about commitment to excellent 
technologies. Solar Cells, Inc., First Solar's precursor 
company, was not the first to work in their chosen technology. 
Before it, Kodak, Ametek, Photon Power, Coors, Matsushita, and 
BP Solar worked on it and gave up. During that whole time, 
several universities, including Stanford and Southern Methodist 
University, were also participating. We at NREL started in 
about 1985. We stuck with their technology during corporate ups 
and downs because we had a technical roadmap based on three 
critical criteria: PV module cost, performance and reliability. 
These same criteria are mostly the criteria we all use in 
everyday matters, cost, performance and reliability. They are 
pretty much universal.
    We were not lost in the technological woods, assuming 
everything equally worthy of support or jumping from one hot 
new idea to another. We knew what we needed in the way of 
manufacturing cost, in the way of output and in the way of 
reliability for a 30-year life. Knowing where we were going 
allowed us to stick with technologies through thick and thin 
and to drop those that demonstrated an inability to get there 
with reasonable risk and cost. We exercised technically 
knowledgeable judgment, and we got to our goals.
    Today, First Solar has surpassed all our metrics, and they 
are now the lowest cost producer of solar PV electricity in the 
world. They have become a huge spur to progress in solar energy 
because they are the new benchmark against which everyone is 
measured. We are fortunate, because without this competition, 
prices will be dropping instead of being static, the way they 
were before their reaching first tier, becoming a first-tier 
supplier.
    Let me thank Ohio Representative Marcy Kaptur for being a 
champion----
    Chairman Baird. Mr. Zweibel, you have reached about five 
minutes, so I hate to cut you short, but I am going to ask you 
to conclude your remarks shortly.
    Mr. Zweibel. All right. Who as part of this development 
during this whole period.
    Technical roadmaps are not magic. They have well-known 
pitfalls like being too narrowly defined, not allowing enough 
out-of-the-box thinking and being parochial. But they are also 
wonderful in assuring us research focus and highlighting pinch 
points. Used wisely, they can be a major step forward. Put 
differently, without them we are in danger of wandering in the 
woods, from one hot excitement to another, or treating every 
proposal as of equal value. Adoption of a technical roadmap 
should be done sensitively----
    Chairman Baird. Mr. Zweibel, I am going to ask you to 
conclude at this point.
    Mr. Zweibel.--with openness to frequent revision. Thank you 
very much.
    [The prepared statement of Mr. Zweibel follows:]

                   Prepared Statement of Ken Zweibel

    We are pressed by climate change and energy price escalation 
challenges. In response, we are quite likely to deploy many billions, 
even trillions of dollars worth of renewables, including solar. This is 
the path Europe and Japan appear to be on, and of all the future paths, 
it seems to me the most likely for us. In my opinion, it is by far the 
most sustainable, sensible, even most affordable.
    We should assure that our deployment expectations of these 
trillions of dollars are supported by technological progress to keep 
our cost to a minimum. This is especially true of solar, where current 
costs are higher than other renewables, but potential cost reductions 
are faster and greater--and the payoff is greatest, because solar is 
the largest and most widely available energy source on the planet. Much 
larger than fossil fuels. In fact, I suggest a combined deployment of 
solar, wind, and electric transport will best address our problems. If 
we can solve our energy problems with solar and wind and electric 
transportation, they will be solved for a long time.
    If we do not try to connect our solar technology development in 
government with our deployment expectations, we will be doing ourselves 
a disservice, paying more and perhaps much more than we would otherwise 
for the same solar electricity. In addition, we have a responsibility 
to maximize our domestic competitiveness in solar, since solar can 
provide a huge harvest of jobs. Our suite of solar technologies is 
exceptionally rich, and with the proper support should reach cost 
levels appropriate for deployment sufficient to stabilize energy prices 
and reduce GHG emissions. We are in danger of losing technical 
leadership in these technologies if we hesitate to support them, misled 
by claims about nascent, futuristic technologies with poor risk 
profiles.
    I worked twenty-five years on solar PV technology development and 
had the good fortune to be involved with a small DOE program of $5-$15M 
per year for those 25 years. The Thin Film PV Partnership and its 
precursors nurtured several second generation PV technologies from 
bench-top to multi-billion dollar annual sales. Two key U.S. companies, 
UniSolar and First Solar, were substantial participants. Both are now 
world leaders in PV technology, and in fact, First Solar was the second 
largest manufacturer of PV modules in the world last year. When the 
numbers come in for this year, they may be the largest, at over one 
billion watts of annual module production and two billion dollars in 
sales. This is a notable success in a world dominated by foreign, even 
Chinese competitors that tout low-cost labor as their competitive 
advantage. In this case, technology is our country's advantage 
developed with U.S. Government investment, and we would like to keep it 
that way.
    We can learn some lessons from the history of the development of 
First Solar, which was intimately involved with the activities and 
funding of the Department of Energy's PV Program and the National 
Renewable Energy Lab in Golden, CO, from its inception in 1989 as Solar 
Cells Inc.
    I want to make a point about commitment to excellent technologies. 
Solar Cells Inc. was not the first company to work in its chosen 
technology, a thin film semiconductor named cadmium telluride. Before 
and while they did so, Kodak, Ametek, Photon Power, Coors, Matsushita, 
and BP Solar worked on it and gave up. During that whole time, several 
university groups also worked on CdTe, especially Stanford under 
Professor Richard Bube and Southern Methodist University with Professor 
Ting Chu, perhaps the most important contributor in this field. We at 
NREL formalized an internal program about 1985. We stuck with thin film 
cadmium telluride despite the corporate ups and downs. Why? Because we 
had a technical roadmap based on three critical criteria: PV module 
cost, performance, and reliability. We were not bureaucratic babes lost 
in the technological woods, assuming everything equally worthy of 
support or jumping from one hot new idea to another. We knew what we 
needed in the way of manufacturing cost--about $100 per square meter of 
module area; in terms of performance--about 100 W of solar electricity 
from the same square meter; and reliability--less than one percent and 
preferably 0.5 percent degradation of output per year, leading to over 
30-year outdoor life. Knowing where we were going allowed us to stick 
with technologies through thick and thin, and to drop those that 
demonstrated an inability to ever get there with reasonable risk and 
cost. We exercised technically knowledgeable judgment, and we got to 
our goals. Today, a company we nurtured, First Solar, has surpassed all 
our metrics, and they are now the lowest cost producer of solar PV 
electricity in the world. They have become a huge spur to progress in 
solar, because they are the new benchmark against which everyone is 
measured. We are fortunate, because without this stark competition, 
prices might be static, or even increasing, as they did before the 
advent of First Solar as a first-tier supplier.
    Let me thank Ohio Representative Marcy Kaptur for being a champion 
throughout this period; the University of Toledo for incubating Solar 
Cells Inc.; NREL, DOE and EERE for sticking with it; and the Walton 
family for buying Solar Cells Inc. in 2001 and getting it through the 
expensive (quarter billion) and technically challenging `valley of 
death' to commercial success.
    Technical roadmaps are not magic. They have well-known pitfalls 
like being too narrowly defined; not allowing for enough `out of the 
box' thinking; and being parochial. But they are also wonderful in 
assuring research focus and highlighting pinch points. Used wisely, 
they can be a major step forward. Put differently, without them we are 
in danger of wandering in the woods, from one hot ``nano'' excitement 
to another, or treating every proposal as equally valid. Adoption of a 
technical roadmap should be done sensitively, with openness to frequent 
revision,. The best programs have good guidelines of cost, performance 
and reliability; and creative, knowledgeable managers who appreciate 
both focus and change. Yes, we want it all, not just one extreme or the 
other--not ``wild-eyed creativity'' or ``nose to the grindstone 
dullness.'' We want it all. We need both focus and sensitivity to 
change, and with good oversight, should lead to it.
    Would requiring a deployment-related technical roadmap impose 
imbalance on our solar effort in the government? I do not believe so. 
Observing today's federal solar funding, we have made strides in 
creating a program that does blue-sky research on all sorts of 
potential technologies at Basic Energy Sciences in DOE. With the ARPA-E 
program, we have opened the doors to cross-cutting ideas that assemble 
pieces from different disciplines into something not well-supported 
before. Now we are suggesting that our federal program at EERE be 
focused technologically in support of our deployment expectations to 
solve climate change and energy price challenges. I applaud efforts 
that support these kinds of activities.
    In closing, I would like to thank the Subcommittee for inviting me 
to participate.

                       Biography for Ken Zweibel
    Ken Zweibel has almost 30 years experience in solar photovoltaics. 
He was at the National Renewable Energy Laboratory (Golden, CO) much of 
that time and the program leader for the Thin Film PV Partnership 
Program until 2006. The Thin Film Partnership worked with most U.S. 
participants in thin film PV (companies, universities, scientists) and 
is often credited with being important to the success of thin film PV 
in the U.S. Corporate participants in the Partnership included First 
Solar, UniSolar, Global Solar, Shell Solar, BP Solar, and numerous 
others.
    Zweibel subsequently co-founded and became President of a thin film 
CdTe PV start-up, PrimeStar Solar, a majority share of which was 
purchased by General Electric. Zweibel became the founding Director of 
The George Washington University Solar Institute at its formation in 
2008.
    Zweibel is frequently published and known worldwide in solar 
energy. He has written two books on PV and co-authored a Scientific 
American article (January 2008) on solar energy as a solution to 
climate change and energy problems.

    Chairman Baird. Thank you, Mr. Zweibel. I apologize for 
that. Ms. Bacon.

 STATEMENT OF MS. NANCY M. BACON, SENIOR ADVISOR, UNITED SOLAR 
           OVONIC AND ENERGY CONVERSION DEVICES, INC.

    Ms. Bacon. Thank you, Mr. Chairman, and all the 
distinguished Members of the Committee. I very much appreciate 
being here. It is an honor.
    I am Nancy Bacon, of course, Senior Advisor of a company in 
Michigan which is Energy Conversion Devices.
    Our largest business unit is United Solar Ovonic. It is a 
global leader in manufacturing thin film photovoltaics that 
convert sunlight into clean, renewable energy. As you can see 
from this small sample that I have, our products are 
significantly different from the other, conventional products. 
They are typically 18 feet long and 14 inches wide. They 
contain no glass which makes them flexible, durable, and 
extremely lightweight, perfect for PV rooftop installations. In 
fact, our products were chosen for the largest photovoltaic 
array in the world on a rooftop in Spain with General Motors. I 
have given a handout to the staff earlier, and you will see 
that pictured on page 6.
    To make our United Solar laminates, we employ about 2,000 
people, most of them in Michigan. Since 2006, United Solar has 
increased its Michigan employment base four-fold. We operate 
two plants in Auburn Hills, Michigan, two in Greenville, 
Michigan, and we are continuing to expand and we are 
constructing a fifth plant in Battle Creek. We are one of the 
few U.S. producers of solar cells and modules.
    We have a history of innovation. We pioneered the use of 
roll-to-roll processing for depositing solar cells on one and a 
half mile long substrates.
    We are very interested in the roadmap process, and we very 
much applaud the Committee's commitment to solar energy and 
support the DOE's solar photovoltaic programs. We also believe 
that strengthening the government-industry partnership to 
develop a robust solar-powered roadmap or solar vision to guide 
the U.S. research, development, demonstration, and commercial 
application would be of great value.
    Such a program properly funded would address the national 
priorities effectively of addressing climate change, enhance 
U.S. competitiveness, and energy security.
    We are competing against countries, not companies. Bell 
Labs invented photovoltaics 54 years ago. Less than a decade 
ago we had 40 percent of the world's PV manufacturing here in 
the United States. Today it is only about eight percent. We 
need to put the Nation's scientific, engineering and innovation 
talents to work to bring down the cost of solar power and 
revitalize our manufacturing base.
    Other countries have visionary policies in making 
investments that are creating thousands of jobs, and we need to 
do that as well. Widespread use of solar PV can benefit the 
climate, the economy and our security.
    While addressing the supply side I think is critical, we 
also need as a nation to address the demand side. In 
particular, we believe that the government should lead by 
example and install PV roofs on federal buildings and encourage 
states to do the same.
    Before offering some specific suggestions, I would like to 
highlight some of the benefits of using solar photovoltaic for 
distributed generation to put some of my recommendations into 
context.
    Solar rooftops are an ideal place to generate electricity. 
As this committee well knows, distributed generation simply 
refers to the generation of electricity at the point of 
consumption rather than at a remote location. Outlined in my 
written testimony, the benefits of distributed generation are 
numerous and they include better land utilization, reduced 
strain on our antiquated electrical grid, no transmission or 
distribution losses, less reliance on foreign oil and a drop in 
carbon dioxide production. That is five significant benefits in 
one.
    If you think about it, rooftops are an idea place to 
install photovoltaics. They have no other purpose but to keep 
the building dry inside.
    My written testimony outlines my recommendations, and I 
would like to highlight a few today. A solar vision roadmap 
should be properly funded to assure the U.S. industry achieves 
grid parity and the U.S. is competitive with other countries. 
All costs should be considered in the development of the 
roadmap in establishing priorities. As with the DOE's 
successful Solar America Initiative, focus should be on the 
lowest cost per kilowatt hour taking into consideration the 
installed cost per system and the amount of electricity 
generated in real-world conditions. Benefits of distributed 
generation should also be taken into account, i.e., no land, no 
transmission and distribution losses, et cetera, and we should 
also take into account the benefits of solar during peak times.
    Health benefits and energy security benefits are also 
important. If we fund a vigorous program to develop advanced 
manufacturing technology, I believe this will be critical for 
the United States to help revitalize its manufacturing base and 
regain leadership in this important field. And this funding 
should be given priority as well.
    Finally, I think that the taxpayers' investment should be 
protected with provisions to ensure technology developed with 
taxpayers' money is implemented here in the United States.
    Chairman Baird. Ms. Bacon, I am going to ask you to reach 
your conclusion shortly.
    Ms. Bacon. I certainly will. Thank you. The last 
recommendation I have is really with regard to the demand side. 
The Federal Government spends $6 billion annually on 
electricity. I think they should lead by example, and they 
should be putting a procurement program in place that would 
change the way we create electricity, just the way we changed 
the way with the government funding, the way we communicate 
with the Internet. I think it is critical to success that we 
move ahead with these programs, and a timely implementation and 
deployment can help us regain our leadership once again.
    Chairman Baird. I will ask you to conclude at that point, 
and we will have time for questions.
    Ms. Bacon. Thank you so much.
    [The prepared statement of Ms. Bacon follows:]

                  Prepared Statement of Nancy M. Bacon

    Chairman Baird, Ranking Member Inglis and distinguished Members of 
the Committee and staff, thank you for the opportunity to testify 
today. I am a Board Member of the Solar Energy Industries Association 
(SEIA), and a Senior Advisor for United Solar Ovonic and its Parent, 
Energy Conversion Devices (``ECD''), a publicly traded manufacturer of 
thin-film solar laminates based in Rochester Hills, Michigan--near 
Detroit.
    ECD's largest business unit is its wholly owned subsidiary, United 
Solar Ovonic. United Solar is a global leader in manufacturing thin-
film solar photovoltaic (PV) laminates that convert sunlight into 
clean, renewable electricity under the UNI-SOLAR brand name.
    Because of their unique properties (flexibility, durability, light 
weight), UNI-SOLAR laminates are ideal for rooftop and other building-
integrated applications. While we sell products for many applications, 
most of our solar laminates are installed on rooftops. In fact, our 
products were used to build the world's largest rooftop solar 
photovoltaic installation: a 12 Megawatt solar array on the roof of an 
automobile production plant in Zaragoza, Spain. UNI-SOLAR also powers 
some of the largest installations here in the United States, including 
a two megawatt installation on the roof of a supermarket distribution 
center in Southern California.
    To make our UNI-SOLAR laminates, we employ more than 2,000 people, 
with most of those employed in Michigan. We operate two manufacturing 
facilities in Auburn Hills, Michigan, two manufacturing facilities in 
Greenville, Michigan--a town in desperate need of jobs after the 
Electrolux manufacturing plant shut down and we are constructing a 
fifth plant in Battle Creek Michigan. We are one of the few U.S. 
manufacturers of solar cells and modules.
    Our global research and development efforts are also headquartered 
in Troy, Michigan. Since 2006, United Solar has increased its Michigan 
employee base four-fold. In fact, according to the Energy Information 
Administration (EIA), Michigan is the second largest producer of solar 
cells and modules among all 50 states,\1\ primarily because of us.
---------------------------------------------------------------------------
    \1\ Energy Information Administration: Shipments of Photovoltaic 
Cell and Modules by Origin, 2006 and 2007; http://www.eia.doe.gov/
cneaf/solar.renewables/page/solarreport/table3<INF>-</INF>--5.html
---------------------------------------------------------------------------
    We applaud the Subcommittee's commitment to solar energy and 
support of the Department of Energy's (DOE) solar research program. We 
also believe that a government/industry partnership to develop a Solar 
Power roadmap/Solar Vision to guide the U.S. research, development, 
demonstration and commercial application efforts would be of great 
value. Such a program, properly funded would address the national 
priorities of effectively addressing climate change, enhance U.S. 
competitiveness and energy security, revitalize our manufacturing base 
and create ``green collar'' jobs by investing in programs that decrease 
our dependence on foreign oil and address global climate change.
    A great example of government/industry partnership is DOE's Solar 
America Initiative (SAI) program. Unlike previous programs that 
emphasized only on certain aspects of system cost, SAI focuses on 
achievement of c/kWh to reach grid parity. Many industries are 
participating in this program that has already led to significant cost 
reduction. We have developed new technology under this program that, 
when introduced in our manufacturing, will accelerate our progress to 
achieve grid parity.
    We are interested in participating in further development in 
roadmapping process for solar electricity and believe that larger 
investment and coordination are important for accelerating the 
widespread adoption of solar energy production. We are competing 
against countries not companies. Bell labs invented photovoltaics 54 
years ago, less than a decade ago we had 40 percent of the worlds PV 
manufacturing capacity here in the U.S., but today it is only about 
eight percent.
    We need to put the Nation's engineering, scientific and innovation 
talents to work to bring down the cost of solar power and revitalize 
our manufacturing base. But as I will discuss in more detail later, we 
also need to create a robust market here at home for our products. 
Today we at United Solar export 80 percent of our products.
    Other countries with visionary policies and investments are 
creating thousands of green jobs. Germany is the largest PV market in 
the world. Its programs and policies have lead to huge numbers of new 
jobs both on the manufacturing side and on deployment side, creating 
jobs for not only companies that manufacture PV cells and modules but 
also for electricians, roofers, balance of systems providers who 
install the PV modules. Today Germany, home of BMW and Mercedes has 
more people employed in renewable energy than in the automotive 
business.
    A roadmap and federal support is an excellent vehicle to help 
achieve the Subcommittees and the Administrations goals. We believe we 
can play an important role in making this happen, but no solar company 
is large enough to bear the financial burden of doing research all 
along the supply chain in an efficient manner. There are areas where 
collaboration makes sense and we and others in the industry support 
working with academia, national labs and each other.
    DOE in coordination with other agencies of the Federal Government 
and Industry can play an important role as a neutral party that can 
facilitate communication and support along the research, development 
and commercialization path to reduce the costs of solar systems and 
help advance solar photovoltaic technology and processes to make 
domestically manufactured solar systems accessible and affordable 
across the country.
    While addressing the supply side is critical; we also need as a 
nation to address the demand side. In particular, we believe the 
government should lead by example and install PV on roofs of federal 
buildings and encourage states to do the same. Before offering some 
specific suggestions, I would like to highlight the benefits of using 
solar photovoltaic technology for distributed generation to put some of 
my recommendations in context.

Distributed Generation from Solar Photovoltaics

    Stated simply, distributed generation is when electricity is 
generated at the point of use.
    Today, nearly all of our electricity comes from big, centralized 
power plants--mostly coal, natural gas and nuclear plants--that depend 
on an inefficient electricity grid to get power to users.
    These centralized power plants are generally located in isolated 
areas away from densely populated areas, which means that the power 
must be transmitted over great distances to population centers where it 
is consumed. This additional infrastructure, known generally as our 
electrical grid, is antiquated, inefficient, and entirely inadequate to 
support our growing national demand for energy. One study estimated 
that six to eight percent of the electricity generated in power plants 
is lost through today's transmission and distribution system.\2\ Many 
renewable power plants are also located far from population centers. 
Many utility-scale solar plants are located in sparsely populated 
desert regions, where land is cheap. Wind farms are obviously built in 
windy areas, or even offshore. These large-scale solar and wind fields 
also take up vast acreage. In other words, much of the renewable energy 
generated today is actually piped right back into the same electrical 
grid, and subject to the same inefficiencies, limitations and delivery 
costs.
---------------------------------------------------------------------------
    \2\ ABB Inc.: Energy Efficiency in the Power Grid, 2007; http://
www04.abb.com/global/seitp/seitp202.nsf/
c71c66c1f02e6575c125711f004660e6/64cee3203250d1b7c12572c8003b2b48/
$FILE/Energy%20efficiency%20in%20the%20power%20grid.pdf
---------------------------------------------------------------------------
    Distributed Generation solves the infrastructure problem because 
the power is produced at the point of consumption and solar 
photovoltaic technology is the cleanest and best suited means of 
democratizing power production. For most buildings, the roof has no 
other purpose than to cover what lies beneath it. Solar material is 
infinitely scalable and has the advantage of producing most of its 
power when electricity from the grid is in highest demand and most 
expensive, saving solar energy users' money.
    The benefits of distributed generation are numerous, and the 
Federal Government can harness these benefits by purchasing PV systems 
directly or via power purchase agreements and installing thousands of 
rooftop solar systems on government facilities, businesses and homes 
across the country. A large-scale rooftop solar distributed generation 
program will help our nation become more energy efficient, less 
dependent on foreign fuels, reduce the emissions of CO<INF>2</INF> 
thereby improving our environment, and create hundreds of thousands of 
new ``green jobs'' here at home.
    Commercial property owners are already harnessing the benefits of 
solar PV for Distributed Generation. In fact, commercial property 
owners purchased roughly half of all domestic solar cell and module 
shipments in 2007.\3\ Commercial property owners understand the value 
of real estate, and were early supporters of rooftop solar 
installations since they could maximize the financial return of 
existing buildings while also saving money on their electricity bills.
---------------------------------------------------------------------------
    \3\ Energy Information Administration: Domestic Shipments of 
Photovoltaic Cells and Modules by Market Sector, End Use and Type, 2006 
and 2007; http://www.eia.doe.gov/cneaf/solar.renewables/page/
solarreport/table3<INF>-</INF>7.html

---------------------------------------------------------------------------
Benefits of Using Solar for Distributed Generation

        <bullet>  Is available immediately. Traditional power plants 
        take years, even decades, to secure approval, design and 
        construct. Solar rooftop installations can be designed and 
        installed in a matter of months, or even less for smaller 
        systems. And the solar industry in the United States already 
        has enough production capacity to meet existing domestic 
        demand, as well as any new government procurement programs. We 
        are also in a position to accelerate our expansion plans if the 
        government adopts a robust procurement plan for solar rooftop 
        installations.

        <bullet>  Creates new ``green'' jobs across the country. 
        Production and installation of solar energy systems creates 
        more high-quality jobs than investment in any other energy 
        technology.\4\ According to SEIA, ten megawatts of PV capacity 
        (enough to power 1,500 homes) creates as many as 140 
        manufacturing jobs, 100 installation jobs, and three ongoing 
        operation and maintenance jobs. These jobs will re-employ 
        workers in hard-hit industries.
---------------------------------------------------------------------------
    \4\ Apollo Alliance and Urban Habitat, ``Community Jobs in the 
Green Economy,'' 2007.

        <bullet>  A federal program to install solar power on millions 
        of rooftops would create hundreds of thousands of new jobs in 
        the design, production and installation of solar PV systems. 
        Distributed power is produced locally, so the design and 
        installation jobs are created here in the USA. This job 
        creation will immediately stimulate the economy, and will 
        create sustainable ``green collar'' jobs for the industries of 
        the twenty-first century and establish the United States as a 
        leader in this sector. That is why it is important for you to 
        insist on U.S. manufacturing for all federal PV solutions. With 
        a requirement of U.S. manufacturing for federal procurement of 
        solar systems, high-quality jobs can be retained and created 
        not only for PV manufacturers like our company, United Solar , 
        but also for electricians, installers, other balance of systems 
        manufacturers as well as for constructing manufacturing 
---------------------------------------------------------------------------
        facilities and building PV manufacturing equipment.

        <bullet>  Reduces CO<INF>2</INF> emissions. Solar energy is 
        clean, renewable, and free. The more electricity we generate 
        from solar power, the less we need to burn fossil fuels like 
        coal, oil or natural gas. Solar power is acknowledged as one of 
        the leading technologies to quickly begin carbon mitigation. 
        According to SEIA, one megawatt of PV will displace 1,200 tons 
        of CO<INF>2</INF> from traditional electricity generation each 
        year it is in service, and modern solar PV systems typically 
        last 20-25 years.

        <bullet>  Optimizes land utilization. Densely populated areas 
        face the challenge of needing more power generation, while also 
        facing high land values. Rooftop solar arrays do not use land 
        that may have higher and better uses, but instead take 
        advantage of unused space to produce power right where it is 
        most needed.

        <bullet>  Reduces strain on antiquated electrical grid. The 
        average output period of a solar system over the course of a 
        normal day matches the average U.S. daily demand cycle. 
        Therefore, distributed solar power can help relieve the strain 
        on the existing electricity grid when demand is highest.

        <bullet>  Saves capital by avoiding infrastructure 
        construction. As this Committee well knows, the existing 
        transmission and distribution system for our nation's 
        electrical grid is at the breaking point. Distributed 
        Generation reduces the need for additional transmission lines, 
        since the power is consumed at the point of production. 
        Additionally, any leftover power can be sold back into the 
        local community. And since rooftop solar generation takes 
        advantage of otherwise unused space, there is no wasted land.

        <bullet>  Provides strategic backup in case of grid 
        interruption. One of the benefits of distributed generation is 
        to have a source of back-up power in case of outages. Solar 
        systems have a limitless fuel source (the sun), which means 
        they can be configured to extend the uptime of any facility 
        that loses its supply of grid electricity.

        <bullet>  Improved Air Quality. Because rooftop PV systems 
        produce the most power when demand is highest, they reduce the 
        need to turn on additional electric power plants, which are 
        usually the dirty peaker plants that acerbate air pollution on 
        hot summer days.

        <bullet>  No Water Consumption. Distributed solar systems do 
        not require any fresh water for electricity generation, an 
        especially important issue where solar resources are greatest, 
        the American Southwest.

What the Federal Government Should Do

Research, development, analysis and demonstration

        <bullet>  Properly fund the programs to achieve grid parity.

        <bullet>  Ensure that all costs are considered in the 
        development of a solar roadmap and recommending priorities.

                <bullet>  Focus should be on lowest cost per kilowatt 
                hour taking into consideration the installed cost of 
                the system per watt and amount of electricity generated 
                per year. Focus should be on performance of PV under 
                real life conditions, not on efficiency measured in the 
                laboratory.

                <bullet>  In comparing costs with convention power 
                plants benefits of solar during peak demand should be 
                taken into account.

                <bullet>  Energy payback, i.e., the time required to 
                produce the energy required to manufacture the products 
                should be taken into consideration in evaluating 
                technologies and costs.

                <bullet>  Consideration should be given to land use, 
                need for new transmission and distribution (T&D) 
                infrastructure, and T&D losses from centralized 
                facilities vs. distributed generation.

                <bullet>  Cost of disposal of PV products should also 
                be studied including evaluation of the costs of 
                disposal of toxic materials.

                <bullet>  Health benefits and security benefits should 
                also be taken into consideration.

        <bullet>  Funding priorities and demonstration.

                <bullet>  Continuation of programs like SAI with focus 
                on c/kWh should be a priority.

                <bullet>  Funding of a robust initiative to develop 
                advanced manufacturing technology will be critical for 
                the U.S. to help revitalize the U.S. manufacturing base 
                and regain the U.S. leadership in this important field.

                <bullet>  The programs should focus on development of 
                new technologies such as thin-films rather than 
                established crystalline based technologies.

                <bullet>  Consider demonstrations greater than two MW 
                and projects that demonstrate roof top solar when 
                possible--to demonstrate advantages of no land use, no 
                T&D losses, immediately available--no long permitting 
                required, greater energy security and cyber security 
                benefits.

                <bullet>  Funding should also be provided for pilot 
                manufacturing plants to demonstrate new manufacturing 
                technologies.

                <bullet>  Demonstrations funded with tax payer funding 
                must use PV modules manufactured here in the U.S.

                <bullet>  Provisions should be considered that would 
                insure technology that is developed with tax payer 
                money is implemented here in the U.S., i.e., production 
                plants employing advanced manufacturing technology 
                funded by tax payers should be located in the U.S.

        <bullet>  Timing

                <bullet>  The programs should be aggressive and interim 
                targets should be established.

        <bullet>  Competitiveness

                <bullet>  Incentives and programs should be bench 
                marked with incentives, programs, job creation and 
                competitiveness of other countries.

        <bullet>  Interagency coordination

                <bullet>  Critical to the success of the programs will 
                be interagency coordination in both development and 
                deployment.

Deployment
    The Federal Government is the country's largest single consumer of 
electricity, spending over $6 billion annually. Therefore, in addition 
to having the regulatory authority to make the U.S. solar industry the 
envy of the world, the Federal Government also has the unique 
opportunity to lead by example. Federal support of rooftop solar 
photovoltaics will significantly advance the Nation's commitment to 
renewable energy, and can be executed rapidly enough to have a 
significant positive near-term impact on our struggling economy. Below 
are the suggested priorities that we believe the government should 
enact.

        <bullet>  Install rooftop solar systems on federal buildings. 
        The U.S. General Services Administration (GSA) owns and manages 
        8,600 buildings in 2,200 communities across the country.\5\ The 
        Departments of Energy and Defense have already taken the 
        initiative by installing solar systems on rooftops. By 
        enhancing and expanding the government's commitment to rooftop 
        solar into a robust, multi-year procurement program, the 
        government can dramatically advance the entire U.S. solar 
        photovoltaic industry. The results of this kind of national 
        procurement program via direct purchase or power purchase 
        agreements would include significant job creation, reduced 
        manufacturing costs for solar systems through economies of 
        scale, and the development of a vibrant installation industry 
        in areas of the country where it does not yet thrive, as well 
        as the national economic and strategic goal of reduced reliance 
        on foreign fuels.
---------------------------------------------------------------------------
    \5\ General Services Administration, Properties Overview; http://
www.gsa.gov/Portal/gsa/ep/
contentView.do?contentType=GSA<INF>-</INF>OVERVIEW&contentId=8513

        <bullet>  Integrate the government effort. Regardless of where 
        the money is put in the budget, the Nation needs to take 
        advantage of the needs and enthusiasm of the Department of 
        Defense (DOD) to increase solar power use. The DOD owns more 
        buildings than the rest of the government. Many are large 
        buildings. Imagine every military aircraft hangar in the 
        Sunbelt covered with solar systems. DOD has an aggressive 
        energy program for its installations and is very interested in 
        photovoltaic power production. However, the DOD effort needs to 
        be coordinated with other government efforts. DOD facilities 
        would be a great place to start. They could produce power, as 
        well as allow utility companies to benefit from free or low-
        cost roof space in exchange for long-term power purchase 
        agreements giving DOD predictable power bills. This would make 
        these precious facilities even more valuable and treasured by 
        their communities. Instead of individual projects, a large-
        scale integrated effort with DOD facilities could quickly 
---------------------------------------------------------------------------
        transform the whole industry.

        <bullet>  Encourage the use of domestically manufactured 
        components. In addition to creating new jobs in the design and 
        installation of systems, the government should support a ``Made 
        in the USA'' plan to encourage solar cell and module component 
        manufacturers to build new factories here and hire U.S. 
        workers. With a robust PV government procurement program that 
        includes a ``Made in the USA'' requirement we and others in the 
        industry will accelerate plans to meet the increasing demand 
        for solar PV products. Continued development of solar PV 
        technology in the U.S. will make our industry the world leader.

        <bullet>  Provide additional incentives for rooftop and 
        building-integrated solar installations. France, Italy and 
        Spain are trying to encourage rooftop solar installations 
        today. They have created enormous interest in rooftop solar by 
        offering higher incentives for rooftop and building-integrated 
        installations over ground-mount installations. These countries 
        understand that rooftop systems do not require land, nor do 
        they suffer from transmission and distribution losses. Adopting 
        similar incentive programs would multiply the effectiveness of 
        the solar Investment Tax Credit (ITC) that took effect at the 
        beginning of the year.

        <bullet>  Encourage flexible rules. More forward looking 
        analysis is needed to optimize both the best technology and the 
        best use of rooftops. Rules on contracting, land use, and 
        entering into long-term power purchase agreements need 
        overhauling to generate the needed flexibility, and financial 
        returns, to motivate power companies and government facilities 
        into cooperative action. The evolving market needs more 
        flexible rules. Payback periods, for example, will be better 
        when conventional power prices rise and PV system costs 
        continue to decline.

        <bullet>  Provide funding for states and local governments. All 
        levels of government should be encouraged to install solar 
        photovoltaic systems on the rooftops of their buildings. 
        Offices, schools, universities, courthouses, and hospitals are 
        excellent sites for clean, made in the USA, rooftop solar PV 
        systems.

           Implement programs on a timely basis. We need to insure that 
        programs that are adopted are implemented in an expeditious 
        fashion. ARRA included a number of provisions that would be 
        very beneficial to the solar industry and achievement of the 
        Administrations goals, but regrettably most of the programs 
        have not yet been implemented.

    We applaud the Committee for its commitment to lead the green 
revolution. I hope my testimony today has been helpful, and I would be 
happy to answer any questions you may have. I look forward to 
continuing to work with the Committee and its staff on ensuring that 
the U.S. is once again a world leader in solar photovoltaics, while 
also reviving our economy and putting our fellow Americans back to 
work. Thank You.

                      Biography for Nancy M. Bacon
    Nancy Bacon works as a consultant to Energy Conversion Devices 
(ECD) and United Solar Ovonic, principally in government affairs and 
government relations as well as business development. She is active in 
policy development to advance clean energy technologies particularly 
photovoltaics. Ms. Bacon represents ECD and United Solar on the boards 
of the Energy and Environmental Study Institute (EESI), the Solar 
Energy Industries Association (SEIA) and the United States Industry 
Coalition (USIC) and she is also an Advisor to University of Michigan 
Erb Institute.
    After 32 years at ECD, in April 1, 2008, Ms. Bacon retired and has 
been working part time as a consultant to ECD and United Solar. Ms 
Bacon was Senior Vice President of ECD and a member of the Board of 
Directors of United Solar Ovonic where her responsibilities included 
government relations, business development including finance and 
business and strategic planning regarding commercialization of ECD 
technologies. In 1997, Ms. Bacon was recognized by Crain's Detroit 
Business as one of Detroit's Most Influential Women. Ms. Bacon has a 
B.S. in Accounting and is a certified public accountant (CPA). Prior to 
joining ECD, she was a manager at Deloitte & Touche.

                               Discussion

    Chairman Baird. Thank you. I apologize to the witnesses. It 
is always difficult. You have tremendous expertise, and with a 
large panel we always have to try to keep it within time, but 
thank you very much.
    I will recognize myself for five minutes, and then we will 
proceed in alternating order. I want to recognize Mr. 
Rohrabacher and Mr. Diaz-Balart for joining us. Thank you, 
gentlemen, for your participation.

             The Economic Impacts of Energy Policy Changes

    I am so sorry to hear this testimony about the tremendous 
job loss being created by this industry. We recently passed a 
comprehensive energy bill, as you know, and one of the 
criticisms of it is that it will be catastrophic from an 
employment and an economic perspective. That is not what I have 
been hearing from the testimony today. Would any of you like to 
comment on that briefly? Mr. Lockard, you had some impressive 
statistics, and if others wish to comment, I would welcome 
that.
    Mr. Lockard. Yeah, I think 2008 represented a terrific year 
for the wind industry in the United States with tremendous 
growth, 8,500 megawatts job creation. 2009 is not going to 
reflect that same growth by the way, so just so that stat is 
clear. Other things like a Federal Renewable Electricity 
Standard (RES) will send a much stronger, consistent long-term 
signal that is an important piece of this in order for 
companies like ours and others to build more plants, create 
more jobs, and create sustainable long-term jobs, not just the 
boom cycles that we have had up until now.
    So while there is a lot of enthusiasm and tremendous 
opportunity, our job isn't done here, and I think there are 
several key issues, key opportunities including a federal RES. 
A strong consistent signal would help drive that even stronger.
    Chairman Baird. Thank you. Others wish to comment on that 
economic development, job potential?
    Ms. Bacon. Yes. I would like to very much. We actually have 
increased our employment in Michigan four-fold since 2006, and 
we are making excellent progress and that is going very well. 
The problem is that now, with the recession and with a number 
of the problems with regard to the finance institutions, things 
are slowing. So in our Battle Creek plant that is under 
construction, we have put a hold on some of the equipment until 
things turn around. From a point of view where we are as a 
nation, we export 80 percent of our products, and as I talked 
about the General Motors facility that is 12 megawatt, the 
largest in the world, we created jobs in Michigan by 
manufacturing the solar laminates but we created more jobs over 
in Spain with the installers and the electricians and the 
construction folks. So I think some of these things to look at 
the supply side will be very important here and to move these 
programs along timely will be also very important. Thank you.
    Chairman Baird. Ms. Bacon, I appreciate that. You will be 
pleased to know that the Chairman of the Transportation and 
Infrastructure Committee has made it a passionate pursuit to 
install solar and other technologies on many federal buildings.
    Ms. Bacon. I understand that, and I actually testified in 
that committee as well, and we were delighted to get a lot of 
things in the bill. The problem is that it hasn't come out of 
the bill into the bank, and everybody is waiting for it.
    Chairman Baird. Point well said.
    Ms. Bacon. We think that with some of the programs that are 
going on with this committee, too, urgency is really important 
for the sustainability of this job growth as well. Thank you.

                         Technology Offshoring

    Chairman Baird. The next line of questioning I would like 
to pursue relates to an article in this month's Harvard 
Business Review.\2\ To all my colleagues, I would really 
commend this article. It is in Harvard Business Review, and it 
discusses what happens when U.S. core, fundamental research 
technology gets shifted overseas and we fall off that supply 
and engineering train. It is directly relevant to your work and 
traces back from everything from the transistor to battery 
technology, et cetera, and I think it has got the potential. We 
are seeing it already in renewable energy.
---------------------------------------------------------------------------
    \2\ See Appendix: Additional Material for the Record. ``Restoring 
American Competitiveness,'' by Gary P. Pisano and Willy C. Shih. 
Included with permission of the Harvard Business Review.
---------------------------------------------------------------------------
    And so the question is, how can we not see that happen 
here? One of the points this article made was as domestic 
manufactures allowed battery technology for cell phones to go 
overseas, that seemed like so what, they can do it okay, but 
now as we want batteries for automobiles, we don't have the 
technology, the know-how, the manufacturing capacity here. They 
have it overseas. How can we avoid that? And I will be asking 
that in this committee for probably many, many months to come 
with different, similar panels. How do we avoid that in the 
area of renewable energies?
    Ms. Bacon. Well, I can take a crack at that as well. It is 
a little controversial, but as a taxpayer, I feel that if my 
money goes into investment into developing research and 
development, advanced technologies and so on, when my 
government buys products, I would like to see a preference for 
U.S. industry. And I also think advance manufacturing 
technology, which is critical to revitalizing our manufacturing 
base here in the United States with regard to photovoltaics, 
the dollars that go there, we should see that those plants are 
put here.
    And the other side of it is creating the demand side again. 
I mean, that makes a difference. Germany is the largest market 
in the world for photovoltaics. They have less sun than we have 
in Michigan. And they employ more people in renewable energy 
now than they do in the automotive industry. And think of it. 
It is the home of the Mercedes and the VW and so on, and that 
is because of their policies, both on the supply and on the 
demand side with this. And I think those kind of policies will 
make all the difference in the world so we don't see this go 
the way of the VCR.
    Chairman Baird. I will be providing a copy of that article 
to my colleagues. It is a profoundly interesting article and 
educational for all of us.
    I will recognize--I would like to hear more on this, but I 
am going to recognize Mr. Inglis for five minutes.

                        Solar Roof Installation

    Mr. Inglis. Thank you, Mr. Chairman. Ms. Bacon, it is very 
exciting to hear about the opportunity on the roofs for 
distributed electricity generation. Why are people doing that 
now? Is that cost-effective for them or are they leading 
because of commitment to the environment or stewardship or 
what? I mean because in a lot of places, the economics don't 
exactly work, is that right?
    Ms. Bacon. Well, actually, you can put photovoltaics on the 
roof as economically as you can in many solar farms, and you 
don't have the land use, you don't have the transmission 
distribution which is like six to eight percent. You don't have 
to wait for the SmartGrid, the Integrated Grid. There are all 
those advantages with it.
    But solar in general, the reason we are all here, is we are 
not to grid parity yet. We really think it is the future. There 
is going to be a--there was a DOE study that just came out that 
they think that solar could be 50 percent building-integrated 
photovoltaics, and the next time you go into an airport, just 
look at all those roofs that you could put solar on. They can 
be done in any size. But the problem in industry in general is 
we are not to grid parity, hence we need the stimulus, whether 
it is procurement via direct payment or power purchase 
agreements or the ITC which has been enacted now and other 
things. And as we bring the volume up, we will bring down the 
cost. And it is just like anything else. I mean, high 
technology and low volume is high cost. We are working to grid 
parity, and we think with the government's help and the DOE's 
help and across all agencies including DOD, we can bring down 
to be grid parity. In the right location, we are already 
competitive. But these are 20-, 25-year lives, and to find out 
really competitive, you need your crystal ball to figure out 
what is the electricity going to be five years from now, 10 
years from now.
    You will appreciate that I had President Bush come out to 
see us. He calls me Solar Woman, but I asked him the same 
thing. He asked me about the competitiveness, and I asked him, 
I said, what do you think the price of electricity is going to 
be in five years, 10 years, 15 years? And he gave me one of 
those blank stares, and Karl Rove and Allen Hubbard were there, 
and I said, well, maybe these guys know. He said, ah, they 
don't know anything.
    But I ask you, what is the price of electricity going to be 
five years from now, 10 years from now, 15 years from now? 
Photovoltaic arrays on your roof will last you 25 years.
    Mr. Inglis. Yes, very exciting, too. So I guess the 
customers that you have got today have obviously made 
calculations that indicate that they are banking on the price 
off the grid being considerably higher than it is today. 
Therefore, they make the economic decision or they make some 
sort of other considerations going into their decision and 
buying your product?
    Ms. Bacon. Most of them are much tougher than that. most of 
them want to have the price today at the same price as the 
grid, and then there will be an escalation. A lot of the 
industry right now is being done with power purchase agreements 
where somebody else buys the power, buys the photovoltaic, like 
a financier. He takes all the ITC, accelerated depreciation, et 
cetera, and then he has a 20-, 25-year power purchase 
agreement. General Motors is a good example. We have a one 
megawatt installation in California. Their initial price 
started out at 12 cents a kilowatt hour, and it escalates each 
year a certain percentage. They are banking on what that is 
going to be, but that initial price was pretty close to what 
the parity price was at that point in time. But the only reason 
that worked was because of the incentives, ITC and some of the 
other incentives with it.
    Mr. Inglis. Does that mean you are basically selling to 
people with big roofs? It needs to be a pretty big roof at this 
point?
    Ms. Bacon. No. It can be done at any size. What we have 
done as a company--we are a small company. We have 2,000 people 
and we are, you know, a Michigan-based company. We typically 
have tried to sell very large arrays just because it is easier 
to sell than going to each household which maybe wants 2,500 KW 
or something small. It is a lot easier to sell a megawatt or a 
12 megawatt array. But we will be coming out with, at the end 
of this year, a program for small households, and they can also 
end up being cost-effective in the long term. And I believe in 
the long term. I am old enough. The reason I am Senior Advisor, 
I am old. My mom had a telephone in her house that was owned by 
AT&T. You know, why not have photovoltaics on our roof that is 
owned by the local utility and they could manage it and they 
could take care of it and it wouldn't take any space up? You 
generate the electricity right where you need it.
    So there is a lot of innovation here, both from the basic 
materials, the product design, the manufacturing, and even the 
financing and marketing mechanisms, and that is why I applaud 
some of the things that people are looking at in this Solar 
Vision and Roadmap. It is not just looking at efficiencies to 
have technical papers, it is looking at the whole program to be 
cost effective and to really have the energy security, climate 
and the economic benefits we are all looking forward to happen.
    Mr. Inglis. That is great. Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Inglis. Mr. Tonko.

                          Offshore Wind Power

    Mr. Tonko. Thank you, Mr. Chairman. For our wind experts on 
the panel, it becomes more and more apparent that offshore wind 
holds great potential, not just for the wind portion of our 
energy supplies but really expanding the opportunities for 
renewables in general. Can you cite what sort of efficiencies 
might be achieved, what sort of focus might become critical 
with R&D investment in the offshore component?
    Mr. Lockard. Yeah, first off, on the 20 Percent by 2030 
Report, 300 gigawatts would be the total installed base for 
wind by 2030. 54 of the 300 is considered to be offshore, so 
something like 18, 20 percent of the total 20 percent number 
would be offshore. It was also viewed to be a bit later in the 
22-year cycle. So the problems today are cost, siting-related, 
similar to land-based but probably magnified in terms of the 
cost problem and the siting problem. There is probably more of 
an opportunity in offshore for innovation to drive a 
breakthrough change, where as the land-based product it seems 
is pretty much dialed in. The improvements are cost, 
performance reliability but probably not breakthrough. I think 
the breakthrough opportunities may extend themselves even 
better in the offshore side, so again, our funding the $217 
million request, 15 of that was related to offshore specific 
technology. Other pools as well would go toward offshore. I 
think our group is growing in the view that offshore should 
represent, can represent, a significant part of the wind 
future, particularly New England and the Gulf Coast, and it 
should be important source of innovation.
    Mr. Tonko. Mr. Saintcross, in your testimony you talked 
about the difficulty and the expense of installing a 
meteorological mast with a pier-type foundation driven into the 
seabed. You know, how crucial is it that we discover a more 
efficient alternative for that portion of wind to work?
    Mr. Saintcross. First, you are going to need to put many 
towers up if you are going to try to see the kind of offshore 
development that folks are talking about. A meteorological 
tower now runs about $4 million to $6 million to site it and 
physically install it. And then you have to hope that it is 
going to operate for a certain number of--maybe two years or 
whatever. And you need a lot of those. You are not going to 
typically go to a 400 or 500 megawatt project size with one 
tower because you won't be able to adequately characterize all 
the atmospheric conditions. You are going to want to have that 
turbine operating. That becomes very costly for the developing 
community to take on. I think New Jersey has put some of its 
own money on the table to do that. I know that in New York we 
are considering that as a program element going down the road, 
but if you are going to look at $4 million to $6 million per 
tower, you know, you probably should be looking at, as the 
Europeans are, different forms of measurement, LIDAR and SODAR, 
different technologies that heretofore haven't been widely 
accepted or bankable by the lending community and the financial 
community. So developers won't use that.
    So the kind of research we are talking about today would go 
toward that, making that technology bankable to the extent we 
can reduce the cost of that technology. Then we can deploy more 
of it, and we can better characterize the resource which then 
will allow us to understand better what these turbines are 
going to be operating in, what that environment is like. 
Because you have to learn about how they will operate from the 
perspective of generating energy, the actual energy you want, 
as well as their lifetime. Can they survive those conditions 
such as dynamic loading that the resources will impart on 
blades and other components?
    But those are very, very critical pieces that are necessary 
if you are really going to see an offshore vision because that 
is a very, very high-cost, high-risk enterprise for a developer 
to come in and take on. Those are the kinds of things that the 
Federal Government leveraging with State funding like NYSERDA's 
funding I think is a better space for us to play in.
    Mr. Tonko. Great. Anything else to add on that?
    Dr. Swift. Yes, I echo everything that my colleagues said 
here, and we have been looking at wind resource measurements in 
the Gulf, and it is expensive. There is an opportunity, and I 
am really repeating here, for new technologies. We have talked 
about air-mounted technology to scan and look at resource, but 
there is also the lifetime issue. The Gulf has a lot of 
hurricanes. Great wind resource but the extreme events, a lot 
of the people in our center do a lot of work on hurricane 
research and investigation. People think the wind is just a 
uniform front of wind. You know, the wind is the wind. It is 
very complex. There is a lot of structure embedded, and we have 
to understand these things better if we really want to make 
these kinds of investments and make sure they can survive the 
environment.
    Mr. Tonko. Thank you.
    Chairman Baird. Thank you, Mr. Tonko. Dr. Ehlers.

                 General Challenges With Wind and Solar

    Mr. Ehlers. And as you can see from the testimony and the 
comments, that once again Michigan has the best answer.
    Just a few comments. First of all, simple is better in 
general, and I appreciate the role of wind. I think it is a 
very important component. I think we are very far along in wind 
energy, but I think if you look at the grand scheme of things, 
you have to decide that solar has potentially more advantages. 
Now, I am really puzzled why our nation has always felt that 
the way to get solar energy is to pave over Nevada or Arizona, 
build a big facility, put the energy into the grid, and that 
this is the way to go. I don't think it is. As Mr. Zweibel 
mentioned, solar energy, it is very important to know, and I 
don't recall the exact amount of energy hitting the earth per 
day. Now you can give it to us later or give it to me later, 
but I know it is an immense amount of energy from the Sun, hits 
the Earth every day constantly. And a lot of people worry about 
clouds. But solar energy can work through the clouds, too, 
maybe not as efficiently but it will work.
    But the difficulty with solar energy, there are two 
problems. One, it is very diffuse, so it is all over the Earth. 
It is not localized. And the second problem is that it is of 
low quality which means it is low temperature. Now, you can get 
rid of the low temperature problem by using solar panels 
because you are converting the energy directly into electrical 
energy, converting light energy directly into it. The diffuse 
factor I think is best handled by making certain, and this is 
my dream for this country, that every house within a few years 
will have solar shingles instead of asphalt shingles. As soon 
as we get the price down so they are comparable, that is just a 
very common-sense thing to do. If energy is diffuse, then 
collect it in a diffuse manner and stop worrying about paving 
over Nevada to collect the solar energy.
    I think this is the direction in which we have to go. 
Whether or not we can conquer the cost problem, I don't know. 
But I know as long as we are doing research and we keep trying, 
we are likely to get there.
    I think the single-biggest problem for both, however, is 
the one Mr. Saintcross referred to earlier and that is a 
storage problem. He referred to batteries. Batteries are very 
problematic. They are expensive, they are heavy, they don't 
last that long. Unless you can develop deep discharge, they are 
not terribly efficient. So maybe batteries are the answer, but 
we have an immense amount of research to do there if we are 
going to use them. In Michigan we tried to solve it with pump 
storage plants which has worked rather well, except that it 
kills an excessive amount of fish. We have handled that, but it 
is a good way to do it. But what I have said for 30 years, what 
this world needs is a good, efficient means of storing 
electrical energy. If you do that, both solar energy and wind 
energy and other forms of energy become much more viable, and 
that is where a lot of our research efforts should be.
    I have pontificated, and now I am going to ask if there are 
any responses, particularly negative responses. Mr. Saintcross.
    Mr. Saintcross. I would concur with your characterization 
for solar. We have a solar program in New York, and it is 
diffused. We have a large residential program, but the market 
is not really, in terms of funding, it is not a significant 
duration or scale for us in New York to drive the kind of cost 
reductions that we need. So we are providing about $3 a watt as 
an incentive against the other federal and State tax credits to 
bring that market to bear.
    On storage, I did mention the battery storage. Most of the 
work we are doing now is really in the transportation sector. 
But if we look at the offshore picture and we look at things 
like smart grid, we look at residential-based storage mediums 
or even plug-in hybrid vehicles, again, they are still 
batteries but I think we have some interesting ideas floating 
around that we at NYSERDA are trying to engage on in batteries 
and storage, working with the utilities to solve it, like 
LIPA\3\ and ConEdison.
---------------------------------------------------------------------------
    \3\ Long Island Power Authority
---------------------------------------------------------------------------
    So I agree with you, so I think that storage is important. 
I think in New York we have looked at storage into the larger 
reservoirs in Hydro-Quebec. But that would require transmission 
which in itself has its own set of issues that must be 
addressed. Most of that is cost and perhaps political. But, you 
know, we have reservoirs there. We can pond wind. But that will 
take, you know, a multi-state effort and some, what I call, 
old-fashioned, integrated planning which I spent a lot of years 
doing in the utilities.
    So I think that you are dead on when you make those 
statements about storing this energy.
    Mr. Ehlers. Let me just use the few seconds remaining to 
thank the panel. I very much appreciate your testimony. You are 
right on, you understand the issues. I wish more Americans 
understood the issues, and I think if they did, we would be 
putting a lot more effort into both wind and solar energy as 
viable alternatives of the future. So thank you very much for 
being here. I really appreciate it.
    Chairman Baird. Dr. Ehlers' closing remarks demonstrate yet 
again that great things do come from Michigan, Dr. Ehlers. Ms. 
Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. With all due respect 
to Mr. Ehlers, my good friend who made his comment about the 
home State of Michigan, I just wanted to do a shout-out to Mr. 
Lockard for the State of Arizona and also Mr. Zweibel who wrote 
the Solar Grand Plan which is about the State of Arizona and 
the plan that we could produce. So those are fighting words. We 
are very proud of the work that is coming out of my home state.
    Also, Mr. Chairman, I just want to make a comment----
    Mr. Ehlers. I will match you dollar for dollar.

               Government's Role in Technology Deployment

    Ms. Giffords. Okay. This is the first time I think in 
really any committee that I have been in where the average age 
of the audience is under the age of 30. So I want to thank all 
of the people for coming here today. It really reflects the 
future of our country and the interest that we have in 
renewables, and what an excellent panel we have.
    Earlier today I had a chance to meet with one of the 
branches of the military, specifically talking about what the 
plan is for renewables, and it is very, very exciting. I 
noticed in the comments made by Ms. Bacon, actually I think in 
the written testimony as well, that the Federal Government is 
the largest consumer of electricity, around $6 billion, and of 
course, the Department of Defense is the largest user of all 
energy, not just electricity. And that is a concern.
    Now, I know a lot of Members don't have time to actually 
read everything that is in our packets, but it is really 
important to look through what happened, the story of what 
happened in the 1980s when the DOD became concerned about the 
Japanese semiconductor industry and the manufacturers limiting 
access. And with this concern, we worked together to create a 
national roadmap for semiconductors.
    And so my first question, which goes to Mr. Zweibel and 
also Ms. Bacon, is if you can talk about this plan, you know, 
basically briefly how it worked for the semiconductor industry, 
but more important, whether or not that roadmap plan is a good 
idea for solar and what that could possibly do for us.
    Mr. Zweibel. I thank you very much. The idea of a roadmap 
is to try to address the critical issues with the best of your 
productive capabilities, and in the past I think we have had a 
number of activities in solar energy that have been reaching 
out in many different directions without necessarily a central 
theme.
    But we have reached the stage now where the central theme 
is deployment on a scale to meet greenhouse gas emission issues 
and energy stabilization. So we have a mission now that is very 
clear, and we have a set of technologies that are excellent, 
that are capable of meeting that mission.
    So it is time for us to get serious about a technical plan, 
a roadmap that can be capable of supporting those successful 
goals. So whether or not it is semiconductor analog, it 
basically needs to be a focused plan with clear goals of 
successfully being able to reduce the cost of solar energy. I 
want to take a moment to say that there has been tremendous 
progress in the reduction of the cost of solar energy that 
wasn't that obvious during a period of boom when prices were 
rising, but in fact are becoming obvious now that the demand 
worldwide is hurt by the financial recession. So the solar 
energy prices at the system level are dropping and have dropped 
in the last 12 months and in the next 12 months by about 30 
percent from about a year ago. So the systems that used to be 
going in at $5 to $6 a watt are now going in at $4 a watt, and 
systems are being talked up at $3 a watt. There is a 
substantial amount of progress technologically that was hidden. 
We have the opportunity to take those $3- and $4-watt systems 
today and bring them down to $2 a watt, and I might say that at 
$2 to $3 a watt, those systems are going to be quite 
competitive with say, for example, offshore wind, which is 
another very large source of energy.
    So I think we are that close to being able to use solar 
energy for these big terawatt hours scale demands, and if I 
might just add one word about paving over the desert, we have 
put in one percent of our land area behind dams during a time 
period when the rest of us weren't paying attention. As you 
heard earlier, one-fourth percent would produce all of our 
electricity in the United States if used for solar energy. For 
dams, it produces only seven percent. So I guess we were more 
liberal back then about putting in dams than we would like to 
be now about putting in solar energy. So I suggest we can have 
it all. We can have rooftops, we can also have large fields.
    Ms. Giffords. Thank you, Mr. Chairman. Can we hear from Ms. 
Bacon? I know my time is short.
    Ms. Bacon. Yes. Thank you very much. And I think also I 
would echo much of what Ken said as well. I think it is time 
for a solar roadmap. I think it would be very critical to have 
the right investment, the right coordination, and the right 
direction for us to be able to move ahead, to be getting to 
grid parity with photovoltaics without any subsidies. And that 
is really what our goal is. As a company, we have a path that 
we are working down. We would be very interested in working 
with the U.S. Government, not just DOE but across applications. 
You mentioned DOD and DOD being the largest user of electricity 
I think in the world. As I mentioned, they could change the way 
that we create electricity, just like they changed the way we 
communicate with the Internet. It would have a massive impact 
on the whole solar industry. And I think we need that roadmap. 
We need to make sure that we are all working not just on the 
cells and modules, but the whole system. And what is important 
to people is the cost per kilowatt hour, and that is critical 
and no one asks, you know, is your coal-fired plant or your 
gas-fired plant 80 percent efficient or 60 percent efficient? 
What the consumer cares about is, what is the cost--cents-for-
kilowatt hours? So we need to look at all of this.
    We need I think a neutral party that can really look 
through this, help us with the direction as a nation to be able 
to do this. And we very much are in favor of it. We would love 
to participate on it. We have had a wonderful, rewarding 
relationship with the DOE and the DOD, but it has been small 
and I think that it is time with the energy security benefits, 
the climate benefits, the economic benefits, the health 
benefits as I mentioned because of what we are dealing with in 
terms of air pollution, aside from the climate change.
    And you know, finally, when we talk about DOD, I have no 
idea how much the DOD spends looking at all of those bad parts 
of the world where we get fuel, but I think there is also 
savings there. So a group that is looking at a solar roadmap at 
a high level making sure they get the right technical and 
economic and other experts together I think would make a major 
difference in terms of moving these industries ahead, 
particularly in solar, but obviously wind as well. Thank you.
    Ms. Giffords. Thank you.
    Mr. Tonko. [Presiding] Thank you, Ms. Giffords. The 
Chairman recognizes Mr. Neugebauer, please.

                        Increasing Efficiencies

    Mr. Neugebauer. Thank you, Mr. Chairman. Dr. Swift, I want 
to go back to something you said during your testimony. You 
said something about, you know, it is important that when you 
are looking at research, not only to look at the efficiency of 
the turbines, the devices I guess it would be, but also to look 
at the research of making sure that the wind farms and the 
configurations and all of those things are equally as 
important. Are there ways to pick up efficiencies and are there 
things to learn from the farms as well?
    Dr. Swift. Thank you. I really believe there is a need in 
this country for at least one and probably several national 
research wind farms in order to address this issue. I pointed 
out these array effects. There are siting issues, there is 
modeling that needs to be done. The tools that we have 
available right now just do not give the optimum performance, 
the optimum loads which relate into lifetime which relates into 
dollars. And if we can address this issue, I gave that one 
investment example. Just a one percent improvement in 
performance is something like $300 million a year given the 
rate that we are deploying these turbines.
    At least one national wind farm where it would be publicly 
accessible data. Researchers from across the country could do 
this, and I say we probably need more than one because there 
are different regions of the country where the wind is 
different.
    I will point out another thing, that this industry has 
grown really in two ways. We have an atmospheric science 
community, and we have a wind power community. There is an 
opportunity for these two to come together and work in ways 
that they haven't. And part of it is just history, atmospheric 
science, you have a lot of scientists who look at boundary 
layer issues. We really haven't established the communication 
links between these, and I think this national research wind 
farm could address some of these losses that this industry is 
seeing.
    And I might defer to Steve to comment on what he thinks 
those losses are. I have heard numbers as high as 10 percent.
    Chairman Baird. And I am going to interrupt you for one 
second. I will give you back enough time, Mr. Neugebauer. What 
we have right now is a motion to adjourn. What I would like to 
do is keep the hearing going, but if Members want to go do the 
vote and then come back, so if some Members want to go, we will 
do it in sequence and then we can keep the hearing going. So I 
think you will be up next on our side if you want. We have got 
about 10 minutes to go, so Mr. Neugebauer, continue with your 
questioning, Ms. Edwards, and then when others come back, we 
will cycle back in. I apologize for the interruption but we 
could do it that way. Mr. Neugebauer, please continue. I will 
add some time to your clock.
    Mr. Neugebauer. Mr. Lockard, did you want to expand on that 
as well?
    Mr. Lockard. Yeah, I don't have much to add specific to 
Andy's point on the research farms. I do think broadening the 
test platforms, be it test turbines or raise of turbines. We 
have a new blade test facility that is funded now. We have a 
new dynamometer that is being proposed and funded, all those 
platforms. And the wind industry has been described to me as 
kind of like the automotive industry in the 1940s. It is one 
thing for us all to look at it and say $17 billion worth of 
business in 2008, the job is done. And that is not the case. So 
whether it is forecasting, other reliability conditions, the 
things we are talking about are kind of bottoms-up, technical 
experts, looking at the work saying we have got to ratchet this 
industry up to be something that is really going to withstand 
the test of time. And I would echo the comment across the whole 
range of issues, forecasting and others.

                      Achieving Economic Viability

    Mr. Neugebauer. I think one of the things that I heard many 
of you say, and I think this is something that all of us 
struggled with during the debate on energy, is you know, making 
it a stand-alone viable industry without having to have 
additional incentives where there are tax credits, other kinds 
of--and so what does it take, for example, let us just take 
wind, to get to a point on parity with say natural gas or coal 
or nuclear because those are the technologies that are 
available and usable today? I mean, are we closing that gap or 
are we looking at long-term need to subsidize those 
differences?
    Mr. Lockard. Yeah, I guess a couple of comments. One is all 
the electric energy technologies are subsidized today, so part 
of this is I think it needs to be looked in that larger 
context. But the 20 Percent by 2030 Report required a 10 
percent reduction in costs, 15 percent improvement in 
performance. If you combine those, you can think about we are 
kind of 25 percent away from what might be necessary to be at 
parity. That is not really far away, but that scale doesn't 
necessarily drive cost. A lot of our costs, raw material costs 
and otherwise in the industry, are going up. U.S. manufacturing 
is more expensive. So there needs to be innovation to drive 
this piece. More automation, more manufacturing technology, 
innovation on the product side that can drive out cost and 
continue to drive the engine that way.
    Mr. Neugebauer. Ms. Bacon do you want to or Mr. Zweibel?
    Mr. Zweibel. About solar, a couple of things. One of the 
things is I usually compare solar and wind against other non-
CO<INF>2</INF> sources. That helps to focus what the 
externalities are about. In most cases, energy independence and 
non-CO<INF>2</INF> and both of them have it. So I don't usually 
compare with coal unless it is sequestered.
    All of us are attempting to bring down cost, and with the 
history of cost reduction say in solar energy, we can be 
confident that we are going to continue to bring the cost down 
approximately 20 percent every doubling of worldwide 
production. That has been the history. In fact, new 
technologies that have come on have actually exceeded that rate 
of cost reduction. So we have every intention of doing that.
    But for technologies like wind and solar that don't use 
fuel, they are not exposed to that fuel cost escalation issue 
and so that moving target issue, and over the course of their 
real lifetime, and I have heard that almost every plant that 
was ever put in the United States to make electricity is still 
in actual use because they get re-permitted, and over the 
course of those long lifetimes, because solar and wind have no 
fuel, their costs become very tiny once you have paid up the 
capital costs. So actually, you can actually come to a 
calculation that even at today's prices, they are cheaper than 
using a fuel-based approach because eventually the total 
investment is lower.
    Ms. Bacon. Just to add to that, we do have a plan to get 
down to grid parity without incentives, and that has got to be 
our goal as an industry. And those gains can be made from a 
number of things. One of the things we do is thin film. I mean, 
it is literally, you know, a fraction of a thickness of a human 
hair, so we are talking about very low material costs. We also 
need to do work on higher efficiencies because the higher the 
efficiency is, the better the cost is. We are working on that. 
We manufacture in a roll-to-roll process, almost like you do 
photographic film on one and a half mile long substrates. We 
are working with some technology that is VHF, very high 
frequency, to be able to speed up the process and still get 
good quality solar cells.
    So there are all of those things that help bring down the 
cost. And by the way, a lot of these have been worked on with 
DOE in the thin film partnership going back with Ken as well as 
other things that we are doing, like Solar America initiative. 
On the deployment side, then you have got all the things that 
are in the balance of systems because you have got to look at 
everything. Just the solar module or a laminate doesn't do you 
any good. You have got to have the inverters and all the 
electronics, a good way to install it and all the way through. 
So that is what the roadmap can do. Because there is no one 
company that has every piece of that supply chain----
    Chairman Baird. Ms. Bacon, I am going to interrupt you 
because I want to give Ms. Edwards a chance.
    Ms. Bacon. No problem.
    Chairman Baird. Mr. Neugebauer, give Ms. Edwards a chance 
to ask questions and still possibly make the vote if she 
chooses. We are down about five minutes.

                 Decentralizing the Transmission System

    Ms. Edwards. Thank you, Mr. Chairman, and I hope this is as 
profound as it needs to be having interrupted you.
    My question actually has to do with what consumers really 
see. I mean, most people I know, when they flip on the light 
switch, they don't ask where does my power come from? They 
don't care. They just want it to be as cheap and affordable as 
possible and for the lights to come on. And so I have a 
question that relates to the question around transmission, you 
know, the debate that is going on, you know, reported in 
today's New York Times, the western states and the eastern 
states and what is commercialized and how it is transmitting. 
And I wonder why there isn't more discussion about 
decentralizing the transmission system, localizing it so that 
you have the potential, you know, to use maybe limited sources 
of power generation that may be a mix of different things in a 
community and produce, then transmit and store locally. But it 
seems to me that all of our policy discussions involve this, 
you know, intricate, nationwide, large-scale transmission 
system that I think in the end is going to be far more 
expensive than if we figured out another shot. And I just 
wondered if I could hear your responses to that.
    Ms. Bacon. Well, this sounds almost like it was a planted 
question for me because I love----
    Ms. Edwards. No, but good to meet you.
    Ms. Bacon. I love distributed generation. It just makes 
sense. We put photovoltaics on rooftops. Why not generate the 
power right where you are going to use it? You don't have the 
land, you don't have the infrastructure, you don't have the 
transmission and distribution losses. Now, with solar, we are 
blessed with being able to do that because the sun shines 
everywhere, some places better than others. Wind, they have 
specific areas where the wind is much better so it makes much 
more sense to do wind farms and then transmit it. But I think 
the more that we can do that, the better. And the other point 
of this with regard to distributed generation, you don't have 
to just put it on one rooftop. You can also have distributed 
wind, if you will, or distributed solar that could handle a 
community. And the other point of it is you can do it now, it 
is immediate. I mean, in a matter of months, as opposed to 
waiting for all the infrastructure investments and the 
permitting and all these fights about it. I think in the long 
term there is going to be a mix between centralized with 
transmission and also the distributed generation.
    Ms. Edwards. I think I will go vote, Mr. Chairman.
    Chairman Baird. Thank you. I will hold the fort. That is 
why I did this, actually. I figured I would have free reign.

                     Permitting and Wildlife Issues

    I stepped out for a moment. One of the issues that was 
raised on the wind front had to do with permitting, and we have 
got some wind facilities proposed in our area. And one of the 
issues is regulatory agencies are telling us we just don't know 
the answers to some of the questions because it is a new 
technology, especially regarding the Endangered Species Act 
(ESA) issues and migratory birds and things of that sort.
    Where are we at in terms of learning what can be done to 
reduce bird mortality? You know, I remember years ago when the 
airlines discovered they can paint those little curlicues on 
jet engines and scare away birds. Didn't work in the Hudson 
River case, but apparently has been relatively successful.
    What can we do? What is the state of the regulatory issues, 
and how do we expedite the permitting to get this technology on 
line?
    Dr. Swift. I think there is a lot of recognition in the 
industry from where I sit that these are issues that need to be 
addressed. I think if you look at the 2030 roadmap, and as 
Steve pointed out in his testimony that we want to reduce the 
impacts of large-scale wind generation. There are some new 
technologies. We are looking at radar for measuring wind. 
Inflow to turbines is the thing I have been harping on this, 
the array effect issue, but those same radar can also be looked 
at to determine bats and birds and things. And some of the new 
wind farms in the coastal area in Texas actually have bird 
mitigation radar. As they see flocks of birds coming, they can 
actually shut down the wind farm. I think there is a lot of 
opportunity here as we go forward and work with the various 
ecological communities with the power people, the wind turbine 
people, et cetera. Good question.
    Mr. Saintcross. I would like to add to--you know one of the 
questions is the agencies responsible for dealing with 
wildlife. They don't have baseline data. They didn't have it 
onshore. In New York, we are doing post-construction monitoring 
at wind projects to do all the scavenging reviews to find out--
mist netting for bats and so forth because our agency, the 
Department of Environmental Conservation, really doesn't have 
that information. They have general ideas where flyways are, 
but they have not been characterized at that broad a scale 
using a common set of accepted scientific principles.
    Now, if we are going to go offshore, the scale grows even 
larger. When we did our prospecting in New York for about 30 
site areas, we paid for that. We co-funded that with the 
private sector in the early--about 10 years ago. But offshore, 
that is a big expense, and it is a brand new area for people. 
Again, that is something that if we launch new advanced 
renewable programs at an organization like NYSERDA, we would 
probably look to do those kinds of resource characterizations 
because they don't have that data. And industry, I think Dr. 
Swift identified that you can use radar. You can operate your 
facilities differently to address wildlife, but developers 
don't want to offer that without being told they have to. So 
the wildlife community has to be able to communicate. This is 
what we think we are concerned with. But you need scientific 
knowledge to do that.
    Chairman Baird. And that would presumably----
    Mr. Saintcross. And that is if----
    Chairman Baird. The radar thing would presumably only work 
for fairly large flocks of major migratory birds. It would be a 
little tougher for a marbled murrelet which is the case in 
our--I mean, they don't even know where they live. And so the 
whole risk is, we don't know where these critters are, but they 
are more or less in this neck of the woods and we are afraid to 
chop them up with a wind turbine. And therefore----
    Mr. Saintcross. I mean we are--excuse me.
    Chairman Baird. No, go ahead.
    Mr. Saintcross. We are getting better at it. With NEXRAD 
data, you can actually see the flocks come up at night on the 
radar. You can see where they move around, but then finding out 
what those species are is the next level. And that next round, 
we will just tell you, there is a large body of birds coming up 
at nighttime, and then they will see where they settle down. 
And you can plot that with technology. But you really don't 
know what species they are.
    Chairman Baird. Mr. Lockard and then I want to acknowledge 
Mr. Diaz-Balart or I can't remember, whoever is next. Mr. 
Bartlett will be next. Let me acknowledge Mr. Bartlett because 
I have gone over my time. Mr. Bartlett.

                            More on Storage

    Mr. Bartlett. Thank you. For a quarter of a century now, I 
have had solar PV and for the last couple of years I have had a 
sky stream, and I was amazed that the sky stream produces as 
much electricity when the wind blows adequately as 32-60-watt 
solar panels. So wind potential is real. But I am very happy 
with the solar PV.
    As Dr. Ehlers mentioned, the big challenge that faces us is 
storage. As long as solar and wind are trifling percentages of 
our total energy, storage doesn't matter. But we will one day 
not have fossil fuels and so we will be producing our energy in 
some alternative fashion. So storage is going to become very 
important.
    Pump storage, of course, is very efficient. Where you have 
the topography differences, you can certainly do that. But 
aside from that or just, you know, thousands, millions of 
batteries in hybrid cars and so forth, I know of no silver 
bullet for storage, and I wonder if we are moving as 
aggressively on this storage front as we are on the solar PV 
and the wind front.
    There is of course a potential for wind that if you are 
widely enough distributed that there may be enough wind blowing 
somewhere if you have a net which could carry the electricity. 
That is not true of solar, of course, because the sun shines 
only in the daytime. Are you comfortable that we have adequate 
research investment in storage and have we taken a really good 
look at how self-sufficient we could be with wind without 
storage, with a proper kind of a net or grid?
    Mr. Lockard. Yeah, I think a really important question and 
one that the AWEA R&D and governing group has wrestled with 
quite a bit. The 20 Percent by 2030 Wind Report, by the way, is 
interesting to me, although I am in support of cost-effective 
storage technology development. One thing it showed was that 20 
percent of our nation's electricity can come from wind without 
storage, actually. We were surprised I think, some of us, to 
see that outcome. And some of that has to do as you said with 
the build out of transmission and broadening the market control 
areas and the jurisdiction areas and whatnot for transmission. 
So it is built out of transmission but also the planning and 
management of the broader areas. And I think from our group's 
perspective, cost-effective storage is something that is 
interesting and should be worked on, not only for 
transportation applications but for megawatt scale storage, and 
maybe our wind goal then becomes 30 or 40 percent with cost-
effective storages opposed to 20.
    Mr. Zweibel. I would like to say that we have the same kind 
of paradigm in solar that we discovered that we could do an 
awful lot of solar without straining the grid without storage. 
But this doesn't mean we don't want storage because your vision 
and our vision coincides, that we need to have some way to 
store these intermittents for other times. And so a proper 
storage research program in parallel with the aggressive 
deployment of solar and wind I think is totally desirable. And 
the good news is that it might be in the right timeframe. In 
other words, even if it takes 20 years to develop the best new 
kinds of storage will be ready--we won't need it all that much 
before then, and we will be ready at that time for using it. So 
I think those kind of research programs really need to be done 
and should be done, and we definitely appreciate seeing you 
guys do that. It should not be considered as a roadblock to 
deployment of solar and wind because as the wind person said, 
distributed wind and transmitted solar and distributed solar 
can make up for an awful lot of that variation.
    Ms. Bacon. Just to add to what the other speakers said, I 
completely agree. Right now, storage is not a problem for 
solar, except for off-grid applications, and the one nice thing 
about solar is as it is shining during the day, it is producing 
during electricity typically in the peak hours.
    So most of our applications are grid-tied, and most of the 
utilities in the evening do not have problems in terms of any 
capacity problems whatsoever.
    In the longer-term, we certainly do need to look at that. 
One of the other things as you know, Congressman Bartlett, that 
we have done is our company also invented the nickel metal 
hydride battery, which is the battery of choice for today's 
hybrid electric vehicles. Much work is being done with lithium 
because the plug-in hybrids need higher capacity. We think we 
can also improve the nickel metal hydride battery but when we 
did studies of that as well, there can be a second life for 
these batteries. After the car is done with them, after about 
eight or nine years when they aren't of good enough capacity 
for running a vehicle, they are still good enough to have a 
second life with solar and other things. So I think again, some 
of these programs could be looked at in a very holistic 
approach as to how we can reuse some of these things. And I am 
sure that is going on in a lot of places, sort of reuse and 
recycle with it. But having said that, I think in the long-
term, we are going to have to deal with storage, and it is not 
just battery storage. There are other mechanisms of storage. I 
don't think the funding is sufficient now, but there are 
choices that need to be made, and in our industry, it is not 
holding our expansion up or our cost reductions. Thank you.
    Mr. Bartlett. Thank you.
    Chairman Baird. Thank you, Dr. Bartlett. One of the major 
contributions Dr. Bartlett makes is he is, probably more than 
any other Member of Congress, ``off the grid'' in the sense 
that he has implemented this technology in his own home and 
provides very valuable insights on that, everything from solar 
to photovoltaics to wind and his vehicles, et cetera. So the 
solution to our energy problem is for us all to live more like 
Roscoe Bartlett and we would quite sincerely would have a 
significant cut in energy.
    Mr. Diaz-Balart.

                  Bringing Down Costs to the Consumer

    Mr. Diaz-Balart. Thank you, Mr. Chairman. I think this has 
been a very interesting panel. Thank you for this.
    I have some questions about storage because that seems to 
be a big issue. I do want to--Ms. Bacon, you mentioned cost per 
kilowatt hour, and that frankly is where the rubber meets the 
road. Everything else is theory in the sense. And you mentioned 
about how Germany I guess is number one in the world now in 
solar. Is that correct? Do you know what their cost of kilowatt 
hours? Have they been able to bring it down comparable to other 
sources of more traditional, you know, old-fashioned energy?
    Ms. Bacon. Well, they are bringing it down, but the reason 
Germany has the biggest market in the world now is because of 
the policies that they have.
    Mr. Diaz-Balart. Subsidies?
    Ms. Bacon. Yes, they have a feed-in tariff which basically 
agrees--for those of you that don't know, it will buy the power 
created by the photovoltaic array at very high rates to make it 
feasible to be able to pay everybody from the module 
manufacturer to the installer to the owner to the integrator 
and the finance----
    Mr. Diaz-Balart. Right. No, I understand that. But I mean, 
since one of the things that we always hear about, and I heard 
it today, is that obviously, when you have more of it, the 
prices should go down because of technology, and yet in 
Germany, that still is not to the point of where it is 
competitive or is it? Where are we?
    Ms. Bacon. It is not competitive with the grid yet.
    Mr. Zweibel. Of course, Germany has about half the sunlight 
that we have here, and since cost per kilowatt hour is 
proportional to sunlight. So solar, both concentrated thermal 
and PV is about 15 cents a kilowatt hour in the U.S. Southwest. 
So it is getting closer to being cost effective, and that of 
course, is the point which is that good technology development 
can get you to cost effectiveness.
    Mr. Diaz-Balart. Well, that is obviously the key. If it is 
going to be something that is widespread, it has to be 
something that is competitive. But again, so how does it 
compare to kilowatt hour on regular, old-fashioned technology?
    Mr. Zweibel. As I said earlier, I generally use non-
CO<INF>2</INF> to compare it because we are looking at----
    Mr. Diaz-Balart. Yeah, but I am just talking about right 
now.
    Mr. Zweibel. Right. So coal is a nickel a kilowatt hour to 
eight cents a kilowatt hour. Natural gas is about 12 cents per 
peak period. It is about nine cents for base load. And wind is 
about eight cents a kilowatt hour onshore and about, in 
Germany, 22 cents a kilowatt hour offshore.
    Mr. Diaz-Balart. Okay. So we still have a little ways to 
go, but obviously you hope the technology----
    Mr. Zweibel. Right.
    Mr. Diaz-Balart. And R&D which is something that I am a big 
fan of is obviously key there because we are not there yet.
    I spent my formative years living in Spain, and we have 
seen some success stories and some dismal failures in Spain 
with their energy policies. They are now actually facing even 
some sporadic blackouts. Obviously doing very well as far as 
their percentages of renewable energy, but they are having a 
lot of issues with obviously the cost of energy, the level that 
the government has to subsidize it, the problem that is created 
for them there. Could you tell me some things that they have 
done right and then some things that they--that we clearly need 
to not replicate?
    Mr. Zweibel. Spain made a big mistake in putting out a 
tariff that was way too high, and that is not an unusual 
mistake when programs are just starting because they don't know 
where to put the number and they want to kick-start something. 
So they got a huge influx of installed systems that basically 
overwhelmed their system, and they got more than they wanted. 
So then the second year they just cut back to zero, and then 
that kicked everybody off of the system. So instead of starting 
a domestic industry, they made everybody go boom to bust in 
about a one and a half year cycle.
    So it is good to tune your incentives to being the proper 
size so that you don't have that kind of process. In fact, one 
of the best things about these feed-in tariffs is that they go 
down every year. So they incentivize the idea that you are 
going to have to improve every year, and the kind of costs in 
PV that have come down over the last 10 years because of this 
have been unbelievable. They have been fabulous.
    So I am very strongly in favor of the least cost to our 
society, and that is why I am very much behind the idea of good 
technology development and good incentive programs that come 
down with time.
    Mr. Diaz-Balart. And with my 38 seconds, Mr. Chairman, if I 
may, Ms. Bacon, you mentioned about, which is really exciting, 
the fact that, you know, people being able to have solar panels 
on their roofs. That I would imagine though is still very 
dependent on storage capacity or the fact that they are still 
on the grid and it would be a complementary type system. And 
also, would it work in hurricane-prone areas like Florida where 
we have very strict building codes for obvious reasons?
    Ms. Bacon. Another planted question. We are Category IV 
hurricane strength, and actually we are working with DOD 
because you know they are thinking of moving a lot of people 
down to Guam, and they have a lot of hurricanes there. And you 
know, they are lightweight, they are rugged. Senator Levin had 
to shoot bullets through it to show they still work. So they 
are about .7 pounds per square foot compared to the competition 
which is almost all glass-based, which is like five or six. So 
yes, they are very rugged, and they can work with that. And you 
were also correct that nearly all of our customers are tied to 
the grid. So during the day, we will size this such that it 
will provide all the daytime needs and they buy from the grid. 
There are other cases that the customer wants size larger and 
they have metering. The meter runs backwards, and they have 
hardly any bill at all. We have also done----
    Chairman Baird. Ms. Bacon, I want to make sure we give----
    Ms. Bacon. Fair enough.
    Chairman Baird.--Mr. Rohrabacher----
    Ms. Bacon. Yes.
    Chairman Baird.--an opportunity. Is that a version of 
product placement, Mr. Diaz-Balart?
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. This 
has been a very fascinating hearing. I have been in and out but 
I caught most of it. Let me just note for the record the 
argument about climate change has been used several times here. 
Those of us who think that global warming is the biggest hoax 
that has ever been played on human kind do not necessarily 
disagree with you about developing alternative energy 
resources. I mean, those of us who note that it has gotten 
colder for the last eight years and that CO<INF>2</INF> in the 
air is supposed to make it warmer, thus--anyway, we won't go 
into that. But just so you will know that those of us who 
reject that are committed to cleaner air and energy 
independence, and what is being advocated today fits right into 
that strategy. So let us look at this a little bit.

                              Net Metering

    I would like to ask you about open or net metering and an 
open grid and what is the relationship--what is the status 
today? This is where you can put into the grid and get credit 
for it and then have to pay for what you get out. Is that a 
status today in the United States?
    Ms. Bacon. Some of the wind colleagues might know better 
than I do, but there are many places that have net metering. 
There are a couple of ways they do it, and they are in the 
states. So it is up to the state to do it.
    In some cases the net metering where you can--and there are 
various names, by the way, for this same concept--you can run 
the meter backwards so that, you know, that is one aspect. 
There is another way that they charge you in the evening, and 
then in some cases they pay you the avoided cost which could be 
two cents a kilowatt hour, which isn't so great. In some cases, 
they charge you what they would normally have or they pay you, 
if you will, at a higher rate.
    Mr. Rohrabacher. Perhaps we should have some sort of a 
national standard on that that would then encourage people to 
utilize these alternative sources. And let me ask you about 
your specific alternative, Ms. Bacon. How much electricity does 
it produce?
    Ms. Bacon. In terms of photovoltaics?
    Mr. Rohrabacher. Yes.
    Ms. Bacon. You can do PV at any size. We have done some 
things in Hawaii----
    Mr. Rohrabacher. As compared to, let us say, a solar panel. 
A panel of that. What produces more electricity?
    Ms. Bacon. Well, they are both solar panels. So if you want 
a one megawatt installation, you could do it with our 
technology, or you could do it with the crystaline and glass 
based. As I mentioned, we did a 12 megawatt system on a roof in 
Spain. So they can be done of any size, and that is true with 
any of us in the industry. So we have done some things in 
houses for two kilowatts.
    Mr. Rohrabacher. Okay. How long does it last?
    Ms. Bacon. We typically give warranties for 20 to 25 years. 
It is a semiconductor, no moving parts. It is expected to last 
longer.
    Mr. Rohrabacher. So it might last 25 years. So solar 
panels, I understand after about five years you have to replace 
them?
    Ms. Bacon. No. The solar panels--this is a different type 
of solar panel. It is a thin film on a flexible substrate.
    Mr. Rohrabacher. So solar panels are not--you don't have 
to--whoever told me that is wrong.
    Ms. Bacon. They are wrong. They are wrong.
    Mr. Rohrabacher. Okay.
    Ms. Bacon. The crystaline and solar panels which have been 
around for 54 years, they are also warranted in the 20, 25 year 
range.
    Mr. Rohrabacher. And is your product biodegradable at the 
end of that?
    Ms. Bacon. We don't use any toxic materials. I think the 
stainless steel is probably going to last for a while.

                             Nuclear Power

    Mr. Rohrabacher. Okay. Now, the two--by the way, I believe 
electrification of our society is going to be the answer, and I 
think in the end, what you are advocating, which is trying to 
focus on letting everybody contribute to the grid or take out 
of the grid, is going to be the answer to giving people 
incentives to producing the electricity that they are capable 
of producing that will, based on the technology that we are 
developing, I see that as the future of our country, including 
automobiles, I might add.
    However, with that, let me ask you about the production of 
electricity through nuclear power, which nobody seems to have 
talked about here today and which seems to be--some of the 
environmentalists who are talking about global warming never 
can get themselves to talk about nuclear energy as an 
alternative. In terms of costs, are we talking about nuclear 
power being more expensive than what solar power offers, today 
or perhaps in the future, or less expensive?
    Ms. Bacon. There are other, better experts than I am on 
this, that is for sure, and probably the gentleman sitting 
right next to you has a better flavor for this than anybody in 
the room.
    But there have been some studies out with nuclear power 
that talks about as much as 30 cents per kilowatt hour. There 
are some that are as low as six cents a kilowatt hour for new 
plants that are put in, so one doesn't know. In my state, 
Michigan, it is too bad Dr. Ehlers wasn't here when we put in 
nuclear, it was three times the budget of what was anticipated.
    Mr. Rohrabacher. One last thing. Chairman, indulge me in 
one last question, and that is I have been told again--I was 
mistold about the solar panels having to be replaced every five 
years. That is clearly misinformation. But I was also told that 
to produce the amount of electricity that you would get from a 
nuclear power plant, it would take 5,000 windmills to generate 
that same power.
    Chairman Baird. I am going to ask for a brief answer to 
this.
    Mr. Rohrabacher. Yes. Is that off and what is the number of 
windmills that you would have to build to produce the same 
electricity as a nuclear power plant?
    Mr. Lockard. He says go ahead, but I don't know what the 
answer is.
    Chairman Baird. That never stops us.
    Mr. Lockard. Yeah, exactly. So I will keep going as well. 
What I know is the average wind turbine today, 1.5 megawatt 
turbine, for example, generates about enough electricity when 
running for about 300 to 400 U.S. homes. One machine.
    Mr. Rohrabacher. One windmill?
    Mr. Lockard. One machine. These are huge--I would have 
brought a product today, but it wouldn't have fit in this room. 
They are huge machines. They are megawatt, utility-scale 
machines. And part of those----
    Chairman Baird. Straightforward math, 1.5 megawatt 
multiplied by whatever.
    Mr. Lockard. And the other point is just there is plenty of 
wind resource, there is plenty of land. One of the issues that 
was raised earlier related to siting, and I think we ran out of 
time a little bit on some of the siting.
    Mr. Rohrabacher. Wait a minute. How many of those big ones 
that you are talking about would we have to have for one 
nuclear power plant to replace it?
    Mr. Saintcross. I think, you know, the scale of nuclear is 
all over the board. There are big ones, there are small ones. 
If you break it down to one megawatt level, a wind turbine will 
produce about 30 percent of that one megawatt. A nuclear plant 
for one megawatt may be at 90 percent, 95 percent. So that is 
the difference, three times the energy from the nuclear fuel.
    Mr. Rohrabacher. So you only need three of those big 
turbines for one nuclear power plant?
    Mr. Saintcross. I am just trying to break it down to a 
megawatt level because the power plants change to a different 
scale.
    Mr. Rohrabacher. Okay.
    Mr. Saintcross. You know, in New York there is a 1,638 
megawatt nuclear facility.
    Chairman Baird. What I am going to do at this point----
    Mr. Saintcross. So I am just showing you it is a three-to-
one type scale on a megawatt basis. You can think of it that 
way, and it will make it a little simpler for you.
    Chairman Baird. I am in favor of distributed nuclear power. 
Mr. Bartlett, did you have a comment or a question? I recognize 
the gentleman.

                          More on Net Metering

    Mr. Bartlett. Mr. Chairman, I would like to ask a 
clarifying question on net metering. The digital meters, do 
they run backwards the same way as the mechanical meters? If 
they do, then you don't really need laws for net metering 
because you would have to have a huge array to produce more 
electricity than you use. So you don't need anybody's 
permission to have a wind machine or solar on your house and 
run your meter backwards. If you run it backwards more than 
zero, then they may not pay you for that. In any event, they 
can't stop you from running the meter backwards, I don't think. 
Can they? So we don't really need net metering laws. All you 
need to do is put it on your roof and be careful you don't 
produce more electricity than you use, and you would have to 
have a huge array to do that. Thank you.
    Ms. Bacon. I will do that. I will get back to you on that.

                   Keeping Jobs and Products Domestic

    Chairman Baird. We have had an excellent hearing. I 
actually have just a couple of more brief questions. I don't' 
know if colleagues would like a second round. I am going to ask 
just one more follow up on a question I raised earlier, and I 
will give other Members an opportunity if they want follow-up 
questions as well. I had asked the question about export of 
technologies earlier, and I want to follow up on that line.
    Ms. Bacon, I am a personal supporter of buy America 
provisions. As you know, there are profound trade implications 
and in your particular business, given what you said earlier 
about the amount you export versus import, that would be a 
pretty interesting cost benefit question for you. About that 
policy: On the wind side, my understanding is we did a lot, 
i.e., we in the United States, did a lot of early work on wind 
and a lot of that now has been exported. The main jobs coming 
from wind in my District are longshore jobs. That is quite 
true, importing blades and towers, et cetera. What can we do as 
we move towards a green economy, cognizant of buy America but 
also cognizant of also protectionism and WTO.\4\ What else can 
we do to make sure that if we come up with newer technologies, 
we don't end up importing that technology like we import so 
many other things?
---------------------------------------------------------------------------
    \4\ The World Trade Organization
---------------------------------------------------------------------------
    Mr. Lockard. Yes, I think wind for sure offers a unique 
opportunity for domestic manufacturing. The physical product's 
size--the blades are huge. They weigh 15,000, 20,000 pounds a 
piece. The towers are difficult and expensive to transport. So 
the trade-off is labor cost versus transportation cost and that 
of incentives, if there are any. And the other truth is, we 
don't like it, but Mexico is cheap. And so in the end of the 
day, and these products are fairly labor intensive as it turns 
out. So I think, what can we do? We talked a bit a while ago 
about the renewable electricity standards, just some strong, 
long-term fundamental policies that causes Boards of Directors 
to make investments in the United States for long-term periods 
of time. That is one. The other is just to help incentivize or 
create more competitive U.S. manufacturing. There is a 
technology angle to that. The plant we opened in Newton, Iowa, 
there were State and local incentives that didn't match one-
for-one, matched maybe one-fourth-to-one of the investments we 
made of our company. But it was still an adequate incentive to 
cause us to not build that plant in Mexico and instead build 
that plant in Newton, Iowa.
    So I think a wind opportunity offers a unique opportunity 
because of the transportation cost. The rest of it is on the 
policy side.
    Chairman Baird. The key point about that from the article 
in the Harvard Business Review and elsewhere that I have read a 
lot and spoken to people is we may think, oh, we are going to 
develop the technology here, and we are going to just export 
the manufacturing. Well, when you export the manufacturing, you 
are exporting the seed corn for your technology because you 
just have to interact on a daily basis with the manufacturing 
to get the feel for how it works. So this myth that we are just 
going to do all the smart stuff here and export the manual 
labor outside, eventually the smart stuff is gone, too, and you 
got nothing left. Is that a fair concern? Any other comments on 
that before I recognize colleagues?
    Mr. Zweibel. I would just say that we lost the market 
leadership in these technologies, so they built the plants 
elsewhere. Where they build them they often incentivize them. 
In Germany they incentivize 50 percent of the capital costs. 
They build them in Michigan, they incentivize them in Michigan. 
The cost of transportation is an avoided cost in all these 
cases, but we should take advantage of that. And in the case of 
PV, it is not a high labor cost. So it is a technology we can 
do here in the United States and be competitive. But I do think 
that you are right. This is a national issue. It is not just an 
issue for renewable energy, it is an issue for our country, and 
it is much bigger than we are.
    Chairman Baird. I hope to have some further hearings on 
that topic. Dr. Swift, did you----
    Dr. Swift. Yes, I just wanted to comment on the university 
side of this. You know, as university programs depend on 
research which was pointed out before, that brings programs, 
that brings students, that brings technology innovation. Once 
you have a trained workforce, companies are very interested and 
will locate where that trained workforce is. So there is a huge 
education piece that we need to remember, and that is directly 
related to the research piece, at least at the university 
level.
    Chairman Baird. Excellent point, Doctor. Mr. Inglis 
recognized for five minutes.

                 Grid Compatibility With Power Sources

    Mr. Inglis. I think next week we are going to have hearings 
on the grid, but the connection here to wind and solar as to 
the grid is, as I understand it, there is some question about 
the ability of the grid as it exists now to accept many, many 
sources of electricity in a distributed system. Is that right? 
I mean, is there a question about the ability of the grid to 
accept all that power?
    Mr. Zweibel. That is a key issue. After the cost, that is 
the biggest challenge for all of us is to how to get beyond a 
certain level of penetration without destabilizing the grid. 
And so what you do there is a couple of things. First of all, 
there is a natural tendency to want to deal with smarter grids 
that can handle faster decision-making. So it is the SmartGrid 
aspect that actually goes back to the person who is dispatching 
and what the resources are that they are dispatching. The 
second thing was mentioned earlier on wind and now is starting 
to happen in solar and that is solar forecasting. So when you 
can forecast the intermittency, you don't have the spinning 
reserves spinning all the time waiting for that cloud to come 
over or that cloud bank to come over. You only turn them on a 
half hour before it comes over because you know well enough 
when it is going to come over. And so there is a lot of work 
being done on solar forecasting, very valuable.
    So these things get us up toward those high levels of 
penetration that we were talking about. Whether it is 20 
percent, 25, 30, 15 percent, it is somewhere in that range that 
you can do without storage. Once you get to that point, though, 
you are going to start looking at storage and you are going to 
start looking at distributive storage, you are going to start 
looking at issues with transportation like using batteries for 
plug-in hybrids and electric vehicles for some of that storage 
so that you move into that next level where you solve those 
grid-related problems. And as I said earlier, where I think the 
good news is that, I think this is rare that we can do almost 
as much solar and wind as we want for the next 10 to 15 years 
and not really shoot ourselves in the foot on this while we are 
doing the R&D to get the storage right.
    So let us do them both. Let us try and chew gum and walk at 
the same time.
    Chairman Baird. Dr. Bartlett.

                      Storage Research Initiatives

    Mr. Bartlett. Thank you. As you have noted, for the moment 
at least, when your grid is high, you are using the grid as 
your battery, and what you are doing is you are simply forcing 
the electric producers to modify their production to be 
consistent with your sporadic production. And for a long while, 
what, probably 15 to 20 years we will be okay there. But it may 
take that long or longer to develop alternative storage 
technologies that we need to get going, and my perception is 
that we aren't getting going.
    I have the largest HuP-1 solar home size batteries that 
they sell. These are lead acid batteries. Still, nothing 
competes with lead acid batteries for storage per dollar. You 
can't put them in a car because they are too heavy, but storage 
per dollar, nothing competes with the lead acid. If you are 
going to store huge amounts, you are still not going to do it 
there because it just takes far too many. There are a lot of 
creative technologies out there like pumping air pressure into 
some big thing, like having a water tower with a membrane on 
top and loading it up with steel which is seven times as heavy 
as water and pumping that up until it gives you the effect of a 
very high water column. I have noticed no broad areas of 
solicitation that is asking for creative solutions to this 
energy thing. Have I missed something.
    Mr. Saintcross. I can comment with respect to New York 
State. New York is installing a 20 megawatt flywheels system in 
eastern New York State to store, to be able to address very 
immediate perturbation in the system. We do have a lot of 
interest for a compressed-air energy storage with some of the 
utilities in Upstate. We have funded some high-level 
feasibility analyses but we are really right now looking for 
greenhouse gas initiatives programs. We are sitting on about 
$127 million right now at NYSERDA. We have an operating plan 
that we have not launched yet because the cap-and-trade program 
in New York is under lawsuit right now. It is being challenged 
legally. But the compressed air energy storage program is a 
component of our advanced energy supply and delivery program, 
as is the advanced renewables program. So we are definitely 
intrigued with trying to do some of that work.
    We have also done a lot of work on wind integration. We 
think we can take 10 percent or 15 percent integration in New 
York with wind and be just fine. We now do five-minute and 15-
minute forecasting. We have developed brand-new forecasting 
systems so that our operators now on the grid are sort of 
controlling the dispatch of wind resources, and we are also 
instituting a new program to actually dispatch wind, where they 
are actually providing price signals. When a system 
perturbation occurs, they are asked to back down and curtail, 
and they can make economic decisions. So I think that we are 
getting far more sophisticated. I think we can trust we can 
handle more wind on the system, but I think we are intrigued by 
storage, and we are just at the cusp of moving forward with a 
lot more work in that area in New York.
    Mr. Bartlett. That is New York, but do we have a national, 
aggressive program in developing storage technologies?
    Mr. Zweibel. That is a wonderful idea that really should be 
done, especially with the knowledge that we have time to be 
creative and to do a really good job instead of kind of a cut-
and-paste kind of job. So I think that would be a great idea. 
And it also suggests that it is probably going to happen with 
wind first before it happens with solar because it is going to 
be long time before we switch solar from the day to the night, 
but it will be a pretty short time before we start switching 
wind from night to day.
    Chairman Baird. Dr. Bartlett, maybe we ought to consider 
having a hearing on that very topic. I would be interested in 
working with you.
    Mr. Bartlett. Thank you. Yes, I think that storage is one 
of the big challenges here, and the quantity and quality of 
energy and fossil fuels is just incredible. And when we are 
forced, and we will--eventually we will have a world in which 
we are not using fossil fuels. Geology will assure that. And 
when that time comes, we are going to have to have some huge 
storage capabilities or we are not going to be living the kind 
of lifestyle we live now. And it may take quite a long time to 
develop these, and so we need to get started. Thank you.
    Chairman Baird. Dr. Swift.
    Dr. Swift. I just wanted to comment and support the need 
for a storage program. I served on a DOE wind review panel, and 
there was a significant discussion really just to make the 
point: most people in the wind community feel that it is kind 
of the same consensus--we don't need it right now. We need to 
use wind research dollars to address wind-specific issues. 
Storage needs to be addressed somewhere else. So I would 
support the idea very strongly for an independent hearing and 
some real focus on storage itself. Thanks.
    Chairman Baird. I would be happy to work with the 
gentleman. As always, he has got I think a very important 
insight there.
    Any further comments or questions, Dr. Bartlett, before we 
close?

                                Closing

    With that, I want to thank the witnesses for a most 
informative and interesting hearing. Thank you for your time, 
and thanks for everyone else who attended today. The record 
will remain open for two weeks for additional statement from 
the Members and for answers to any follow-up questions the 
Subcommittee may ask of the witnesses. With that, the witnesses 
are excused. I thank my colleagues for their participation, and 
the hearing is now adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
